<html>
<title> - PERSPECTIVES ON CLIMATE CHANGE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     PERSPECTIVES ON CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                                AND THE

               SUBCOMMITTEE ON ENERGY AND THE ENVIRONMENT

                                 OF THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2007

                               __________

                           Serial No. 110-23

                   (Committee on Energy and Commerce)

                           Serial No. 110-14

                 (Committee on Science and Technology)


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                    U.S. GOVERNMENT PRINTING OFFICE
37-552                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON ENERGY AND COMMERCE

    JOHN D. DINGELL, Michigan, 
             Chairman
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, Jr., New Jersey
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
GENE GREEN, Texas
DIANA DeGETTE, Colorado
    Vice Chairman
LOIS CAPPS, California
MIKE DOYLE, Pennsylvania
JANE HARMAN, California
TOM ALLEN, Maine
JAN SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
DARLENE HOOLEY, Oregon
ANTHONY D. WEINER, New York
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana               JOE BARTON, Texas
                                         Ranking Member
                                     RALPH M. HALL, Texas
                                     J. DENNIS HASTERT, Illinois
                                     FRED UPTON, Michigan
                                     CLIFF STEARNS, Florida
                                     NATHAN DEAL, Georgia
                                     ED WHITFIELD, Kentucky
                                     BARBARA CUBIN, Wyoming
                                     JOHN SHIMKUS, Illinois
                                     HEATHER WILSON, New Mexico
                                     JOHN B. SHADEGG, Arizona
                                     CHARLES W. ``CHIP'' PICKERING, 
                                         Mississippi
                                     VITO FOSSELLA, New York
                                     STEVE BUYER, Indiana
                                     GEORGE RADANOVICH, California
                                     JOSEPH R. PITTS, Pennsylvania
                                     MARY BONO, California
                                     GREG WALDEN, Oregon
                                     LEE TERRY, Nebraska
                                     MIKE FERGUSON, New Jersey
                                     MIKE ROGERS, Michigan
                                     SUE WILKINS MYRICK, North Carolina
                                     JOHN SULLIVAN, Oklahoma
                                     TIM MURPHY, Pennsylvania
                                     MICHAEL C. BURGESS, Texas
                                     MARSHA BLACKBURN, Tennessee

                           Professional Staff

 Dennis B. Fitzgibbons, Chief of 
               Staff
Gregg A. Rothschild, Chief Counsel
   Sharon E. Davis, Chief Clerk
   Bud Albright, Minority Staff 
             Director

                 Subcommittee on Energy and Air Quality

 RICK BOUCHER, Virginia, Chairman
G.K. BUTTERFIELD, North Carolina
    Vice Chairman
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
ALBERT R. WYNN, Maryland
MIKE DOYLE, Pennsylvania
JANE HARMAN, California
TOM ALLEN, Maine
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
DARLENE HOOLEY, Oregon
ANTHONY D. WEINER, New York
JIM MATHESON, Utah
JOHN D. DINGELL, Michigan (ex 
    officio)                         J. DENNIS HASTERT, Illinois,
                                          Ranking Member
                                     RALPH M. HALL, Texas
                                     FRED UPTON, Michigan
                                     ED WHITFIELD, Kentucky
                                     JOHN SHIMKUS, Illinois
                                     JOHN B. SHADEGG, Arizona
                                     CHARLES W. ``CHIP'' PICKERING, 
                                         Mississippi
                                     STEVE BUYER, Indiana
                                     MARY BONO, California
                                     GREG WALDEN, Oregon
                                     MIKE ROGERS, Michigan
                                     SUE WILKINS MYRICK, North Carolina
                                     JOHN SULLIVAN, Oklahoma
                                     MICHAEL C. BURGESS, Texas
                                     JOE BARTON, Texas (ex officio)

                                  (ii)
                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio

                           Professional Staff

                      Chuck Atkins, Staff Director
                       Jim Turner, Chief Counsel
                 Deborah L. Samantar, Legislative Clerk
                Leslee Gilbert, Minority Staff Director
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania         RALPH M. HALL, Texas
BART GORDON, Tennessee

               Jean Fruci, Democratic Professional Staff
            Chris King, Democratic Professional Staff Member
         Shimere Williams, Democratic Professional Staff Member
         Elaine Paulionia, Democratic Professional Staff Member
                    Stacey Steep, Research Assistant
              Margaret Caravelli, Republican Chief Counsel
               Amy Carroll, Republican Professional Staff
             Elizabeth Stack, Republican Professional Staff


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     1
Hon. Bart Gordon, a Representative in Congress from the State of 
  Tennessee, opening statement...................................     7

                               Witnesses

Hon. Al Gore, Jr.,...............................................     8
    Prepared statement...........................................    18
Bjorn Lomborg, adjunct professor, Copenhagen Consensus Center, 
  Copenhagen Business School, Copenhagen, Denmark................    52
    Prepared statement...........................................    60

                           Submitted Material

Follow-up questions for the record to Mr. Gore, letter of June 5, 
  2007...........................................................   138
Letter of March 6, 2007 from Mr. Barton and Mr. Hastert to His 
  Excellency Vaclav Klaus, president of the Czech Republic.......   141
    Answers to submitted questions...............................   143
``Ice Core Records of Atmospheric CO\2\ Around the Last Three 
  Glacial Terminations'', by Hubertus Fletcher et al., Science 
  Magazine, March 12, 1999.......................................   147
``400 Years of Sunspot Observations'', submitted by Mr. Akin.....   150


                     PERSPECTIVES ON CLIMATE CHANGE

                              ----------                              


                       WEDNESDAY, MARCH 21, 2007

  House of Representatives, Subcommittee on Energy and Air 
 Quality, Committee on Energy and Commerce; joint with the 
      Subcommittee on Energy and Environment, Committee on 
                                    Science and Technology,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 9:48 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Dingell 
(chairman of the Committee on Energy and Commerce) presiding.
    Present from the Committee on Energy and Commerce: 
Representatives Boucher (chairman, Subcommittee on Energy and 
Air Quality); Butterfield, Melancon, Barrow, Waxman, Markey, 
Wynn, Doyle, Harman, Allen, Gonzalez, Inslee, Baldwin, Ross, 
Hooley, Weiner, Matheson, Barton, Hastert, Upton, Whitfield, 
Shimkus, Shadegg, Pickering, Buyer, Bono, Walden, Rogers, 
Myrick, Sullivan, and Burgess.
    Present from the Committee on Science and Technology: 
Representatives Gordon (chairman, Committee on Science and 
Technology) Lampson (chairman, Subcommittee on Energy and 
Environment); Costello, Woolsey, Lipinski, Giffords, McNerney, 
Udall, Baird, Hall, Inglis, Bartlett, Biggert, Akin, 
Neugebauer, and McCaul.
    Staff present from the Committee on Energy and Commerce: 
Dennis B. Fitzgibbons, Gregg A. Rothschild, Sharon E. Davis, 
Jonathan Cordone, Sue Sheridan, Lorie Schmidt, Bruce Harris, 
Chris Treanor, David McCarthy, Kurt Bilas, Tom Hassenboehler, 
Matt Johnson, and Peter Kielty.
    Staff present from the Committee on Science and Technology: 
Chuck Atkins, John Piazza, John Fruci, Louis Finkel, Deborah 
Samantar, Leslee Gilbert, Margaret Caravelli, Amy Carroll, and 
Elizabeth Stack.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Chairman Dingell. The committee will come to order.
    The Committee on Energy and Commerce and our distinguished 
friends from the Committee on Science and Technology are having 
a joint hearing today amongst the two subcommittees which have 
the responsibility of addressing the problem of climate change 
and energy security.
    The joint hearing held by the Subcommittee on Energy and 
Air Quality and the Subcommittee on Energy and Environment of 
the Committee on Science and Technology has been scheduled for 
a goodly while. I want to welcome my colleagues from both of 
the committees, especially our colleagues from across the hall, 
in particular Chairman Gordon and Subcommittee Chairman 
Lampson.
    By agreement amongst the majority and the minority of both 
committees, the hearing will be conducted under the Rules of 
the Committee on Energy and Commerce. As such, Members who were 
here when the committee was called to order will be recognized 
in the order of seniority alternating between the two 
subcommittees, and other Members will then be recognized in the 
order in which they have arrived.
    Members of both full committees who do not serve on the 
relevant subcommittees will not be able to participate in 
today's hearing. Many of them are seated in the front row of 
the audience, and I want to thank them for their efforts and 
their interest in these important subjects. Under the rules of 
the committee, all written statements of the Members will be 
inserted into the record, and all Members may ask additional 
questions of the witnesses in writing through the chairman of 
the Committee on Energy and Commerce.
    These questions will be included in the official hearing 
record along with the response of the witness.
    I am sure all will know that the committees will seek to 
see to it that this matter is handled to the full satisfaction 
of all.
    All will be notified in subsequent days of the proper 
procedures for submitting statements and questions. By 
agreements with our good friends and colleagues in the 
minority, only the chairmen and ranking members of the full 
committees and relevant subcommittees will be recognized for 
opening statements.
    Other Members will be permitted to make their opening 
statements which will be inserted in the record in proper 
fashion.
    Our first witness has been dedicated to the issues of 
energy security and global warming throughout his career. We 
are delighted to welcome him back to this room where he served 
with such distinction for so long.
    His resume includes many impressive titles, including 
Academy Award winner, most notably, and former member of the 
Committee on Energy and Commerce, which is I think perhaps the 
most important of his accomplishments. And incidentally he also 
served as Vice President of the United States, as we will all 
recall, for 8 years and was the Democratic nominee for the 
President of the United States.
    To allow the Vice President to interact with our members as 
much as possible, the Chair will forgo his opening statement.
    With that, it is now my privilege to recognize the ranking 
member of the full Committee on Energy and Commerce, the 
distinguished gentleman from Texas, our colleague, Mr. Barton, 
for 5 minutes.
    Mr. Barton. Mr. Chairman, before I do that, I have a 
parliamentary inquiry.
    Chairman Dingell. The gentleman will state the 
parliamentary inquiry.
    Mr. Barton. Mr. Chairman, as you may recall, when we 
adopted the rules for this committee in the organizational 
meeting, you and I entered into a colloquy which became a part 
of the rules package that stated at hearings like this members 
of the committee that are not a member of the subcommittee and 
members of other committees that wish to attend would be 
welcome to sit in.
    I noticed that we have at least three members of the Energy 
and Commerce Committee or the Science Committee in the 
audience, and there may, I see several other Members I am not 
sure if they are members of the Science Committee.
    I would like to know why it is that they are not allowed to 
sit up on the dais. I respect the right that they may not be 
able to ask questions, because this is a joint hearing, but I 
do not understand why we are violating the rules that we just 
adopted and they can't even sit at the dais with the other 
members of the committee that they are a member of.
    Chairman Dingell. The Chair would advise my good friend and 
colleague that that is a matter within the discretion of the 
Chair. I have this matter under very careful consideration and 
there is a fair probability that some subsequent action will be 
taken by the Chair on this matter. I would note that we have 
here a gathering of Members which is at least as large as 
either of the two committees. And there are problems with 
availability of seating. The Chair will work the with the 
gentleman to try to resolve these questions in a fashion----
    Mr. Barton. Further parliamentary inquiry.
    Chairman Dingell. The gentleman continues to be recognized.
    Mr. Barton. My understanding is that, once we adopted, 
after the colloquy, the rules package, that it is not the 
prerogative of the Chair, that if the Chair wishes to waive 
that rule, he has to ask unanimous consent.
    Mr. Stupak. With all respect, the Chair is going to inform 
my good friend that it is a prerogative of the Chair and the 
present occupant of the Chair deems it to be a prerogative of 
the Chair and will act accordingly.
    Now having said these things, the Chair is going to remind 
my good friend, we have a lot of Members who are sitting here 
who wish to be recognized and be heard. I don't want to deny my 
good friend the right to be heard on any points of concern.
    I do want to remind him, however, though, that the time 
that he and I are taking for these purposes are probably 
denying the Members the opportunity to be heard at a later time 
to ask questions.
    Mr. Barton. Well, I have two more parliamentary inquiries.
    Chairman Dingell. The gentleman is recognized.
    Mr. Barton. On this last parliamentary, I am not going to 
press the point and ask for a actual parliamentary ruling and 
appeal the ruling of the Chair because I support the fact that 
we are holding this hearing. But I will ask the chairman if he 
is going to use his good offices to try to find seats for the 
members of the full committee at the dais.
    Chairman Dingell. The Chair will inform the gentleman the 
Chair is thinking very actively on this matter and will 
probably advise the gentleman shortly of any further decisions 
made.
    Mr. Barton. Further parliamentary inquiry.
    Chairman Dingell. The gentleman continues to be recognized.
    Mr. Barton. We have another rule. And I believe this is a 
rule also of the Science Committee, and I think it is a rule of 
every committee, that witnesses that voluntarily agree to 
testify are required to have their testimony in writing 48 
hours in advance. Now, Mr. Gore is not only a former Vice 
President, he is a former Member of the House, a former member 
of this committee, and I believe a former subcommittee chairman 
of this committee.
    We, on the minority received, his written testimony at 
about 7 o'clock this morning. It apparently got to the majority 
offices about 1 o'clock this morning.
    How are we supposed to prepare questions for our esteemed 
witness when we are basically given testimony 2 hours before he 
shows up? And that is a clear violation of the rules.
    Chairman Dingell. Well, if the gentleman would permit, the 
Chair will respond.
    First of all, it is not a violation because this is a 
matter which is addressed again in the discretion of the Chair. 
And the Chair has made the decision that we would not enforce 
this rule according to its absolute terms in view of the power 
of the Chair to act in his discretion on this particular 
matter.
    The Chair will note that I have observed the gentleman from 
Texas and my colleagues on the Republican side, and have 
observed them to be members of great talent and ability.
    I have watched them ask questions for many years. I have 
never found them to be tongue tied or lacking in the ability to 
address these questions. The statements are available. I am 
sure the gentleman knows how to ask questions. And I have great 
confidence in him and the fact that he will ask good questions.
    I also would note that we have a very fine copy of the Vice 
President's book, ``An Inconvenient Truth''. If the gentleman 
wishes to have a little reading that he may enjoy during the 
matter or at later times, I would be happy to make my copy 
available to him.
    Mr. Barton. Further parliamentary inquiry.
    Mr. Waxman. Point of order, Mr. Chairman.
    Mr. Barton. I can do it in regular order. If you want to 
spend 2 hours and have an absolute cat fight, we will do it 
that way.
    Chairman Dingell. The Chair wants to accommodate my good 
friend from Texas, and I am going to do my level best to see to 
it that it is done. And the gentleman will continue to state 
his parliamentary inquiry, and the Chair will try to respond.
    Mr. Barton. Well, nowhere in the rules, as the minority 
reads them is it prerogative of the Chair to waive written 
testimony. That requires unanimous consent. Now, again, because 
of my affection for the esteemed chairman, I am not going to 
press that point today because of the importance of this 
hearing. But this is the last day that we are going to just let 
regular order be overridden.
    Chairman Dingell. Well, the Chair, again, with all respect 
and great affection observes to the gentleman, my good friend 
from Texas, that under rule 4(b)(1) of the rules of this 
committee, there appears the language requirements for 
testimony. I quote, ``The chairman of the committee may waive 
the requirements of this paragraph or any part thereof.''
    Under that provision, the Chair has waived the requirement 
with regard to the production of books, papers and records and 
testimony on this particular time. At this particular time and 
we will try to see to it that that is complied with to whenever 
the circumstances permit. And I do want to accommodate my good 
friend and have a harmonious consideration of the difficult 
questions before us.
    Mr. Barton. I have one more parliamentary inquiry, and this 
will honestly be the last one.
    Under the rules of the committee, individuals who waive 
their right to opening statements are given that time in the 
question period. That is at the discretion of the chairman. 
What is your ruling going to be on waiving opening statements 
if we get additional time in the question period?
    Chairman Dingell. The Chair is going to respond this way.
    This is a rule. It will be applied on the insistence of any 
Member. The Chair reminds my good friend that we are in the 
position of a fairly limited amount of time. We are going to 
see it to that we try to see to it that the younger members get 
a full opportunity to be heard. And for the more senior members 
to take advantage of this is simply to deny the younger members 
the opportunity to ask questions or to have an adequate amount 
of time for questions. So the Chair will respect this. But I 
want to inform my good friend that I think it would be unwise 
and perhaps unfair for us to do this at this particular time.
    So, does the gentleman seek recognition for any further 
purposes?
    Mr. Barton. No, sir.
    Chairman Dingell. Well, with respect and affection, then 
the Chair thanks my good friend.
     The Chair recognizes now the distinguished gentleman from 
Texas, Mr. Barton, for such opening statements he chooses to 
give for 5 minutes.
    Mr. Barton. Mr. Chairman, I am going to waive the opening 
statement with the understanding that I will have that time in 
my question period which has been the practice of this 
committee.
    Chairman Dingell. The gentleman asserts that right, and it 
will be respected.
    The Chair recognizes now my dear friend, the gentleman from 
Tennessee, who is the chairman of the Science and Technology 
Committee, for the purpose of introducing our guest. I would 
note that the gentleman from Tennessee, is also the 
distinguished representative of the district of which, in which 
our former colleague and good friend, the Vice President, 
lives. The gentleman is recognized for 5 minutes.
    Chairman Gordon. Thank you, Chairman Dingell, I waive my 
opening statements so that Members will have more time to 
question later.
    Chairman Dingell. The Chair thanks the gentleman.
    The Chair now recognizes the ranking member of the full 
Committee on Science and Technology, who is also a member of 
the Committee on Energy and Commerce, our good friend, Mr. Hall 
of Texas, for 5 minutes.
    Mr. Hall. Ladies and gentlemen of the committee, the two 
committees, I thank you and thank you for holding this hearing. 
And I hope that we all benefit from it.
    Today we are witnessing an all out assault on all forms of 
fossil fuels and all forms of nuclear energy. We have to be 
energy conscious and sensible enough to know that fossil fuels 
will continue to be the major source of energy in the near 
future. If we allow this attack on energy to go unanswered and 
have it result in lessening our domestic reliance on fossil 
fuels, we will force the reliance on the OPEC from the dangers 
of 60 percent presently to a recklessly dangerous and likely 80 
percent of our total energy supply.
    Forcing a continued reliance on OPEC will make our energy 
markets more unstable and dismantle jobs for workers, such as 
drillers, tool pushers, rough necks and others who furnish the 
manpower and the woman power necessary to continue the search 
and the capture of various sources of energy. It would also 
establish OPEC countries as even more dominant than they are 
today. Abandoning America's energy producers would result in 
the death of an energy industry, an industry that helped win 
world wars and continues to fuel our energy interest today. It 
could also result in the loss of a generation of young American 
men and women who would have to fight for energy when and if 
the OPEC nations abandon the U.S.A. by canceling all sales and 
casting their future with other than Americans.
    We must press for energy self-reliance and continue to 
pursue technology to combat the threat of increased carbon 
dioxide. These two goals are interconnected. If we tap into 
American ingenuity, we not only unleash the power of our 
Nation's competitiveness, but we also find domestic solutions 
for our future that are affordable, that are reliable and that 
are clean.
    Republicans in Congress have taken this pro-growth approach 
over the past several years. The Energy Policy Act of 2005 for 
instance, included numerous initiatives for greater energy 
efficiency and alternative energy research and development. In 
the coming weeks, I plan on introducing legislation that 
expands on many of these initiatives so that we can continue to 
develop innovative solutions to our domestic energy needs.
    I understand that Dr. Lomborg will be discussing the role 
of energy research and development and how this approach will 
cost a lot less than the Kyoto-like policies and yet could 
potentially have a much greater impact on our climate. These 
are the types of solutions our country needs, solutions that 
create jobs, foster American innovation and allow our country 
to become more energy independent.
    The legislation the present congressional leadership is 
advocating brings about Kyoto-like policies that will cost our 
Nation a lot of money and won't stop global warming in the 
future. Moreover, it is clear that other countries who are 
major polluters are not willing to help offset the giant costs 
entailed in this type of legislation.
    You can bring in testimony of expert after expert, all of 
whom can say that global warming is a threat to world health, 
but not one of them will discuss the cost of their 
recommendations and the lack of the benefit gained at that 
cost. Yes, the Americans--and the cost to all Americans--must 
be a part of this discussion.
    Finally, the American people will not guess today at what 
mother nature will do 100 or 1,000 years from now and will not 
be cajoled, frightened, bullied or sullied into nor lead into a 
dangerous world that envisions us without a reliable energy 
supply.
    It is not going to happen because it can't happen. Working 
Americans will not tolerate shipping our jobs to China, one of 
the world's worst polluters. We should not abandon our 
obligation to all Americans by allowing the renewed attack on 
energy by a handful of pro-Kyoto self-styled experts who never 
mention the cost to be paid by us, the American people--when 
China, Russia, Mexico, India and others offer more and more 
pollution and not one penny for the cleanup.
    I have used the word ``cost'' eight times in this speech 
alone. I have never heard the word used by the Kyoto-ites of 
this Congress. This Congress will listen to Americans who 
realize that someone has to pay the cost. I yield back my time.
    Chairman Dingell. The time of the gentleman has expired.
    The Chair recognizes now the distinguished chairman of the 
Subcommittee on Energy and Air Quality of the Committee on 
Energy and Commerce who has been performing extraordinarily 
well in addressing in a very aggressive and responsible fashion 
the subcommittee's review of these important matters. The Chair 
recognizes the distinguished gentleman from Virginia, Mr. 
Boucher.
    Mr. Boucher. Thank you very much, Mr. Chairman. I 
appreciate your comments. I, too, will waive an opening 
statement and reserve my time for propounding questions.
    Chairman Dingell. Chair recognizes now the distinguished 
ranking member of the Subcommittee on Energy and Air Quality, 
the Committee on Energy and Commerce, our good friend and 
colleague, the former Speaker of the House, Mr. Hastert of 
Illinois, for 5 minutes.
    Mr. Hastert. Mr. Chairman, I just want to say, thank you 
for holding this hearing. I will waive my opening statement and 
reserve my time as an option in questions. Thank you.
    Chairman Dingell. Statement of the gentleman is waived.
    The Chair recognizes now the chairman of the Subcommittee 
on Energy and Environment of the Committee on Science and 
Technology, our good friend, Mr. Lampson of Texas, for 5 
minutes.
    Mr. Lampson. Thank you, Mr. Chairman. I, too, will waive my 
comments and thank you for holding this hearing and, out of 
respect for both our witnesses and other members of our 
committee, waive the statements at this time, thank you.
    Chairman Dingell. Chair thanks the gentleman. The Chair now 
recognizes the distinguished ranking member of the Subcommittee 
on Energy and Environment of the Committee on Science and 
Technology, Mr. Inglis of South Carolina.
    Mr. Inglis.
    Mr. Inglis. Mr. Chairman, I, too, waive my time and reserve 
it for questions.
    Chairman Dingell. Gentleman has waived.
    The Chair now recognizes our distinguished friend, our good 
friend from Tennessee, Mr. Gordon, for the chairman of the 
Committee on Science and Technology for the privilege of 
introducing Representative Gore, who happens to be a 
constituent of his.
    The distinguished gentleman is recognized.

  OPENING STATEMENT OF HON. BART GORDON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Chairman Gordon. Thank you, Mr. Dingell, in 1984, a young 
Congressman from Tennessee, named Al Gore, Jr., with a lot of 
help from his wife, Tipper, was elected to the United States 
Senate. I was fortunate enough to succeed him in the Sixth 
Congressional District. And for those first few weeks when I 
went around in the congressional district, Al was really a 
legend. He was known for constituency work. He was known for 
the work he did here legislatively as well as for his 
oversight.
    And so everywhere I would go, people would say you have got 
some big shoes to fill following Al Gore. Mighty big shoes. And 
they were correct. But I finally got tired of hearing about it. 
And I said, they ought not talk about Al's feet that way.
    And even though Al represented the entire State, we still 
shared mutual constituents within the Sixth District, and one 
of those constituents was a lady named Barbara Mandrell, and it 
was about that time that she had a song out entitled, ``I was 
country when country wasn't cool.'' Certainly Albert Gore has 
had a long passion and dedication to make the world understand 
that global warming was real and that it had consequences.
    We all know that recently the IPCC report stated that with 
100 percent certainty, there is global warming. This was 
unanimously adopted by 113 nations, including the United States 
and by President Bush. But over 25 years ago, Congressman 
Albert Gore, Jr., had some of the first hearings on the climate 
change as chairman of a subcommittee on the Science and 
Technology Committee. So many hearings later, both in the 
Congress and the Senate, a few books, an Oscar winning 
documentary, countless frequent flier miles and literally 
hundreds of small group slide show presentations later, the 
world finally is paying attention.
    And so, Mr. Vice President, I want to thank you for your 
passion and dedication. I want to welcome you to this 
unprecedented joint hearing, the Science and Technology 
Committee and the Energy and Commerce Committee. And seeing 
Tipper Gore here, I have to say one last thing, and that is 
that, my little red-headed daughter Peyton's birthday is today. 
And we are going to have a little party for her tonight. And I 
doubt that she is going to ask me what I did today to avert 
global warming, but I am sure that in the years ahead she is 
going to ask me, was I a part of the problem, or was I a part 
of the solution? And thanks to your leadership, I am going to 
be a part of the solution.
    Thank you for being here, and I yield such time as you may 
consume.
    Mr. Gore. Well, thank you very much, Mr. Chairman.
    Chairman Dingell. Other than to say welcome back, welcome 
home. You served for a long time on this committee and in this 
room. And I am sure that you feel comfortable and welcome, and 
that is the way we want you to feel. Welcome back.

                 STATEMENT OF HON. AL GORE, JR.

    Mr. Gore. Thank you so much, Mr. Chairman. It is an 
emotional occasion for me to come back to this hearing room.
    I learned a lot from you, Chairman Dingell, when I first 
came here in the fall of 1976 and then became a member of this 
committee and was sworn-in in January 1977.
    And, Chairman Gordon, thank you for your friendship all 
these years and for your leadership on this issue and so many 
others and thank you for calling me on the telephone in 
Tennessee the day after the election last November, when it 
became clear that you were going to be chairing the Science and 
Technology Committee and you were the first to say, ``I want 
you to come and talk about this issue, and we want to work on 
it.'' Chairman Dingell, thank you for calling me and inviting 
me to come and testify as well.
    And to the ranking members, thank you, Congressman Barton, 
Congressman Hall, we were close friends before you went over to 
what we jokingly refer to as ``the dark side''.
    And we are friends still. And I want to acknowledge my 
friends on both sides.
    Mr. Barton. He is threatening to come back over to your 
side.
    Mr. Gore. He would be more than welcome. He would be more 
than welcome. Always. East Texas and Tennessee have a lot in 
common.
    And Chairman Boucher, thank you. We worked just across the 
State line for so many years. And I have many friends on both 
of the committees that are represented here. And I am very 
grateful for the opportunity to testify before two committees 
that I did in fact have the privilege of serving on.
    Congressman Dingell, I want to say a special word of thanks 
to you, because our fathers served together. This is the second 
generation of friendship. And I was reflecting yesterday and 
doing, just taking a pencil and paper, and at the time when 
your father and my father served together in the House of 
Representatives, the concentrations of CO\2\ in the atmosphere 
up here on Capitol Hill and all over the world were just about 
300 parts per million. And they really had never gone above 300 
parts per million, at least as far back as a million years in 
the ice record.
    And yet, here we are today, and it is already 383 parts per 
million, just in that short span of time. And that ultimately 
is what brings me here.
    There is a sense of hope in this country that this United 
States Congress will rise to the occasion and present 
meaningful solutions to this crisis.
    This is the greatest country on the face of this Earth. And 
the hopes for freedom and the viability and efficacy of self-
government rests with the legislative branch of our government 
in this day and time.
    There have been times in the past when our Nation has been 
called upon to rise above partisanship, above political 
calculations, above the pressures that have always been present 
for two and a quarter centuries from special interests of this, 
that or the other kind, and reach across the aisle and do what 
history is calling upon all of us as Americans to do.
    America is the natural leader of the world. And our world 
faces a true planetary emergency. I know the phrase sounds 
shrill. And I know it is a challenge to the moral imagination 
to see and feel and understand that the entire relationship 
between humanity and our planet has been radically altered.
    We quadrupled human population in less than one century 
from 1.6 billion in 1900 to 6.56 billion today. Population is 
stabilizing of its own accord as girls are educated and women 
are empowered and family planning that is culturally acceptable 
in country after country becomes widely available and, most 
importantly, as child survival rates increase and infant 
mortality decreases. When those things happen and especially 
when literacy among women increases around the world, the birth 
rates come down. The death rates come down, and then the birth 
rates come down. And it is stabilizing.
    But having multiplied by four the number of people on this 
planet--and we are going from over 6.5 now to over 9.1 almost 
certainly within the next 40, 45 years--that in itself causes a 
big change in the relationship between humanity and the planet.
    Second, our technologies are thousands of times more 
powerful than any our grandparents had at their disposal. And 
so we are even more skillful and more effective in doing the 
things we have always done, exploiting the Earth for sustenance 
and providing for our families and going about productive 
lives. The side effects of what we are doing sometimes now 
outstrip the development of extra wisdom to make sure that we 
handle these new powers in a way that doesn't do unintended 
harm. And somehow we have also adopted a kind of a short-term 
way of thinking that is also different from what our 
grandparents more commonly used.
    In the markets, Congressman Bartlett said global warming is 
the biggest market failure in history. I kind of agree with 
that. If you look at the markets, the short-term focus is just 
dominant now. Quarterly reports, day traders, if you look at 
the entertainment business and the media business and even the 
news business, it is overnight polls and how many eyeballs can 
you glue to the screen. You know the phrases.
    And in the honorable profession of politics back in that 
year when I first came to serve on these two committees, I 
never took a public opinion poll. And that was partly because, 
back in those days, it wasn't very common and also as 
Congressman Gordon knows, it is largely a rural district and 
you get out and meet people. But that has all changed now. And 
by the time I left politics, overnight polls were common. Now, 
as you all know, the so-called dial meters, it is just one long 
continuous poll. And I don't think the results for our 
democracy are all that good.
    But this short-term focus is a part of the problem that we 
call the climate crisis. And we in the United States of America 
and you in the Congress are the repository of the hopes and 
dreams of people all across this Earth.
    It is an unusual time.
    One of the popular movies out there now is 300, about the 
small group that defended a pass at Thermopylae to save the 
prospects for democracy.
    There are times, rare though they be, when a relatively 
small group is called upon to make decisions and show courage 
because the results of what they do will shape the prospects 
not only for themselves and for their kin, but for all future 
generations. This Congress is now the 535; really and truly, it 
is one of those times.
    Congressman Dingell, you are perhaps the youngest member of 
the Greatest Generation having thought fought in World War II 
as a very young man. And we owe you and your generation--as we 
have all acknowledged many times--a great debt. But you were 
part of a relatively small group that saved the world.
    And when you and your colleagues, on the ground and at sea 
and in the air, won the struggle against global fascism in the 
Atlantic and the Pacific simultaneously, your generation came 
back home transformed, no longer 19-, 20-, 21-year olds, having 
walked through the fire, having emerged victorious; you came 
home with a different capacity for vision, a deeper moral 
authority.
    And when your wartime leaders, like George Marshall, said, 
we ought to lift up our adversaries from their knees and walk 
with them from the battlefield toward peace and prosperity, we 
need a European Recovery Program, that became known as the 
Marshall Plan. Your generation said, yes, we don't want to have 
a repetition of these world wars coming out of Europe, but you 
knew it took vision and a 50-year time frame.
    The United Nations was established. Taxes were involved. 
The ``GI's General'' Omar Bradley, said ``It is time that we 
steered by the stars and not by the lights of every passing 
ship.'' And your generation said, yes, that's right.
    And here in the Congress, Republicans, Arthur Vandenberg 
and others, stood up and reached across the aisle and said, we 
are Americans first. And Democrats reached across from the 
other side. And under Presidents of both parties, we stood down 
communism. And for 50 years, we were faithful to that mandate.
    I say all that, Mr. Chairman, because what we are facing 
now is a crisis that is by far the most serious we have ever 
faced. And the way we are going to solve it is by asking you on 
both sides of the aisle to do what some people have, as you 
know, begun to fear we don't have the capacity to do any more. 
I know they are wrong. I know that politics can seem 
frustratingly slow, like it doesn't move but an inch a year. 
But when there are enough people who become seized of the 
gravity of the challenge and talk with you and you yourselves 
immerse yourselves in it and learn what is at stake, all of a 
sudden it can move very quickly.
    I came here today, Mr. Chairman, with some messages to the 
Congress. And they will be delivered to your offices. They are 
from 516,000 people who just in the last few days have 
responded to an e-mail request that I sent out to say this 
hearing has been scheduled and I would like to be able to tell 
the members of these committees that I am not here by myself, 
there are lots of Americans who feel as strongly as I do. And 
so the folks that have contacted Algore.com, we have been 
getting 100 new contacts per second in the last couple of days. 
We just started this a short time ago.
    This is building. And it is building in both parties. The 
faith communities, the evangelical communities, the business 
leaders, ten of the CEOs of the biggest corporations in America 
just the day before the State of the Union Address last month, 
most of them in their personal lives have been supporters of 
President Bush. That is irrelevant to this issue. They had a 
press conference the day before the State of the Union Address 
calling on you to act, adopt legislation that will address this 
crisis. These are not normal times.
    Congressman Gordon, I want you to tell Peyton happy 
birthday, and I felt the emotion in your voice as you got to 
the end of your statement. I have felt that, too.
    Because I promise you, I say this to each of you as 
individuals, I promise you, the day will come when our children 
and grandchildren will look back. And they will ask one of two 
questions. Either they will ask, what in God's name were they 
doing? Didn't they see the evidence? Didn't they realize that 
four times in 15 years, the entire scientific community of this 
world issued unanimous reports calling upon them to act? What 
was wrong them? Were they too blinded and numbed by the 
business of political life or daily life to take a deep breath 
and look at the reality of what we are facing? Did they think 
it was perfectly all right to keep dumping 70 million tons 
every single day of global warming pollution into this Earth's 
atmosphere? Did they think all of the scientists were wrong? 
What were they thinking?
    Or they will ask another question. They may look back, and 
they will say, how did they find the uncommon moral courage to 
rise above politics and redeem the promise of American 
democracy and do what some said was impossible and shake things 
up and tell the special interests, OK, we have heard you and we 
are going to do the best we can to take your considerations 
into account, but we are going to do what is right?
    I am going to do my part to make sure that you have all the 
support that I and lots of other folks can muster for you in 
both parties when you do the right thing. If some of you in 
tough districts face pressures that just are overwhelming, I 
would ask you to walk through that fire.
    I have got a few specific suggestions that I would like to 
make and thank you for the courtesy of giving me a longer than 
normal opening statement.
    First of all, the new evidence, let it be said here, that 
has come out just in the last few months shows that this may 
well be even worse than has been described. Three days ago, two 
new studies were reported in the peer-reviewed science journal, 
Journal of Science magazine. One of them shows that the arctic 
ice cap is melting more rapidly than had been predicted. One of 
them shows that it could completely disappear in summertime in 
as little as 34 years. Most of the computer runs--and this is a 
respected computer modeling group, peer-reviewed--stretch it 
out 35, 45, 55, could be as little as 34 years.
    This problem is burning a hole in the top of the world in 
the ice cover that is one of the principal ways our planet 
cools itself. If it goes, it won't come back on any time scale 
relevant to the human species.
    Another study shows that the Earth is shaking because of 
what is going on in Greenland. Glacial earthquakes, 
seismographers all over the planet are hearing them; 1993, 
there were seven of them, between 4.5 and 5 on the Richter 
scale; by 1999, the number doubled to 14. This past year, there 
were 32 between 4.6 and 5.1 on the Richter Scale.
    One of the science magazine articles I referred to points 
out in detail why the international scientific report decided 
that it was impossible to include the fate of Greenland and 
west Antarctica in their projections because they don't 
understand how this could be happening so quickly.
    Another study shows that among the billions of tons of 
frozen methane in the Tundra areas that have locked it up in 
ice, melting is proceeding more quickly than anyone had 
predicted. Methane is much more powerful as a global warming 
gas than CO\2\, about 23 times, they say, as powerful. We need 
to turn the thermostat back down before that melts.
    Fires, some of you all from the west have had a terrible 
time with fires. New study correlates it precisely with the 
warming temperatures; and not just the warming temperatures, 
the earlier spring, the earlier melting of the snow pack and 
the decreased precipitation available. You have got the study 
there, Congressman. Thank you.
    And what it shows is that the drier soils lead to drier 
vegetation. And that means kindling. And the incidents of large 
fires in the west, in Russia, in Australia, they have what some 
are calling a thousand year drought now. It is correlated with 
these warming temperatures. There are many other signs that we 
do not have time to play around with this. We do not have the 
luxury of making it a political football and exercising 
politics as usual.
    Here is what I think we should do. Number 1, I think we 
should immediately freeze CO\2\ emissions in the United States 
of America and then begin a program of sharp reductions to 
reach at least 90 percent reductions by 2050. All of the 
complex formulas of how we might start reductions years from 
now and have a little bit in the first year and a little bit 
more in the second year, I think we need to freeze it right 
now, and then start the reductions.
    Second, I believe--and I know how difficult this is to 
contemplate--but I believe that we should start using the Tax 
Code to reduce taxes on employment and production, and make up 
the difference with pollution taxes, principally CO\2\. Now I 
fully understand that this is considered politically 
impossible. But part of our challenge is to expand the limits 
of what is possible. Right now we are discouraging work and 
encouraging the destruction of the planet's habitability.
    We are also in a new world, Mr. Chairman. We have talked 
many times about the competitive challenges that America faces 
in an outsourcing world. And with information-technology 
empowering these developing countries with large and fast-
growing populations and lower wage rates, our biggest 
disadvantage is in the area of our high wage rates. We don't 
want to lower our wages, but we shouldn't worsen that 
disadvantage by stacking on top of the wages the full cost of 
our health and welfare and social programs. I understand this 
is a longer-term shift. But we ought to start making that 
shift. It would make us more competitive. It would also 
discourage pollution while encouraging work.
    I understand how difficult it is, I will say again, but 
carbon pollution is not presently priced into the marketplace. 
It does not have a price tag. It is considered an externality. 
And there are reasons for that. But if you think about the 
externalities, they include air and water. I internalize air 
and water, as most of us do. And I think the economic system 
should, too. And I think that one way to do it is by this 
revenue-neutral tax shift.
    Third, a portion of those revenues must be earmarked for 
those in lower-income groups who will have a more difficult 
time making this transition unless you in the Congress make 
sure that we are giving them the assistance that they need.
    Fourth, we need to be part of a strong global treaty. Now, 
I am in favor of Kyoto, but I fully understand that Kyoto, as a 
brand if you will, has been demonized. I remember, Mr. 
Chairman, when I first came to this Congress, one of the issues 
I worked on was nuclear arms control. Some of the Members here 
I worked with closely. In those years, Former President Carter 
had a treaty pending the SALT II treaty. And for a variety of 
reasons, including the invasion of Afghanistan by the former 
Soviet Union, it was withdrawn, and the name itself became a 
political liability.
    President Reagan was elected. And I worked across the aisle 
with President Reagan on arms control. And after only a couple 
of years in office, he came to a realization, we need nuclear 
arms control. He had been against it but the realities of the 
situation made it clear that we needed to move forward.
    And he came up with even deeper reductions and a new name 
called the START Treaty, and people who had been opposed to 
SALT II all of a sudden were in favor of the START Treaty.
    I think that we should work toward de facto compliance with 
Kyoto. If we can ratify it, fine. But, again, I understand the 
difficulty. But we should work toward de facto compliance.
    And here is my formal proposal. We ought to move forward 
the starting date of the next treaty now scheduled to begin in 
2012, to 2010 so that whoever is elected President and is 
sworn-in in January 2009 can use his or her political chips, if 
you will, all of the good will that comes out of that election 
campaign and the new inauguration, not just on trying to fight 
a rear guard action in a bitter battle to ratify a treaty that 
will expire by the time it is ratified, but to work toward de 
facto compliance and then start an all out sprint to negotiate 
and ratify a new tougher treaty that will begin in 2010.
    And we have to find a creative way to build more confidence 
that China and India and the developing nations will be a party 
to that treaty sooner rather than later. Land cover and methane 
and soot may be opportunities to have provisions that are 
binding upon them sooner rather than later, but some creative 
way must be found to make them a part of this effort.
    Next, this Congress should enact a moratorium on the 
construction of any new coal-fired power plant that is not 
compatible with carbon capture and sequestration. And that 
means that we should have an all-out push to develop carbon 
capture and sequestration.
    Next, I believe, Mr. Chairman, that just as this committee 
and the Science and Technology Committee were instrumental in 
the early years of assisting the scientists and engineers to 
take what was then known as ARPA-Net and DARPA Net and develop 
the new switches and the new high-performance computers and 
assist them in their creation of what became the Internet, that 
I believe this Congress should develop an ElectroNet, a smart 
grid. Just as the widely distributed processing of information 
everywhere in this country and around the world led to the 
biggest new surge of productivity that we have ever seen in 
this Nation, we ought to have a law that allows homeowners and 
small business people, to put up photable generators and small 
wind mills and any other new sources of widely distributed 
generation that they can come up with and allow them to sell 
that electricity into the grid without any artificial caps at a 
rate that is determined, not by a monopsony--as you know, that 
is the flip side of a monopoly. You can have the tyranny of a 
single seller; you can also have the tyranny of a single buyer. 
And if a utility sets the price, it will never get off the 
ground. But if it is a tariff, if it is regulated according to 
the market for electricity the same way public utility 
commissions do it now, then you may not ever need another 
central station generating plant. In the same way that the 
Internet took off and stimulated the information revolution, we 
could see a revolution all across this country with small-scale 
generation of electricity everywhere. And let people sell it. 
Don't reserve it for the single big seller.
    Next, I believe that we should raise the CAFE standards, 
and I support your initiative, Congressman Markey. But I 
support your idea, Chairman Dingell, as well, that it ought to 
be part of a comprehensive package. And I have taken note of 
your statements and also some of the automobile industry 
statements that as long as it is part of a comprehensive 
package that includes the utilities and includes buildings and 
all the other sources--don't single out cars and trucks and 
pretend that that is all the problem. It is only a slice of the 
problem. And it is not even the biggest part of it. But it is a 
big part of it.
    Make it a part of the comprehensive solution. But let's not 
bring up the rear anymore on these auto standards. Basically, 
the problem is cars, coal and buildings, so you have got to 
address all three of them in an intelligent way.
     Next, I believe that, along with using the tax system and 
a cap and trade treaty approach, you should also not shy away 
from using the regulatory power. And I believe that this 
Congress should set a date in the future for the ban on 
incandescent light bulbs, give the industry enough time to make 
sure they have got all of the socket sizes worked out and all 
of the different features, like dimmers and the rest that 
people want and to improve the quality of life. They will do 
it. You set the date.
    Tell them we are not going to be able to sell that old, 
inefficient, wasteful kind at a set date in the future. They 
will adjust. As long as everybody plays by the same rules, they 
will adjust, and they will surprise you.
    Next, where buildings are concerned, I would like to see 
you pass a law that I call Connie Mae, a carbon-neutral 
mortgage association and here's why. I used to be, in a small 
way, in the home-building business when I came back from the 
Army and before I was elected to the Congress. And the selling 
price of a new house is something the market is very sensitive 
to. Some of you all know this a lot better than I do because 
you have been in the business in a bigger way. And so the 
selling price is what people look at, both the sellers and the 
buyers. But all of the things that we need to do to cut back 
down on carbon emissions are things that add to the selling 
price but don't pay for themselves until a couple or 3 years 
have passed.
    And so the appropriate thing of insulation, the window 
treatments, the improvements that will sharply reduce the 
operating costs of that home or building is routinely excluded 
from the initial purchase price because the market 
discriminates against it.
    We ought to set up a carbon-neutral mortgage association 
where all of those costs are set aside. They will pay for 
themselves. But just like Fanny Mae and Freddie Mac, put them 
in an instrument that is separate from the purchase price, and 
when you go to closing on a house, you sign the mortgage, and 
they will say, well, now here is your Connie Mae home 
improvement package here. You don't have to worry about paying 
for that because it will pay for itself. The Congress of the 
United States has made sure of that. I recommend that strongly.
    Next, I think that you ought to require this committee, the 
Commerce Committee oversees financial services. I think the FCC 
ought to require disclosure of carbon emissions in the 
corporate reporting. Just the day before yesterday, the largest 
pension funds in this country, $4 trillion worth of assets 
managed by them, called upon the FCC and the Congress to 
require disclosure because it is a material risk. There are 
lots of companies where investors need to know if there is an 
exposure to carbon constraints, if they are going to be in real 
trouble because of some aspect of the climate crisis that they 
are not disclosing to their investors. Stockholders ought to 
know that, and those disclosures ought to be required.
    Now I want to close, Mr. Chairman, and thank you and thank 
all of you again for the courtesy of allowing me to present 
these ideas to you.
    I would like to close by referring back to the 
unprecedented nature of the challenge. As many of you know, the 
way the Chinese and the Japanese, both of whom use the so-
called Kanji characters, express the concept of crisis, they 
use two symbols together. And the first one means danger, and 
the second one means opportunity. This is the most dangerous 
crisis we have ever faced. But it is also the greatest 
opportunity we have ever been confronted with.
    And there are people who look around the world, Mr. 
Chairman, and look at the genocide in Darfur and the chronic 
civil wars and, in places like the Congo, fought by child 
soldiers; and they look at the tens of millions that die of 
easily preventable diseases and the destruction of the Asian 
fisheries and the rain forest and these other things; and they 
say, we just have all of these problems, isn't it terrible?
    Well, there were problems back in those days after World 
War II as well. But when your generation rose to meet them, the 
vision they acquired in facing down fascism served them well in 
giving them the ability to see that these other challenges were 
not political problems; they were moral imperatives. And that 
is what our opportunity is today, not only to solve this and to 
say to the future generations, we did our part, this was our 
Thermopylae, and we defended civilization's gate, and we rose 
to the challenge; but to also say, in the process, we dug 
deeply, and we found a capacity we didn't know we had. It is 
there. We all know that. And that is what will give us the 
ability to successfully solve these other crises. That is the 
greatest opportunity of all that comes out of this climate 
crisis.
    It really is up to this Congress, and Mr. Chairman, and to 
all of you, I cannot possibly overstate the strength of the 
hope and good feeling that people all over this country have 
about this Congress and the new approach that they feel is 
being taken here. And I am going to be out there, as I said, 
trying to stir up as much support for you all doing the right 
thing as I possibly can. I wish you well as you undertake this 
historic challenge.
    Thank you.
    [The prepared statement of Mr. Gore follows:]

    [GRAPHIC] [TIFF OMITTED] T7579.001
    
    [GRAPHIC] [TIFF OMITTED] T7579.002
    
    [GRAPHIC] [TIFF OMITTED] T7579.003
    
    Chairman Dingell. The committee thanks you for your 
presence and for your very valuable statement and for your 
help.
    I want to welcome you back. We have worked together in this 
room for a lot of years, you and I, and you have made a 
valuable contribution to the public in this room for which we 
are all thankful, and I want to appreciate your recalling the 
friendship that has existed between our two families for more 
years than I think either of us can remember. And I want to 
tell you my personal appreciation.
    The Chair will note that I am going to defer on questions, 
and I am going to begin by recognizing my colleagues for 
questions for 5 minutes. We are going to adhere to those 5-
minute limitations very carefully.
    The distinguished gentleman from Tennessee, the chairman of 
the Science and Technology Committee.
    Chairman Gordon. Thank you, Mr. Chairman.
    Mr. Barton. When we deferred, at least I understood that we 
would have that additional opening statement time to ask 
questions. Have you changed your mind about that?
    Chairman Dingell. I haven't changed my mind at all. If the 
gentleman wishes, he could have that additional 5 minutes. The 
Chair does remind him, however, that 5 minutes at this level is 
going to deny members at the other levels 5 minutes as the 
gentleman is fully entitled to take his time, and we will 
respect that. Some of us will probably respect it more than 
others.
    The Chair recognizes now the distinguished gentleman from 
Virginia, Mr. Boucher.
    Did you want your 5 minutes?
    Chairman Gordon. Yes, sir.
    Chairman Dingell. The Chair apologizes, and the gentleman 
from Tennessee is recognized for 5 minutes.
    Chairman Gordon. I want to recognize Sherie Boehlert, the 
former chairman of the Science Committee in our audience today, 
and I think Sherry represents how this really can be and should 
be a bipartisan solution. Sherry has been a long advocate of 
the concerns about climate change, and we are glad you are 
here.
    My friend and ranking member on the Science Committee, Mr. 
Hall, raised a good question earlier, and so I want to follow 
up on that. And that is the cost. What is going to be the cost 
associated?
    And I notice, Mr. Vice President, in your written 
statement, you made the following statement, and I quote, 
``There are some who will say that acting to solve this crisis 
will be costly. I don't agree. If we solve it the right way, we 
will save money and boost productivity.''
    Would you mind elaborating on that?
    Mr. Gore. Thank you very much, Mr. Chairman. I meant to 
acknowledge Chairman Boehlert, and I want to thank him publicly 
for agreeing to work with me on the Alliance for Climate 
Protection, which is a bipartisan group. Larry Schweiger with 
the National Wildlife Foundation, another board member, is 
here. Brent Scowcroft is on the board. Lee Thomas, President 
Reagan's former EPA head, is on the board.
    On July 7, we will launch a 3-year mass persuasion 
campaign, completely bipartisan in nature. It will involve 
television and radio advertisements in all of your districts, a 
very active net-based campaign. This is not going away. The 
problem is not going away. It is getting worse. The efforts to 
build public support for a solution to it are going to be 
increasing steadily, and I thank former Congressman Boehlert 
for his part in that.
    Now, on the cost, I remember back on the Science and 
Technology Committee, we used to get testimony from this fellow 
at the Rocky Mountain Institute Amory Levins. He is one of 
these guys that is so smart, you feel like you are drinking out 
of two fire hoses at the same time. And he doesn't get as much 
attraction for his ideas as he should because people can't keep 
up with him, can't understand him always. But he has been right 
for 30 years on a lot of this.
    And one of the things he used to say in talking about the 
cost of this, the alleged cost, the solutions he said, ``They 
have got the sign wrong. They have got the sign wrong.'' Well, 
see, I thought he was so smart, I thought he was talking about 
trigonometry with cosigns and whatever the rest of that stuff 
is. And then I realized, no, no. He has brought it down to 
where I can get to it. He is talking about a plus sign and a 
minus sign, and what he means is that if you go about this in 
the right way instead of putting a minus sign in front of the 
expenditures that are needed to solve this crisis, you need to 
put a plus sign in the sense that it is going to save you 
money, and it is going to help make the economy stronger.
    Harry Truman once said, when he was President, he said, ``I 
spend 95 percent of my time trying to convince people to do 
things that they ought to damn well do for their own benefit 
anyway.'' And sometimes the people who really work with the 
details of the solutions of the climate crisis feel exactly the 
same way.
    Now it is not that easy because when you look really 
closely at it, there are some solutions that have minus signs 
as well as plus signs.
    But let us take, for example, in Sweden, they have this 
program to have zero-carbon buildings. OK. And in some areas, 
you can't do it unless it is zero-carbon. Well, the people that 
do that, they put in the expenditures for more insulation in 
the window treatments, and they use the new computer-assisted 
design to orient to the sun just right, and there are things 
they can do now that are fairly simple once they understand 
what they are doing. And it ends up being zero-carbon. Well, it 
more than pays for itself. And that is an example of a plus 
sign where we are going to benefit from the expenditures.
    There are some other approaches that would be costly. But 
if we pick and choose correctly, we can improve our economy's 
productivity and performance and save money.
    Now this is not some alchemy or some mysterious process. 
Pollution is waste. You have got to buy raw materials in order 
to make pollution. And if you can figure out how to be more 
productive and put more of those raw materials into your 
product and less into the waste stream, you are going to save 
money in the process.
    Now the Stern report came out in the United Kingdom, and I 
was asked to serve as an adviser to the government over there. 
It has been an interesting process. And incidentally, I just 
came back from there this past week. And I will say this to my 
friends on the Republican side of the committee, over there, 
the Tories and the Labour Party are all on the same side on 
this. They are competing with one another vigorously. But they 
are competing on the basis of who can present the most 
effective solutions for it. They don't argue about the science. 
The debate on science is over with.
    And so now the Stern report, which came out of there, said 
that the cost to our economy of not solving this crisis would 
be devastating. And so if we go about it in the right way, we 
can save money. If we don't confront the problem, the cost to 
the economy would be enormous.
    I am sorry to take up your time.
    Chairman Dingell. The time of the gentleman has expired.
    The Chair recognizes now the gentleman from Texas, Mr. 
Barton, for 5 minutes.
    Mr. Barton. Mr. Chairman, I would like the additional 5 
minutes.
    Chairman Dingell. The gentleman will be recognized for 10 
minutes.
    Mr. Barton. First. I do want to again welcome the Vice 
President. I sincerely don't agree with your conclusions, but I 
sincerely appreciate your passion and your willingness to try 
to make a difference. I honestly commend you for standing up 
for what you believe in and being willing to put your 
considerable prestige on the line.
    Mr. Gore. Thank you, Congressman.
    Mr. Barton. I will point out in passing that your actual 
testimony bears little resemblance to your written statement. I 
would hope that we could get your legislative recommendations, 
which were numerous, in writing so that we could actually study 
them.
    Will that be possible?
    Mr. Gore. Could I have permission to revise and extend for 
the record?
    Mr. Barton. Yes, sir.
    Mr. Gore. I will put all of this in written form.
    Mr. Barton. At least the legislative proposal.
    Chairman Dingell. If the gentleman would yield, the Chair 
is going to see to it that we leave the record open and that 
suggestion, Mr. Vice President it would be very much 
appreciated by the committee if you would be able to assist us 
in.
    The gentleman from Texas.
    Mr. Barton. Thank you.
    The first thing that I want to address is the science of 
global warming as portrayed in the Vice President's film, ``An 
Inconvenient Truth''. This is something that I think we 
absolutely have to get right. Even the mainstream media, Mr. 
Vice President, are now noticing that global warming science is 
uneven and evolving. We need to be deliberative and careful 
when we talk about so-called scientific facts.
    In your movie, you display over a time line of temperature 
and compare it to CO\2\ levels over a 650-year period as 
reconstructed from ice core samples. You indicate that this is 
conclusive proof of the link of increase CO\2\ emissions in 
global warming. A closer examination of these facts reveal 
something entirely different.
    I have an article from the Science Magazine, which I will 
put into the record at the appropriate time, that explains 
historically a rise in CO\2\ concentrations did not precede a 
rise in temperatures but actually lagged temperatures by 200 to 
1,000 years. Yes, lagged. CO\2\ levels went up after the 
temperature rose. It appears that the temperature appears to 
drive CO\2\, not vice versa.
    On this point, Mr. Vice President, you are not just off a 
little; you are totally wrong. And it is not just this one 
article. The president of the National Academy of Sciences 
agreed under oath last summer in an O&I Subcommittee hearing on 
this very point.
    We know that CO\2\ levels have historically and repeatedly 
far exceeded the levels of concentrations that we are now 
experiencing, which you, in your opening statement, correctly 
said was 380 parts per million. Indeed, CO\2\ levels in the 
past have exceeded over a thousand parts per million, and the 
average Earth temperatures have been much higher than they are 
today. We know these things. But because some of these levels 
occurred millions of years ago, reliable data regarding the 
details of these is limited. We do not know whether the 
temperature rose before or after the rise in CO\2\ levels that 
far back.
    But it remains a fact, and it is clear from the data that 
we do have that, for hundreds of thousands of years, CO\2\ 
levels have followed temperature rise, not the other way around 
as you preach.
    You have also asserted that global warming is going to 
cause sea levels to rise by over 20 feet. Twenty feet. The 
recent IPCC report indicates a rise of at most 23 inches. 
Inches. Twelve inches equals a foot.
    You state that there will be more and stronger hurricanes 
because of global warming. The IPCC report does not support 
this claim.
    You have also stated that malaria has been exacerbated in 
Nairobi because of global warming. The World Health 
Organization report does not support this allegation. In fact, 
malaria is not an exclusively warm weather disease. Inhabitants 
in Siberia have long experienced malaria outbreaks.
    Your ideas aren't all bad, Mr. Vice President. You list a 
number of thoughtful responses to global climate change for 
this committee to consider. They include: more efficient use of 
electricity in heating, cooling appliances and lighting; more 
energy-efficient buildings and businesses; more fuel-efficient 
cars, both hybrid and fuel-cell cars; better designed cities, 
mass transit; and fuel-efficient trucks; increased use of 
renewables and carbon-capture and sequestration. These are good 
ideas. They are not just reasonable responses to climate 
change, but they are good energy policies as well.
    We have before us one of your tables from your book, I 
believe, and I am happy to report that, in the last Congress, 
under the chairmanship of myself with the strong and able 
support of Mr. Dingell, the current chairman, we reported out 
and passed into law the Energy Policy Act of 2005 on a 
bipartisan basis. If we look at that piece of legislation, we 
will see that many of the things that you recommended, we have 
already done.
    You want more efficient heating and cooling systems, 
lighting, appliances and electronic equipment. In the Energy 
Policy Act, we did that in titles I, IX, and XIII. You want 
end-use efficiency design of buildings and businesses to use 
far less energy than they currently do. We did that in titles 
I, IX and XIII.
    You want increased vehicle efficiency cars that run on less 
gas, and more hybrid and fuel-cell cars. We attempted to start 
that process in EPAct titles VII, VIII, IX, XIII and XV.
    You want to make other changes in transportation 
efficiency, better use of mass transit systems and heavy 
trucks. We do that in title VII and IX.
    You want increased renewable energy, wind, solar biofuels. 
We do that in EPA title II, VII, VIII, IX, XII, XIII, XV, XVI, 
XVII and XVIII.
    And, finally, you think that we need to research and try to 
capture and store carbon from power plants and factories. We 
start that process in EPA titles IV, IX and XVII.
    So, in many of the things that you recommend, we not only 
agree with you; we have already done it.
    Some of your ideas, though, Mr. Vice President, I think are 
just flawed.
    Your suggestion of a carbon tax is something that would 
harm our competitiveness, raise costs to American families, 
export jobs and actually do very little to improve our 
environment. Likewise, a Kyoto state cap and trade system for 
CO\2\ will mainly increase the price of electricity while 
providing few, if any, environmental benefits. These proposals, 
especially considering that neither of them includes large 
emitters of greenhouse gasses, such as China and India, fail 
the commonsense test that any legislation should meet. They 
provide little benefit at a huge cost.
    Instilling a carbon tax on the American people or 
instituting a cap on carbon without the participation of 
nations like China and India is an attempt to reverse global 
warming similar to a doctor telling an overweight and sedentary 
chain smoker that he or she needs to wear a seatbelt. China is 
adding a coal power plant a week and will add more coal-fired 
electricity generation this year than the entire State of Texas 
currently has.
    When you were Vice President and you jetted into Kyoto to 
sign the Kyoto Protocol, you rejected requests of people like 
myself and Chairman Dingell to insist that China and the 
developing nations be included in that same protocol.
    Let us look at what has happened in Europe as they have 
tried to instigate their carbon cap and trade. In Germany, 
electricity wholesale rates have risen 30 to 40 percent, and 
they are facing huge job losses. Despite all of the efforts of 
the European nations that signed Kyoto, almost none of those 
countries are on target to meet their Kyoto obligations. Cap 
and trade isn't working in Europe. It will not even be tried in 
Asia, and it should not be unilaterally imposed in the United 
States of America.
    You just gave us an idea for a flat straight CO\2\ freeze, 
if I heard you correctly. I think that is an idea that is 
flawed. If you take that literally, we can add no new industry, 
no new cars and trucks on the streets and apparently no new 
people because people are mobile source emitters. Every person 
emits 0.2 tons of CO\2\ a year. So an absolute true freeze, no 
new industry, no new people and no new cars.
    I think we need to approach a legislative initiative in 
these areas with an eye on four basic principles: we first want 
to be sure that it actually helps the environment. We want to 
keep our lights on at an affordable price. We want to keep the 
American economy strong, and we want to keep American jobs here 
in America. And, finally, we can't get out in front of things 
that are not technologically possible with at the current time, 
as I have noted.
    On some of your ideas, we agree and we have already taken 
action. And hopefully in this Congress, we will take additional 
action.
    Now I want to ask, in my last 19 seconds, this question. 
You said that you support a CAFE increase. Do you support the 
CAFE increase like they have in Japan that is over 45 miles per 
gallon, or do you support a CAFE increase more like they have 
in China which is around 35 miles per gallon, and what is your 
time frame for this increase that you do support?
    Mr. Gore. Well, thank you very much, Congressman. I would 
like to respond to several of the things that you asked me 
about.
    First of all, I think that the committees should be under 
no illusion about what the scientific consensus is. The 
National Academy of Science, not only in this country but in 
every major country in the world, has endorsed the scientific 
consensus and is calling upon you to act.
    The IPCC, the most extensive and elaborate in-depth 
highest-quality international scientific collaboration in all 
of history, has now four times in the last 15 years, as 
recently as 6 weeks ago, unanimously endorsed the consensus.
    Scientific American had a special issue in September saying 
the debate on global warming is over. The editor-in-chief of 
Science Magazine said it is very rare to have a consensus in 
science as strong as this one. One of the leading experts said 
it is a stronger consensus than on practically anything except 
perhaps gravity. So I think the consensus is, it is something 
that we ought to acknowledge and accept.
    Now the fact that more CO\2\ traps more heat in the lower 
parts of the Earth atmosphere is really beyond dispute. I mean, 
that is not me saying that. That is what the scientists have 
known for 180 years. And for a hundred years, they have done 
the calculations on pretty much exactly what the magnitude of 
the heating effect is.
    And you know, for those who say that there may be some kind 
of magic solar system phenomena at work here, how come it is 
getting cooler in the stratosphere at the same time it is 
getting warmer in the troposphere, the lower atmosphere? That 
is exactly what the models predict.
    Mr. Barton. My time expired 2 minutes ago.
    Mr. Gore. But if I could complete my response, Congressman.
    Mr. Barton. I hope there is an answer in this.
    Mr. Gore. May I?
    Mr. Barton. I would like to have an answer to the straight 
question.
    Mr. Gore. Well, you asked quite a few of them, and I am 
doing my best.
    Now, on CO\2\ and temperature, when CO\2\ goes up, 
temperature goes up. That is why 20 of the 21 hottest years 
ever measured in the human record have been in the last 25 
years. The 10 hottest have been since 1990. The hottest was 
2005. The hottest in the United States of America was 2006. The 
hottest winter ever measured globally was December of last year 
and January and February of this year, last month. This is 
going on right now. The planet has a fever. If your baby has a 
fever, you go to the doctor. If the doctor says, you need to 
intervene here, you don't say, well, I read a scientific 
magazine that tells me it is not a problem. If the crib is on 
fire, you don't speculate that the baby is flame retardant. You 
take action.
    The planet has a fever. And 5 degrees may not sound like 
much the range it is in the range that is projected, but the 
difference between 98.6 and 103.6 is 5 degrees. We have to take 
action on this.
    Now in the ice core record, as I have said every time I 
give my slide show, it is a coupled system. They go up and down 
together, and indeed, there have been times since the entire 
interglacial record is driven, the scientists tell us, by these 
cycles, the Earth orbits around the sun, gets thinner and 
wider. On a 100,000-year cycle, the tilt oscillates a degree 
and a half. On a 41,000-year cycle, there is a wobble called 
presession. On a 22,000-year cycle--and when those three 
overlap, it creates that historic pattern. That has been true 
for 3 million years.
    Mr. Barton. The temperature goes up before the sea level 
goes up.
    Mr. Gore. Sometimes that has been true in the past. The 
opposite has also been true in the past. But what is happening 
now is that we, because of human action, are overwhelming all 
of those cycles.
    Just a couple more brief points, if I could, Mr. Chairman.
    There is no consensus linking the frequency of hurricanes 
to global warming, and I have never said there is. It is the 
intensity of hurricanes. It is also true the scientists say you 
can't take an individual storm and say, this is caused by 
global warming. But the odds of stronger storms are going up.
    I see the gavel, and I would like to respond to the other 
three questions you asked, but in courtesy to the other 
members, I will try to weave them into other--I ask your 
direction, Mr. Chairman. Do you want me to briefly answer them 
now?
    Chairman Dingell. The Chair is in a pickle. I have a lot of 
Members that have to be heard.
    Mr. Gore. I understand. I will answer the other questions 
for the record if that is OK.
    Chairman Dingell. That would be splendid. Without 
objection, so ordered.
    We are going to see to it that there is broad opportunity 
for insertions in the record by all Members and by our 
distinguished witness.
    The Chair recognizes now the distinguished gentleman from 
Virginia, Mr. Boucher, for 5 minutes.
    Mr. Boucher. Thank you very much, Mr. Chairman.
    And Mr. Vice President, we welcome you here this morning. 
Thank you for taking time with us and thank you, also, for the 
groundbreaking work that you have done in drawing global 
attention to the human contribution to climate change and the 
need to control greenhouse gas emissions. We congratulate you 
on that work.
    Mr. Gore. Thank you.
    Mr. Boucher. We are planning in our committee for later 
this spring the drafting of a greenhouse gas control measure. 
We have not made decisions as of this point about the control 
methodology. And we are evaluating a number of different 
alternatives that could achieve significant reductions.
    I would welcome your advice today on what those various 
methodologies might be. You mentioned in your testimony the 
possibility of a cap on greenhouse gas emissions followed by 
some form of emission trading program: We adopted such a 
program in 1990 in our Clean Air Act amendments applicable to 
sulfur dioxide emissions from coal-fired power plants, and that 
program has been a sterling success. In fact, it succeeded far 
better than even those of us responsible for drafting that 
thought that it would.
    The European Union, on the strength of that success, 
decided to apply a cap and trade regime so it is--to satisfy in 
the Kyoto Treaty obligation on greenhouse gasses. But I think 
the consensus now after several years of experience with that 
in Europe is that their program was flawed. And so I would 
welcome your views this morning on what the Europeans did 
properly with regard to their cap and trade; what they did not 
do properly; and what could have been done better; and your 
evaluation of whether cap and trade is an approach that we 
should seriously consider for adoption here in the U.S. as we 
devise an approach to greenhouse gas controls.
    Mr. Gore. Well, thank you, Mr. Chairman. That is a great 
question, and I do recommend a cap and trade approach, and when 
the first President Bush first proposed the sulfur dioxide cap 
and trade system, I was a supporter of it, but you are right. 
Even the most enthusiastic supporters underestimated how 
effective that was. We got much sharper reductions at much 
lower costs. Trust the market. Make it work for us instead of 
against us.
    Now the European system is in fact working, and it is 
beginning to work extremely well. I disagree respectfully that 
they are not meeting their targets. It is a Europe-wide target, 
and they are going to be on track to meet it. It is not 
individual countries. Some of them are ahead of their internal 
targets. Others are behind. As a region, they are not only 
meeting them; they just adopted binding targets last week when 
I was over there that go much deeper than their obligations 
under Kyoto, a 20 percent reduction, and they will take it to 
30 percent if we join in the regime. So they are finding that 
it is much easier to do, and they are moving more quickly.
    Now here is what they did wrong when they started. They 
miscalculated their base year, and so, since all of the 
reductions have to be measured against the base year, it 
matters a lot if they get that wrong. They also had a first 
phase, a start-up period that was way too long. Now they have 
recognized that, and they have adjusted both of those things. 
They are really on this case. At the prime minister level, they 
had all of them meeting just last week. This is the number one 
issue over there in lots of those countries, and again, as in 
the UK, it is bipartisan. It is across the party lines, and 
people are up in arms about it. And the business leaders are 
demanding that the government act, and the governments are 
acting. So I think they fixed the two problems that they had.
    Now, the U.S. is about 23 percent of the ongoing annual 
carbon emissions. On a historic basis, we are responsible for 
about 30 percent of the CO\2\ that is up there, and if we stop 
completely tomorrow, it would be a hundred years before half of 
it fell out. So it is a difficult challenge. But since we are 
not participating in the cap and trade system, it is a little 
bit like a bucket with a hole in it. You can still use a bucket 
with a hole in it, but it will be a lot more efficient if that 
23 percent hole is plugged. Then what you will find is the 
global market in carbon trading will reach much higher levels 
of efficiency.
    Now, here is what it is doing at the company level. I gave 
the keynote speech last week at a conference called Point 
Carbon, where they had companies from all over the world, 
simultaneous translation through Japanese, that and the other. 
And they are focused on how this trading system works.
    A year ago, at the same conference, they did a study of the 
thousands of companies represented there and asked them how 
many of these companies are reducing internally their carbon 
and managing it. It was 15 percent. Last week, this year, 65 
percent. So, just in 1 year's time, you have had that big 
increase. And I think the same thing is beginning to happen 
here in this country.
    Mr. Boucher. Thank you, Mr. Vice President.
    Chairman Dingell. The time of the gentleman has expired.
    The Chair recognizes now the distinguished gentleman from 
Texas, Mr. Hall, for 5 minutes.
    Mr. Hall.  Mr. Chairman, thank you.
    And Al, I do respect you and your great family, and I am 
older than Mr. Dingell, and I remember the services of your 
father that worked alongside our Sam Rayburn. And I have read 
of and some people think I remember Sam Houston, another great 
Tennessean.
    Mr. Gore. Also from Tennessee.
    Mr. Hall. And Bart Gordon is really helping me. I don't 
know that he really realizes it or not, but he is a great guy 
and a Tennessean, and I never met a Tennessean that I didn't 
like, honestly. Barton says that every time somebody left 
Tennessee and came to Texas, it raised the character in both 
States. That is a good statement to make.
    But I have to differ with you on some things, and let me 
tell you. I have admired you. We sat right side by side on 
these committees and worked together. We held a conference one 
time, a hearing on my boat out in front of Thomas Jefferson's 
home there.
    Mr. Gore. Yes.
    Mr. Hall. And when your little one was injured, you had the 
prayers of everybody up here.
    Mr. Gore. Thank you.
    Mr. Hall. And you are dear to us, but I just don't agree 
with you on this. But Bart mentioned, and I want to thank him 
for mentioning it, he mentioned it himself, I heard him say 
cost. That is 12 times that we heard it here in just a little 
bit. If you say it costs nothing now, and I think you said 
``There are some who will say that acting to solve this crisis 
will be costly; I don't agree.'' Then you go on to say some 
ways to where it won't be costly, but I think that you are 
going to--we are going to hear from Dr. Lomborg here in just a 
little bit. In his testimony, he said, and we are talking about 
the Kyoto Protocol, which even if it had been successfully 
adopted by all signatories, including the United States and 
Australia, and even if it had been adhered to throughout the 
century, it would postpone warming by just 5 years in 2100. 
That is 90 years from now; 89 years from now, I believe. I am 
not good at math. At a cost of $180 billion annually, and it 
would hold off global warming 4 years. That doesn't look like a 
very good deal to me, and who is going to pay for it?
    Ask China what they think about paying for it. Ask Mexico. 
Ask India. Ask a number of other countries. My question, 
though, to get around to my question is that, if the United 
States and China and India do not incur the cost of reducing 
their emissions--at the same time, are you concerned that the 
United States will be at a competitive disadvantage?
    Let me go a little further. If developing countries are not 
required to take action at the same time as the United States, 
what will happen to the United States manufacturing sector when 
you add in the costs of reducing emissions to the products 
produced domestically versus those products produced overseas 
that do not incur such costs at the same time?
    I guess my question is, how would you prevent the United 
States manufacturers from being harmed?
    Mr. Gore. Well, Congressman Hall, Ralph, if I may, thank 
you so much.
    I was thinking, remembering fondly that evening on your 
boat out there, and I would love to do that again some time.
    Mr. Hall. We will do it any time you want to.
    Mr. Gore. Thank you. I enjoyed working with you when we 
were on the committee together, and I really do believe what I 
said earlier, Ralph, that we have got to find a way to reach 
across the aisle on this and recreate what used to be a 
bipartisan consensus in support of the environment here in this 
Congress, and even when these measures, like the ones we are 
talking about here, are involved.
    Now, on China and India, it is a very serious challenge and 
here is the reality of it: Every single global treaty since the 
end of World War II has had the same basic design. The 
countries that have higher per capita incomes are put in one 
category, and the countries that have, just one one-hundredths 
in some cases, of what the per capita income in Europe, Japan, 
the U.S. is, they are in another category. And they say, look, 
we don't have the ability to bear that burden in the same way. 
We don't have the technologies, and you all created this 
problem. You start, and then we will come along.
    And in every treaty that has been written since 1945, that 
has been the approach that has had to be taken. I wish it to be 
otherwise. But in a negotiation, when you have got all of these 
power countries banding together, nobody has found a way to 
crack that walnut open with another kind of formula. The way to 
improve the odds that they are going to come on board is for 
the United States to take the lead.
    Now we have got something else going for us, and that is 
that these countries now are beginning to understand very 
clearly that they have to act in their own self interest. You 
take China, for example. Both the Yellow River and the Yangtze 
River originate on the ice fields on the Tibetan Plateau. They 
are having terrible water shortages in many parts of China, 
particularly northern China. They are having terrible pollution 
problems related to their coal expenditures. They now have 
these mass demonstrations over there, believe it or not. They 
are not covered in their news media, of course, but they are 
really having a difficult time. That is why their two top 
leaders have both made important speeches just in the last 2 
weeks saying that they have got to address this; they have 
expressed their determination, too.
    I don't put much stock in those words until they follow it 
up, but the way to improve the odds, if they do, is for us to 
show the leadership. And I think most of what we do is going to 
make us more competitive with them.
    Mr. Hall. My time is up, but I just want to tell you that 
negotiations spawn treaties, and every negotiation we have had 
from China, Lord knows, I have heard the word no when it comes 
to talk about cost.
    Chairman Dingell. The gentleman's time has expired.
    Mr. Hall. And I yield back my time.
    Chairman Dingell. You owe us about 15 seconds.
    The Chair recognizes the distinguished chairman, Mr. 
Lampson.
    Mr. Lampson. Thank you, Mr. Vice President, for joining us 
today. Your public service is most appreciated.
    In 1945, the United States Army published a book cautioning 
our country about our reliance on fossil fuels. It has been 62 
years since that message was published, since that statement 
was published. Even you with your message, your positions that 
you have held have been--you have had a very difficult time 
getting the message out to the rest of this world, but your 
relentlessness is hopefully going to pay off, and I thank you 
for that.
    I have two questions if I can get them both in.
    First, if we take action to address our climate change 
challenges, don't we also address many other problems that we 
face? For example, can we also achieve air quality benefits, 
greater energy independence and reduced traffic congestion and 
maybe even more? And would you comment on that, please?
    Mr. Gore. Is that both of your questions?
    Mr. Lampson. That is just one.
    Mr. Gore. Yes, I think that is absolutely the case. And 
there was an effort to include the CO\2\ pollution in with the 
other pollutants so that the utilities could address them at 
the same time when they modernize and update, and I still think 
that is the way to go. But there is no doubt that if you cut 
down on the global warming pollution, you are also going to 
make the air cleaner. Asthma rates will likely go down. Lung 
diseases will likely be less severe. Congestion, if we enact 
some of the sensible solutions on transportation, yes, you will 
solve some other problems that need to be addressed anyway. I 
agree with you totally.
    Mr. Lampson. So significant potential savings. As we 
probably all know, coal is the least expensive and the most 
abundant fuel that we have in this country and the fuel that is 
most available in India and China as well. Recently, in Texas, 
TXU had a plan to build eight new coal-fired plants, and that 
caused a great deal of controversy due to the concerns about 
air quality and carbon dioxide emissions. What do we need to do 
to make clean coal viable? And what are the key areas of 
research and investment that we need?
    Mr. Gore. Well, first of all, I want to compliment the 
people of Texas who rose up en masse to block that cynical plan 
by TXU to move forward. And you know, if you look at what 
happened, it was Republican mayors alongside Democratic mayors, 
virtually every significant mayor in the State of Texas was 
involved in protesting that going forward. You and your group, 
Nick, were just terrific in that. And this is a grassroots 
movement. And it is bipartisan.
    And now to your question, we need to make sure that we 
accelerate the development of carbon capture and sequestration. 
And we need to avoid the easy assertion that if you just use it 
for enhanced oil recovery, that is sequestering it, because the 
geological deposits have to be ones that are not porous. We 
can't pretend that it won't come back up through if it is put 
in the wrong places. But if it is done right, then this does 
open up the opportunity to continue using coal.
    Now, pulverized coal, according to the old approach where 
they just heat it up, then you are producing so much nitrogen 
along with the CO\2\, there is no way to capture it. New 
designs with oxygen enrichment--this is above my pay grade--but 
they say there are ways to design these plants that make them 
capture and sequestration friendly.
    Now, a lot of times, the problem is, you have to have the 
geological formation close enough to the coal deposits and also 
close enough to the places where you are going to sell the 
electricity to make it all economically feasible. The places 
that are doing the best job appear to be Norway and Iceland. 
And they are storing it offshore under the seabed where the 
water pressure holds it in place safely. But coal's future 
depends on getting an accurate price for carbon in the 
marketplace and the speedy development of carbon capture and 
sequestration technology.
    Mr. Lampson. Thank you very much. I have other questions. I 
would like to submit them for the record, and I yield my time.
    Chairman Dingell. Without objection, so ordered.
    The Chair recognizes now the distinguished gentleman from 
Illinois, Mr. Hastert, our former Speaker, for 10 minutes.
    Mr. Hastert. I appreciate this opportunity, Mr. Chairman.
    Mr. Gore, welcome back to the Energy and Commerce 
Committee. We appreciate you and Professor Lomborg appearing 
before us today to discuss the very important issues 
surrounding global climate change. I listened to you and 
sometimes in wonderment, and we talk sometimes in very general 
language and talk about modernizing and upgrades. We talk about 
capital investment, research and development. But all of those 
have costs, and you are able to develop to be able to pay for 
things, costs, you go two places. You can tax the American 
people and tax the American industry, or you can have the old 
fashioned way, the things that our Forefathers did basically is 
have economic activity and market economy and investment and 
coming from the free market and people's pockets.
    There are two ways to get money out of people's pockets: 
investment and taxing. I was somewhat amazed to go through your 
10 or 15 issues here or your recommendations. I think a lot of 
those recommendations I can agree with. But a lot of those 
recommendations are more regulation and more taxation. And we 
find out in this economy, this world, when we tend to regulate, 
when we tend to tax, you depress the ability of the free market 
to work. And sometimes people in this dark side of the aisle, 
as you said, talk about less regulation and less taxation to 
make our economy work to give the free people freedom to 
invest.
    Let me just say, Mr. Vice President, I agree with you. I 
agree with you that the debate over climate change is over. I 
believe the Earth climate is constantly changing. As a farmer, 
I could tell you that I see evidence of this fact every year. 
Any one of my constituents can tell you the same thing, and I 
also agree that the science tells us the Earth's average 
temperature increased in the 20th century, and financially, I 
agree with you that human activity and economic development has 
an impact on our environment.
    But I am less certain about the nature and extent of man's 
contribution. But we will let history debate and determine what 
that is.
    The fact is, you have laid out some things and places that 
we need to go. And as a thinker, as a personality and now a 
movie star, you can come back with those general themes, those 
broad things and say, ``Do this.''
    Mr. Gore. Rin Tin Tin was a movie star. I just have a slide 
show.
    Mr. Hastert. The fact is, I have pledged my cooperation 
with Mr. Dingell the esteemed chairman of this committee, and 
Mr. Boucher, who is the chairman of the Energy Subcommittee. I 
think there are answers. But the fact is, 50 percent of our 
energy is coal. There is more energy under Gillette, WY, than 
there is in all of Saudi Arabia. We have the potential in 
States like Virginia and Kentucky and southern Illinois and 
southern Indiana and Wyoming and Montana and others to be able 
to harness that energy, but it happens to be coal energy.
    We also have natural gas. We have some oil. But we can't 
sustain the need for the growth in energy in this country that 
we are going to need in the next 10 years, a 40 percent 
increase, because we do have an increase in population. And 
although our population has curved down, probably doesn't keep 
up with the rest of the world, but that is a fact. I have a new 
grandson. I am proud of it. I hope he has grandsons to come.
    But that is the fact, that we are going to have to have 
that growth. So how do we meet that? How do we do it? How do we 
find the new technologies and the new ideas and the new 
sciences to be able to do it? Nine times out of 10 it is going 
to be individual investment. It is going to be people saying, 
this is a good idea, I am going to put money in this idea, and 
I am going to help create a better world because of it, and by 
the way, we may make a little profit off of it on the side. And 
that just happens to be how this country works.
    So I think we can find answers to use the coal energy, to 
use the natural gas energy that we have, to use the renewable 
fuels of ethanol and soy diesel.
    And there is another issue, too. We need to use atomic 
energy, and we have the ability today--you know, I wrote the 
Public Utility Act in Illinois in 1984 when 14 nuclear units 
were coming on line and the cost went from $400 million to $5 
billion per unit. And I predicted we would never see another 
nuclear plant built in the country for 25 years. And, 
ironically, I was right.
    But it is time to review this and renew it because we can 
have clean air with nuclear energy. But there is a problem. 
There is a gentleman over in the Senate that has his hand in--
not a veto hand, a debate hand, a filibuster hand on the 
finishing of Yucca Mountain where our rate payers put $18 
billion into that to make it happen.
    So that is a political reality, but we need to change that. 
We need to find the solutions so that we can deposit nuclear 
waste.
    I would say, Mr. Vice President, there are a lot of things 
that we can do. And there is a lot of potential for the future 
of this Nation. And I understand the problems with China and 
India and Mexico and Brazil and other nations that you say have 
low income. But you find out today that China has amassed more 
capital, real capital, than almost any other country over the 
last 5 years. That capital needs to be spent, not just on 
highways, but they are building those coal-fired plants. They 
can also be investing in new technology and new ideas, and that 
needs to be done, because they are building the equivalent of 
500-megawatt plants of pure coal, no clean up, every week. And 
no matter what we do in this country--we have stopped every 
car, stopped every coal-fired electric plant, and we couldn't 
match in our drop in energy what they add in energy in 
pollution every year--every week.
    So we have a challenge. We not only have a challenge to 
this country; we certainly have a global challenge. I was there 
in Kyoto. I watched this development. I also remember when you 
came in and signed the agreement and changed it a bit. The fact 
is, not everything has worked. And I believe in international 
relations. I believe that we need to have international 
compacts, but we also need to make sure that, when we do it, 
they do work.
    So what I am asking and what I am saying is that I think 
there are answers, answers using the resources we have. I know 
you disagree with us on coal, but I think there are ways we 
could use the coal in this country. But there are some things 
we can do with atomic energy. There are some things that we can 
do with renewable fuels.
    And the other part of this is we have become so dependent 
on foreign fuels that we are tied to sheiks and dictators and 
who knows what; countries like Venezuela and Saudi Arabia and 
Iran and Iraq and Qatar--with all due purposes--and places like 
Nigeria, and I can go on and on.
    When somebody decides to turn the spigot off, we don't have 
energy. And we lose jobs. And we lose the ability to produce in 
this country.
    I spent last weekend in Detroit, the home of our esteemed 
chairman, and I happened to be at the wrestling tournament, Mr. 
Chairman. I wasn't raising money in your district. I just 
wanted to let you know that. Maybe a little. But anyway, what I 
saw in a place called Dearborn, Michigan, going down the street 
were block after block after block of empty factories where 
people once worked, store after store after store closed where 
people used to do commerce and buy things. And as we increase 
regulation, we force jobs out of this country. And if we cut 
off CO\2\ emissions and froze them today, we would have 
literally tens of thousands of jobs that would be moved to 
China and India and other places in the world, and we would 
lose them. We would have more empty factories. We need to work 
on solutions and find the legislative language and the 
legislative fixes that make that work.
    Can you help us do that?
    Mr. Gore. Congratulations on your new grandson. Is that 
your first grandchild?
    Mr. Hastert. First grandchild.
    Mr. Gore. You are going to find grandparenting is not 
overrated, and it is rated pretty high. Tipper and I had a new 
grandson also just 2 months ago, and you are going to love it.
    And it is really without being corny about it, it really is 
for them that we are all trying to find a way to the right 
solutions here.
    I know that time is short so let me just be brief in 
response to your several comments and questions.
    In your initial recitation of what you agree with, 
Congressman, maybe I heard you wrong, but I think you stopped 
short of the part of the consensus that acknowledges that human 
activity is the principal cause of the warming.
    Mr. Hastert. I think I said that.
    Mr. Gore. I just wanted to make sure because, once that is 
established, then we have got a moral imperative to act here.
    And then you pose the choice between taxing and investing. 
That may be an unfair compression of what you said, but the 
investments in TXU that were mentioned earlier came to naught 
because the investors decided that there was such 
unpredictability about the price of carbon that they just 
couldn't go forward with the plan, and so they had to 
completely re-jigger it.
    I don't think we should raise taxes at all. I think that we 
should shift the burden away from working people and small 
business people and put it on pollution instead. And I think, 
if we do that, we are going to make our businesses more 
competitive. Some of the Rust Belt devastation that you 
described, some of it has been due to the fact that old 
inefficient polluting approaches no longer work in a 
competitive world economy and actually focusing on reducing the 
pollution turns out often to be one of the shortcuts to finding 
the most competitive new approaches that can restore jobs and 
make us more productive and more competitive in the global 
economy.
    You mentioned nuclear. I am sure that will come up again. I 
am not an absolutist in being opposed to nuclear. I think it is 
likely to play some role. I don't think it is going to play a 
major role. But I think it will play some additional role, and 
I think the reason it is going to be limited is mainly the 
costs. They are so expensive, and they take so long to build, 
and at present, they only come in one size: extra large. And 
people don't want to make that kind of investment on an 
uncertain market for energy demand.
    Chairman Dingell. The Chair observes that the time of the 
gentleman has expired.
    The Chair is going to recognize next the distinguished 
gentleman from North Carolina, Mr. Butterfield, for 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman, for 
convening this hearing today.
    You told us a few weeks ago that you were going to exert 
bold leadership in this area, and today is an example of your 
leadership. Thank you so very much.
    I also want to thank the Vice President for coming forward 
today and thank you for your past leadership on this issue and 
your future leadership on this issue. Thank you very much for 
coming.
    Mr. Vice President, as I was telling you in the ante room 
before we started, I will continue that now, some of my friends 
on the other side of the aisle make the argument that 
greenhouse gas emissions substantially consist of water vapors 
and that CO\2\ is only a minute fraction of those vapors of 
those gasses. Would you elaborate on that and help us with it?
    Mr. Gore. First of all, thank you for your service, 
Congressman, as vice chairman of the committee, and I 
appreciate your focus on this.
    Water vapor is indeed the most common greenhouse gas. But 
there are two things about it that are really significant. 
Number 1, the residence time is only a few days in the 
atmosphere, up to 10 days, and it recycles constantly. Second 
and most important, it is a slave to CO\2\. In other words, it 
goes up and down depending upon the warming that is initially 
driven by the CO\2\. Whatever the cause is, whether it is 
methane in the ancient past, these long-term hundred thousand 
year cycles, whenever it is warmer, the water vapor increases, 
and it magnifies the warming phenomena. But in the time frames 
that we are dealing with and in the policy framework in the 
science that they tell us is relevant to the policy choices we 
have, it is completely a slave to CO\2\.
    So less CO\2\ reduces the water vapor at the same time. It 
magnifies it in either direction.
    Mr. Butterfield. It is clear, Mr. Vice President, from your 
film that you have spent a great deal of time in China. There 
is a perception here that China is doing nothing, absolutely 
nothing to control their greenhouse gas emissions. But the big 
four accounting firm, Ernst & Young, indicates that China is 
one of the top 10 countries for clean energy investment. And it 
is closing fast on our country.
    What are the Chinese really doing to promote clean energy?
    Mr. Gore. Well, they have announced grand plans, but as I 
said earlier, I think the proof is going to be in the pudding. 
There is no question that the top leadership in China is seized 
of this issue. They have made a bold commitment on it. The 
leader of China, Hu, has made several statements on it. They 
have made it a prominent goal in their new 5-year plan, co-
equal allegedly with GDP. Wu Xintao has made two speeches in 
the last 10 days on this. They are deeply concerned that their 
coming out party at the Olympics is going to be spoiled by all 
of their pollution. The Yellow River often doesn't reach the 
sea anymore for some months. And the melting of ice on the 
Tibetan Plateau has been one of the major factors in driving 
uncertainty about water supplies in many parts of China, 
principally in northern China but throughout China. They are 
deeply concerned about the sea level issue.
    I have given my slide show multiple times in China and went 
to the trouble to get it all translated into Mandarin and so 
forth. And when I was Vice President, I gave the presentation 
in the Great Hall of the People.
    They have scientists that are right out there on the 
cutting edge. And they have got national leaders who can 
describe the problem and tell you why it is serious. They are 
riding a tiger in the sense that their growth is so rapid and 
they are having trouble they say with their regional leaders. I 
think they can do this if they want to. And I think that they 
are preparing to initiate big policy changes.
    But again, the way to improve the odds that they will get 
on board with this is by the United States showing leadership. 
Their emissions of CO\2\ will likely surpass ours within the 
next 2 years or so. And that, again, puts the focus on the 
follow-on to Kyoto, which I think should be moved forward to 
2010.
    Mr. Butterfield. Do you agree or disagree that it is too 
late to prevent the carbon dioxide emissions from increasing to 
450?
    Mr. Gore.  I do not agree that it is too late at all. And 
may I say, I respect those who try to set some concentration 
level to aim at, 450, 550, whatever, I think the present level 
is too high. And I think 450 would be exceedingly dangerous. I 
understand that we are now in a time where the maximum that is 
considered politically feasible now still falls short of the 
minimum that will really address the problem.
    So our challenge is to expand the limits of what is 
feasible. And the good news is once we start and shift our 
momentum, then we will find it is a whole lot easier to do than 
people are saying now, and businesses already getting on board. 
You have an outfit like Wal-Mart, they are not doing that 
because they want to commit economic suicide. They are making 
money at it because they figured out that they can be more 
productive and more profitable by cutting their emissions. And 
I think as more businesses get with that program, we are going 
to find this all gets a lot easier.
    Mr. Butterfield. Thank you, sir. I think we have run out of 
time.
    Chairman Dingell. Time of the gentleman has expired. The 
Chair recognizes now the distinguished gentleman from South 
Carolina, Mr. Inglis. The Chair inquires would the gentleman 
like 5 minutes or 10 minutes?
    Mr. Inglis. I would like to reclaim my time. I may not use 
it all.
    Chairman Dingell. The gentleman has the right.
    Mr. Inglis. Thank you, Mr. Chairman. Thank you, Mr. Gore, 
for being here. I am one of the people that paid for seeing The 
Inconvenient Truth.
    Mr. Gore. Thank you.
    Mr. Inglis. And there are PowerPoints that I would have 
paid to get out of--a lot of them. But this is one I actually 
enjoyed seeing and it is a great work and I appreciate the work 
you have done there.
    Mr. Gore.  Thank you. Thank you very much.
    Mr. Inglis. As a conservative, I think it is important to 
note a couple of things. One is we really should internalize 
the externals. Because as a conservative, I believe in markets. 
And the only way a market can work is if it rightly judges the 
price of our product. And actually that is not just economics, 
that is Biblical notions, the concept that I can't do on my 
land something that hurts your land. I have got to keep on my 
land the products of my land and not harm your land. That is 
the basis of Biblical law. It is the basis of English common-
law. It is the basis of what we have in our country now. It is 
a conservative concept.
    Also I think we have wonderful conservative opportunities 
with things like net metering. What a deal if I can invest in 
my house and make it a profit center, recoup some of my 
investment in my roof by making it create electricity.
    Also, I am one of these folks who believes, as a 
conservative, you teach your kids to do the right thing even 
when nobody is watching. So, yes, we have to somehow cajole 
China and India along. But you have to do the right thing even 
when no one is watching. That is what conservatives believe.
    Conservatives also believe we struggle around here a lot 
with dynamic as opposed to static scoring. We get upset with 
CBO all the time for not dynamically scoring our tax bills. I 
think we have to dynamically score this can-do American spirit 
that did the Transcontinental Railroad, that finished the 
Panama Canal, and then went to the moon. There is a way to 
break our addiction to oil. There is a way to unleash the 
inventors and entrepreneurs of America to deliver new and 
better sources of energy, cellulosic ethanol, better solar 
cells, next generation nuclear power and hydrogen power for our 
cars.
    So I agree with you that it doesn't necessarily have to be 
a lose proposition that really this can be a win proposition 
for the American economy.
    Now, the question is, how did you get there? Because there 
are some scary costs that we face, and Mr. Hall has mentioned 
that word.
    And there are trade-offs. And I have a case study to put 
before you. One of those CEOs that you mentioned earlier is Jim 
Rogers, CEO of Duke Energy.
     He was in my office recently and told me of a decision he 
faces. It is either to build in South Carolina a nuclear plant 
which he would prefer to build, or a coal fired plant which he 
would prefer not to build. But the problem is, it is very 
difficult to get all the ducks in a row, if you will, for a 
nuclear plant, although that really would be their preference.
    I wonder if you could, having established a series of 
agreements here if you would agree that part of the solution 
here is to make it possible for a Duke Energy to build that 
nuclear power plant, rather than to build that coal-fired plant 
which is 24, 7, 365 days a year going to belch out CO\2\.
    Is that something we can agree on to advance this nuclear 
option so that this real world decision right now being made 
within--by the way--the next several weeks they are going to 
make this decision.
     Signal them there can be bipartisan agreement here, that 
they got a future in that nuclear plant.
    Mr. Gore. First of all, Congressman thank you for your 
statements. And I know you went down to Antarctica with former 
Congressman Boehlert, and I have noticed some of your 
statements over the last few years. And I really, I yearn for 
the day when there are more of you on your side--and I think 
the number is increasing all the time--so that we can have a 
really healthy debate where you all bring your core principles 
to the table, and the Democratic side brings their core 
principles to the table. And then we try to get the most 
effective solutions in this. I couldn't agree more.
    That is what was happening in the United Kingdom, as I said 
earlier, that is the way we ought to be doing it. And yes, our 
faith traditions teach us about this and without proselytizing, 
all the different faith traditions teach similar things. I come 
out of the Judeo Christian tradition, as you do, and I am 
taught the Earth is the Lord's and the fullness thereof. I 
believe the purpose of life is to glorify God and we can't do 
that if we are heaping contempt on the creation. And there are 
multiple teachings that all point in the same direction.
    Now, on conservative principles, I have always believed 
that one conservative principle is decentralization put more 
options into the hands of the individuals and the small 
business people. And that is one of the reasons why I think the 
single best thing we could do on electricity is to adopt what 
is called a feed and tariff system to eliminate the limits on 
the ability of individuals to sell decentralized electricity 
back into the grid and have a fair rate for it, and that will 
avoid the difficult choice that you say Jim Rogers is facing 
right now.
    I think that decentralization is the wave of the future. 
And also on liquid fuels for road transport, by the way, and 
the next generation ethanol the enzymatic hydrolysis stuff that 
is coming on line. But on your core choice, I am not opposed to 
nuclear. I have deep questions about it. I am concerned about 
it. I used to be enthusiastic about it. Back when I represented 
Congressman Gordon's district, TVA had 21 nuclear power plants 
under construction. And then later, I had represented Oak Ridge 
where we were immune to the effects of nuclear radiation so I 
was very enthusiastic about it.
    But 19 of those 21 plants were canceled. And I am sure Bart 
gets the same questions I used to get about whether those 
partly finished cooling towers might be used for a grain silo. 
But people are upset still that they have to pay for them and 
not be able to get any electricity for them.
    And I think the stoppage of the nuclear industry was really 
less due to 3-mile island and Chernobyl and environmental 
concerns and more due to the fact that after the OPEC oil 
crisis of 1973 and 1979, the projection for electricity demand 
went from 7 percent annualized compounded down to 1 percent.
    And when energy prices are going up, the uncertainty over 
how much they can plan for also goes up. Now electricity ought 
not follow the price of oil, but it does because there is just 
enough fungibility between oil and coal on the margins that 
electricity chases oil. Now oil is back at $60 a barrel. Where 
is it going to be a year from now? We don't know. But the fact 
of the uncertainty is itself the reason why these utilities do 
not want to place all their chips in one large bet that doesn't 
mature for another 15 years at a very expensive cost. The new 
generation, there may be smaller incremental power plants, 
standardized, safer more reliable, perhaps we may get a 
solution to the long-term storage of waste issue. I am assuming 
that we will, the reactor error. But go ahead.
    Mr. Inglis. In this case, we have a real live company 
offering to build that nuclear plant that would produce no 
CO\2\. It does create waste and as the speaker pointed out we 
need a place to put that waste and it is a problem. But 
comparing that to the CO\2\ that is going to come out of that 
plant 24, 7, 365 days a year, seems to me to be a wonderful 
case where a company is willing to put that much capital at 
risk and actually help solve the problem. We, it seems to me we 
should help them out.
    South Carolina, I understand we get 65 percent of our power 
from nuclear; California, I understand it is 55 percent from 
natural gas. I can't imagine a worse use of a natural gas 
resource than burning it to make electricity.
    So, that being the case, shouldn't we be moving as quickly 
as possible--and this is not theoretical. This is a decision 
that could be made within the next several weeks to decide to 
do something that would actually reduce CO\2\ levels?
    Mr. Gore. Yes.
    Mr. Inglis. In the little bit of time I have left, let me 
ask this question. I wonder if there is a way the concern is 
China and India and the other countries that won't agree to 
anything and that has been well stated on our side. I think 
that is a very legitimate concern.
    I wonder if you have given any thought to the possibility 
of some sort of a system where the developed world has an 
agreement that if you are going to build a plant in our areas, 
then you will comply with our notions of CO\2\ if you build a 
plant in China or in India so that, in other words, in order to 
get a permit back here, you have to agree that there, you will 
abide by the rules that are going on here.
    It is sort of takes it beyond the Chinese and Indians and 
says, we, because this is fungible air, are going to help you 
make this decision so that it also reduces one reason for 
exporting jobs, by the way, because it then becomes--I don't 
know if you given any thought to that kind of concept?
    Mr. Gore.  Yes, I have. It is very difficult to integrate 
the social and environmental factors into the world trading 
system, but I think we should do it more effectively than we 
have.
    I think that using the market is a more effective way to do 
it. I am not opposed to including it in the terms of trade 
agreements to the extent that we can do that. But a cap in 
trade system that puts a price on the carbon--and you could 
even auction off the carbon price--that will allow the market 
to help you establish a price and integrate it more quickly 
across national boundaries so that we get the sharpest 
reductions globally.
    Mr. Inglis. Thanks.
    Chairman Dingell. Time of the gentleman has expired. The 
Chair recognizes now the distinguished gentleman from Georgia, 
Mr. Barrow.
    Mr. Barrow. Thank you.
    Mr. Vice President, thank you for being here today. As you 
stated a number of times today, the debate in the scientific 
community about whether there is a problem, whether we are 
behind it and whether we can do anything about it may be over. 
But as you can see today, the debate in the political community 
about a couple of core issues still goes on. We get folks who 
agree with the idea that there is some change, but they will 
quibble with whether or not we are the cause of it. They will 
agree that there is a climate change going on, but they will 
quibble with the question of whether or not we can do anything 
about it.
    And just in the hearings we have had, I detected something 
of a pattern on this subject. We opened up with a hearing with 
the representatives of the scientific community who came before 
us and said in no uncertain terms there is a problem. We are 
behind it. And we have to do something about it. Then we had a 
series of hearings with what I might call the impact community 
or the solution community, a series of hearings where we are 
consulting with various sectors of the economy to go over with 
them the impacts of various solutions are and what they are 
doing about it; the automobile industry, the utility company, 
the private sector, the automobile industry. We have a series 
of--in fact, this is about eighth hearing that I can remember 
we have had so far on this subject.
    And in the course of these hearings, in the course of them, 
I detected sort of a pattern that has emerged. When the experts 
on the problem were here, there wasn't much going on. There 
wasn't much back and forth on the subject of whether there was 
a problem or not. But when we get into the solution hearings 
and impact hearings, we get a lot of folks pooh-poohing or 
putting down the issue and raising questions, some of which we 
have heard today.
    One of the questions I want to follow up on is sort of like 
a follow-up on what Congressman Butterfield was asking earlier. 
He asked about the question about the relationship between 
water vapor as a greenhouse gas and carbon dioxide as a 
greenhouse gas. I want to follow up on similar statements that 
have been made, because just recently--well, earlier in this 
series of hearings in March, March 7, there was a statement 
made by one of the members of this committee to the effect that 
natural emissions overwhelm manmade emissions.

    The ratio of emissions of greenhouse gases that are natural 
to those that are manmade is so overwhelming that it calls into 
question or casts doubt on whether or not we are actually 
responsible for any part of the problem or can do anything 
about it.

    What do you say to folks who argue that there really isn't 
a problem or it is a problem we haven't got our fingerprints on 
or can't do nothing about? What do you say to folks who argue 
that natural emissions are overwhelming manmade emissions in 
this scenario?
    Mr. Gore.  Well, Congressman, first of all, thank you for 
the time you put in delving into this issue. We have known each 
other almost 20 years now, and I appreciate your service very 
much.
    Each one of these CO\2\ molecules has a kind of a chemical 
signature. And they can determine with a very high degree of 
accuracy that the extra amount that has been added to the 
atmosphere in the last 100, 150 years, since the beginning of 
the industrial revolution--but really in this past century are 
manmade.
    Now, sometimes you will hear about the vast volumes of 
emissions that come from volcanoes for example. Here is what 
the scientists say is the difference there. They are heavy 
particulates and they fall out of, back to the ground over a 
period of a year and a half or so. And for that brief period of 
time they can have an impact. Mount Pinatubo had an impact. Way 
back in 1815, I guess it was, we had a year without a summer 
because of a huge volcano in Indonesia.
    And one of the ways they have improved their understanding 
of the whole science of global warming is by studying these 
natural emissions. But most of them have the short residence 
times, short life times in the atmosphere.
    What the problem is is CO\2\. Now, methane is also a 
problem. Nitrous oxide is a problem. But the vast majority of 
the problem is CO\2\--70 million tons every single day that we 
are putting up there. And it stays there for so long--as I 
mentioned earlier, it takes 100 years for half of it to come 
back out. So it is the old saying a journey of a thousand miles 
starts with a single step. We have got to take a lot of steps. 
And we have to do it quickly. It is not the natural emissions 
that is causing this. We are overwhelming the natural cycles.
    Mr. Barrow. Thank you, Mr. Vice President. I am running out 
of time, Mr. Chairman, so I yield back the balance. Thank you.
    Chairman Dingell. Chair thanks the gentleman. The Chair 
observes that the next of our colleagues to be recognized is 
Mr. Upton of Michigan for 5 minutes.
    Mr. Upton. Well, thank you, Mr. Chairman, and Mr. Vice 
President, we welcome you today and we appreciated your 
testimony. I want to say that as you ticked off a number of 
different recommendations, I think that there are a good number 
of them that many of us can support. And I would note that in a 
hearing in the last couple of weeks, my chairman, Mr. Boucher, 
said this, any bill which we would support must have bipartisan 
support and industry support. It must be an economywide, not 
restricted to just certain economic sectors. It should be 
capable of passage not just in the House, but in the Senate as 
well.
    And we take that as a good challenge and we intend to work 
on a bipartisan basis to see that.
    Some of the things specifically that I appreciated in your 
comments were these, obviously, a move toward clean coal 
technology, something that we have started and we need to 
finish. We do need to use the Tax Code in a number of different 
ways.
    For me, coming from Michigan where we have the highest 
unemployment rate in the Nation, jobs are certainly a big 
issue. And I want to help the auto industry. And I must say 
that I am co-chair of the auto caucus with my colleague Dale 
Kildee, the second largest bipartisan caucus in the Congress.
    What we are seeking is not unfunded mandates but actually 
to try and help the auto industry and therefore the consumers 
indeed get better mileage and fuel economy standards with their 
vehicles.
    Wind and electricity, obviously, those are issues that we 
all need to move forward on. And I want to commend Ms. Harman 
and Mr. Hastert and Mr. Boucher and myself, a number of us are 
looking at technology for light bulbs to see a real change 
where we can see true savings in that. And I would just note 
take in the bipartisan energy bill that passed, the President 
signed in 2005, Mr. Markey and I had a provision on daylight 
savings time that as we learned for every day that we extended 
day light savings time we saved an average of 100,000 barrels 
of oil energy equivalent.
    As it turned out, a nonprofit study came out and it 
indicated that we would, by the 4-week extension of daylight 
savings time, emit 11 million metric tons less of carbon 
between now and 2020.
    But the questions that I have for you--and I really saw it 
missing in the debate as it related not only to your book but 
also in the movie, you have touched on it briefly here--was the 
whole issue of nuclear energy.
    And now, Mr. Markey and I might agree on daylight savings 
time and a few other things. But we disagreed strongly on Yucca 
Mountain. And it was my bill along with Mr. Hastert and Mr. 
Barton and Mr. Dingell that we are truly helpful to begin to 
try and see the funding for Yucca Mountain. And I remember that 
it was your old boss, Mr. Clinton, who on a campaign stop back 
in the 1990's, indicated to the voters in Nevada, that if he 
was elected President, he would veto that bill. And I think 
that is, in essence, what happened. We had to run over him to 
get where we were.
    And you were quoted not too long ago, at least according to 
the Nuclear Energy Information Resource Center, is ``I do not 
support any increased reliance on nuclear energy; moreover, I 
have disagreed with those who have classified nuclear energy as 
clean or renewable.''
    Today we are seeing a new, new-coal fired plant being built 
in China almost every 4 days, literally, 2 every week. Many of 
these as I am told don't have scrubbers. And as you talk about 
the big dog in this fight, the nuclear industry--and I know 
that France is about, I think 90 percent reliant on nuclear 
energy, and this country we are about 20 percent.
    Right now there are about 24, 25 different nuclear plants 
being promoted around the world--none of them in the United 
States. And I am glad to hear my friend, Mr. Inglis, talk a 
little bit about Duke Power down in South Carolina, because I 
am a supporter of nuclear energy. And I do think that can be an 
enormous asset for this country and the consumers. I am one 
that believes that the energy cost of $60 dollars a barrel they 
aren't going to stay there. They are only going to go up. And 
so as we look at a relationship between the cost of energy and 
where we are nuclear, I think that this is one of the savings 
that we can have. And I would hope that because this was 
missing in the debate, in your book and the movie, that perhaps 
in light of today's hearings, perhaps you will have a little 
change of mind, and I yield my 18 seconds back for you to 
respond.
    Mr. Gore. I don't recognize the quote that you used as one 
of mine. I am not saying it wasn't, but I don't really agree 
with the way that was phrased.
    I am not a reflexive opponent of nuclear power, 
Congressman. I am just a skeptic about nuclear power's 
viability in the marketplace. I think that if we let the market 
allow the most competitive forms to surface, what we will see 
is decentralized generation, widely distributed, we will see an 
emphasis on conservation and efficiency and renewable energy. 
But where nuclear power is concerned I have expressed my views, 
previously, I am not a reflexive opponent, I think there will 
be some new nuclear power plants.
    But you mention China. Look at their 5-year plan right now. 
You are right, they plan 55 new coal fired power plants per 
year. Only three nuclear plants per year. Now why? They don't 
have any opposition that they can't overcome pretty easily from 
Beijing. But they see the same problems just in practical terms 
that a lot of our utilities see. These things are expensive and 
complicated. They take a long time and the fragility of the 
operating regime has already been seen. I have been to 
Chernobyl. I have been to Three Mile Island and I don't want to 
exaggerate those problems.
    I think that we can come up with solutions for the dangers 
of operator error. I think we can come up with solutions for 
long term storage of waste. I don't think Yucca Mountain is it. 
And I think if you don't skate past the real scientific 
evidence of what they found at Yucca Mountain. What they found 
on the geology there makes it simply wrong to put stuff that is 
going to need to be contained for tens of thousands of years in 
a place that is really not appropriate for it. Now that is my 
reading of what the geological survey has said about that. But 
I am not opposed to it as a category.
    Chairman Dingell. Chair recognizes now the distinguished 
gentleman from California, Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman. Mr. Vice 
President, it is a pleasure to see you. And I want to commend 
you for the enormous leadership role you are playing on 
educating the American people and today educating the Congress 
about the greatest threat to our planet. It is a threat not 
only because of the environmental problem, but it is a threat 
as well to our national security because burning of fossil 
fuels makes us more and more dependent on unstable sources of 
petroleum from the Middle East.
    When we look at this issue, it seems to me when we talk 
about market forces. If government did nothing, there is no 
reason why any business would want to spend the money to reduce 
emissions unless they knew that every one of their competitors 
had to do it. So when we hear about market forces, but don't 
put any requirements on industries, that just won't work 
because then the incentives are to pollute more because you 
don't want to be at a competitive disadvantage.
    When we put something in place to deal with this problem, 
it strikes me that what we need to do is to look for renewable 
energy, to look to alternative energy and greater energy 
efficiency.
    I introduced a bill yesterday, the Safe Climate Act, and we 
tried to use this comprehensive approach of looking at all 
these areas. But we tried to use market systems as well in 
order to drive the technology. The market systems would be a 
cap and trade, but the levels that we have called for 
reductions in our pollution would be to get to 1990 levels by 
2020 and 80 percent below that by 2050.
    I would like to know whether you think these kinds of 
reductions are the kinds of reductions that the scientists are 
calling for? A lot of people want to do less because they think 
it is more politically palatable. But if we are going to deal 
with this problem, let's follow the science, in my view, and 
get to the reductions we need. Do you think these are realistic 
and important levels for reduction?
    Mr. Gore.  I really do, Congressman Waxman. And I commend 
you on your legislation. I saw it yesterday. And I don't feel 
that I have the expertise to get into every part of all the 
different the bills that have been introduced, but I sure do 
like your legislation a lot. And I think the level of 
reductions that you are calling for are in keeping with what 
the scientists would want us to do.
    And some of them would want us to do even more. As I said 
earlier, I think that the current levels of 383 parts per 
million are already dangerously high.
    I mean, if we see that the disappearance of the Arctic ice 
cap in the next few decades, that would be a radically 
dangerous change for our planet. A few years from now, we are 
going to be back here or will be in conversations, all of us, 
about this, and the world is going to look so different.
    The range of things we are talking about now are just going 
to seem so small compared to what people are going to be 
demanding then. I am telling you the awareness on this is just 
on a straight upwards trajectory. And it is not partisan. It is 
not partisan. This is not a political issue. It is a moral 
issue.
    And our children are going to be demanding this.
    Now, so in terms of your legislation, I think you have done 
a great thing there. And I think it is related to the energy 
security crisis. We are at a carbon crisis. We are borrowing 
all this money from China and buying all this oil from unstable 
places and burning it in ways that are destroying the 
habitability of the planet. That whole pattern has to change.
    Mr. Waxman. Mr. Vice President, we on this committee have 
fought conventional air pollution in the Clean Air Act and we 
had a strong Clean Air Act, good legislation, consensus 
legislation that we adopted in 1990. But conventional air 
pollution can also contribute to global warming. Shouldn't we 
work to address conventional pollutants like black carbon even 
while we press forward on reducing carbon dioxide emissions?
    Mr. Gore. Absolutely, and the so-called four pollutant 
standard, or ``four P'' approach is, I think, the most 
efficient for utilities, most efficient for industry. If they 
are going to retrofit--and of course, if they are going to 
expand, the law requires them to upgrade--they should be doing 
all four of them at the same time. I agree with you totally.
    Mr. Waxman. I hear a lot from people who express hesitancy 
about this issue. They say it is going to destroy our economy. 
Well, that smacks of fear. And fear can be very paralyzing. I 
also hear people say, well, they have a magic solution: nuclear 
power. I think your approach is a smart one. It is a business-
like approach. Nuclear power is an option. You don't want to 
rule it out but it is certainly no magic solution. It almost 
becomes a theological expression whenever I hear a discussion 
of these environmental issues. My view--and I think it is what 
I hear you saying as well--let's unleash the ingenuity of the 
marketplace, give people the incentives to do the right thing, 
and then just watch out because people are going to develop 
technology that we don't even know about today that will help 
us deal with this problem.
    But if we don't put something in place to insist on those 
reductions, we jeopardize our planet. And some people have told 
us we only have a small window of opportunity to act. I thank 
you for your leadership on this issue.
    Mr. Gore. Thank you for your leadership Congressman.
    Chairman Dingell. Time of the gentleman has expired. The 
Chair recognizes now the distinguished gentleman from Maryland, 
Mr. Bartlett for 5 minutes.
    Mr. Bartlett. Thank you very much. Mr. Vice President, my 
wife notes that she thinks there ought to be some relationship 
between conservative and conservation.
    And indeed, I think it is probably possible to be a 
conservative without appearing to be an idiot.
    Mr. Vice President, there are several groups that have 
common cause with you in wanting to reduce CO\2\ levels, CO\2\ 
production through conservation, through efficiency and through 
more use of renewables. These include those who are concerned 
with national security, the fact that we have only 2 percent of 
the world's oil, use 25 percent of the world's oil, importing 
almost two-thirds of what we use. Those that are concerned that 
fossil fuels are not infinite, that we have probably reached 
about the midpoint of oil, which is about peak oil, that it is 
going to be downhill after this, those who are concerned about 
a challenge for increased economic development, more 
manufacturing export, which certainly could come from a focus 
on moving to renewable and the general environmentalist who 
understands that when you produce CO\2\, you also produce other 
pollutants, and isn't the air polluted enough, thank you.
    We don't have to agree with the premise of these other 
groups, but I am a member of each of those groups, I would like 
to note, to embrace a common solution.
    And my question is, how can we get together to combine our 
forces?
    The second question I want to ask stems from a trip that I 
just took to China. I led a delegation of eight other Members 
to China. And we went to talk to them about energy. And I was 
stunned they began their conversation by talking about post 
oil. And they have a five-point plan, the first of which is 
conservation; second and third, diversify your energy sources, 
get as much as you can from your own country; and fourth, be 
kind to the environment, to the planet. They know their awful 
polluters. They are asking for help.
    And the fifth one is international cooperation. They 
recognize we need international cooperation. And indeed, 
whichever one of these camps you belong to global warming or 
national security or peak oil, it is going to require 
international cooperation.
    My second question is, are we adequately reaching out to 
China and these other countries?
    Mr. Gore.  I don't think we are. I think that the group 
that was put together with U.S. and China and Australia and a 
couple other countries has been unfortunately just an 
opportunity to talk and not really do anything. In order to 
have success with them, I think that we do need to take action 
ourselves, and I think that there are aspects of this challenge 
beyond CO\2\ involving methane and land cover, for example, 
that may offer some interesting possibilities for getting them 
to join earlier rather than later.
    And of course, they bridge the categories. They are still a 
developing country, but they are the Saudi Arabia of 
manufacturing now. And their emissions will, before too long, 
be more than ours. So we have got to find a way to get them 
involved. But it is a negotiation.
    Now, if they are the outlier, and if the rest of the world 
is acting, I don't think there is any doubt that they will 
join. I really think that that is the best way to get them on 
board.
    But we don't have an option of just forcing them to do it.
    I wanted to say, Congressman, that I have followed some of 
your comments over the last several years, and you heard me 
quote one of your comments in my opening statement. I do think 
that one of the keys to getting a true bipartisan dialog here 
is by focusing early on one of the realizations that you 
expressed early on, that there are some places where the market 
is currently failing to internalize enough of the cost to give 
us an accurate picture of what the choices are. And if the 
decision to pollute is free, and you can dump as much of your 
pollution as you want on to everybody else, then the actual 
cost there are misleading you because you are seeing them as 
free. They are really not free.
    And the way to get our businesses--to give them a better 
chance to really compete effectively is to internalize those 
costs so that they can make more accurate calculations and get 
with the program. As soon as carbon has a price, you are going 
to do a wave of investment that just will boggle the mind.
    Just last week, Morgan Stanley executed the first trade in 
the marketplace for carbon emissions post 2012, no legal regime 
out there. The market is seeking to put a price on carbon. And 
I think if this Congress can help them do so, that is one of 
the real keys to unleashing this investment.
    Mr. Bartlett. Thank you very much, Mr. Chairman. I yield 
back.
    Chairman Dingell. Time of the gentlemen has expired. The 
Chair recognizes now the distinguished gentleman from 
Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much and welcome 
back, Al.
    You and I were elected 30 years ago and sat down on this 
bottom row. It seems like yesterday, but----
    Mr. Gore.  You had 3-week seniority on me.
    Mr. Markey. You never forgot that or forgave me the 3 weeks 
of seniority.
    But back then, Congress had just passed a new law, which 
mandated the doubling of the fuel economy standards for the 
automotive fleet in the United States from 13\1/2\ miles per 
gallon to 27 miles per gallon. Over the next 10 years, American 
dependence upon imported oil dropped from 46 percent to 27 
percent by 1986.
    We had made a dramatic change in our relationship with 
imported oil.
    But that number has stagnated since then and actually 
declined, even as other countries had increased their fuel 
economy standard requirements.
    So as part of this discussion--and I know it is in your 
book, and you have referred to it in your testimony--there is a 
conclusion reached by the National Academy of Sciences in 2002 
that using existing automotive technologies, not including 
hybrid technology, that we can improve our fuel economy 
standard to 35 miles per gallon over a 10-year period, and in 
that period of time back out all the Persian Gulf oil, and as a 
result, reduce carbon emissions the equivalent of about 170 
coal-fired plants per year.
    Could you talk about that issue and the centrality of our 
need to improve dramatically the fuel economy standards for our 
vehicles?
    Mr. Gore. Well, I support your legislation, Congressman, 
and I congratulate you on your new select committee, and in any 
way I can help you, I want to and we have been friends and 
allies on so many things for all these years now, and I am 
really excited about your leadership on this issue.
    I mentioned earlier that in addition to supporting your 
bill, I also support the general idea that your legislation 
should be part of a comprehensive package. And my fondest dream 
is that this Congress will come up with a series of initiatives 
that, taken together, constitute a really bold step in helping 
us sharply reduce CO\2\ emissions.
    And I think it is easy to see how Congressman Dingell would 
be concerned as anyone would representing an area where there 
is a concentration of a very important legacy industry and 
future industry in our country if it seems like that is being 
singled out. And so I respectfully suggest that we ought to--I 
encourage the passage of your legislation and as part of the 
comprehensive package and the cap-and-trade system, could lead 
to some very interesting bargains between the fuel suppliers 
and the industries that make cars and other things that burn 
the fuel and find the most efficient ways to get the 
reductions.
    Now, let me say something controversial. I don't think it 
is controversial but I know it is not necessarily welcome. I 
really believe that the old saying--and I will say this to you, 
Congressman Inglis, be careful what you pray for. I think it 
would be amended be careful for what you lobby for. Because 
successful lobbying for the lowest of auto efficiency standards 
has not been good for our automobile industry. And we all know 
that the less efficient vehicles that cost more money to 
operate when the price of oil goes up--which was not completely 
unpredictable by the way--are a hard sell now. And the 
companies that are doing better are ones that have more 
efficient vehicles.
    And it is a complicated story. We need to solve it. We need 
national health care, and you get that off the backs of the 
auto companies as well and it is all interconnected, but 
efficiency goes hand in hand with marketability in this new age 
that is rushing toward us here.
    Mr. Markey. Well, I want to say I thank you, very much, 
that I obviously sat here with you 30 years ago and what you 
are saying about information technologies, what you were saying 
about environmental issues back then, now retrospectively 
really do make you look like a prophet. You had your finger on 
the pulse of the issues of the 21st century, and that is the 
reason you are here today. And I think that it would be wise 
for the Congress to listen to your warnings, because I think 
that history has now borne you out. Thank you for being here.
    Chairman Dingell. The time of the gentleman has expired.
    Mr. Gore. I appreciate your kind words.
    Chairman Dingell. Chair recognizes now the distinguished 
gentleman from Kentucky, Mr. Whitfield, for 5 minutes.
    Mr. Whitfield. Thank you, Mr. Chairman, and Mr. Vice 
President, we are delighted you are here today and we certainly 
appreciate the time that you are spending with this joint 
committee. You would be the last person I think that I would 
probably have to say that we all recognize that we live in a 
pretty polarizing country today.
    Chairman Dingell. Would the gentleman yield?
    Mr. Whitfield. Yes, sir.
    Chairman Dingell. Just for a housekeeping matter here I 
apologize. I will not take it out of the gentleman's time. We 
are going to have a vote in about 5 minutes or so on the House 
floor. And our distinguished witness has informed us that he 
has to be elsewhere and so the gentleman from Kentucky will be 
the last member of the committee that will be recognized for 
purposes of the questions. And then the Chair would observe 
that we will after that adjourn, go over to the House floor and 
vote. And we will return to hear our next witness. I hope that 
our members will come back, because the Chair wants to have 
both a complete record, full participation of the members, and 
very frankly, an opportunity for all members to appreciate the 
seriousness of the matters before us. So, the gentleman from 
Kentucky is now recognized.
    Mr. Whitfield. Thank you, Mr. Chairman, and Mr. Vice 
President, this is one of those issues that certainly there is 
a lot of division on. I think everyone recognizes as you have 
said, and the scientific community agrees, that there is global 
warming caused by human activity.
    But I was reading a statement that either you made or was a 
part of your movie, ``An Inconvenient Truth'', and it said we 
have just 10 years to avert a major catastrophe that could send 
our entire planet into a tailspin of epic destruction involving 
extreme weather, floods, droughts, epidemics and killer heat 
waves beyond anything we have ever experienced.
    And those kinds of statements--I think one of the 
attributes that you have is that you are very passionate about 
these issues. And that is one of the things that attracts 
people to you, that passion. But at the same time, and I am not 
quoting these for their truthfulness, but simply to say these 
are some statements that we read in recent articles about these 
kind of statements.
    It says, this is overstating our certainty about knowing 
the future.
    We agree on fundamentals that warming is real, but we do 
not agree on the urgency or the consequences of that. And then 
one scientist was quoted as saying that this is shrill 
alarmism. And then Mr. Lomborg is to be testifying later today 
after we vote. And he brought a group of imminent economists to 
Copenhagen and they looked at major issues facing humanity 
today. And the point was that the world's financial resources 
is limited. And so, how should we spend these resources to the 
most effective use and help of humankind today?
    And they listed 17 issues that face mankind today, like 
disease, and malaria and HIV and water safety, water sanitation 
issues, education, whatever, whatever, and climate change came 
down as the very last issue that should be addressed.
    And so, I guess the comment that I would make, I think 
everyone agrees that we do have global warming. But then the 
question becomes, what is the urgency of it? What is the 
consequence of it? And when you have people coming from 
diametrically opposed positions, what advice would you give us 
in to trying to address this and spending these limited 
resources?
    Mr. Gore. Well, thank you very much, Congressman. Again, 
the initial quote that you attributed to me, I don't recognize 
those words. I have said things similar to that but I have 
tried to say it more carefully and in different ways. Let me 
tell you exactly what I do believe. And it is not coming from 
my analysis of the science. It is coming from those scientists 
whose judgment I most respect on this.
    Way back, I used to hear people say we only have 10 years, 
this kind of thing. And I never endorsed that. I never endorsed 
it. First time I made a statement similar to that was less than 
1 year ago, and I will tell you why. The scientist I most 
respect, including Jim Hansen, who runs the most sophisticated 
modeling program for NASA and others, have now, have recently 
come on the conclusion, within the last year, that the evidence 
now does show that we may have as little as 10 years within 
which to begin making dramatic changes, lest this problem gains 
so much momentum, our ability to forestall it will be lost to 
us.
    Now let me tell you what they are referring to.
     A couple of theories. Arctic ice cap, Greenland, west 
Antarctica, the frozen methane and frozen carbon and other 
forms not only in Siberia and Alaska, but also in the shallow 
seas where they have these formations that they have now seen 
are vulnerable to melting and releasing huge amounts of 
methane.
    Let me take them one by one. First of all, the Arctic ice 
cap--it is a floating ice cap. And it is only 6 to 8 feet thick 
on average. Captain William Anderson just died a couple of 
weeks ago. He was a Member of this House of Representatives. He 
was the captain of the Nautilus and made the first voyage to 
the North Pole in a nuclear submarine in 1958. For almost 50 
years, they have kept a record of that thickness. Finally they 
declassified it in ways that could make it usable to the 
scientists.
    Those and other data series now make it clear that this 
floating ice is melting very rapidly. Ninety percent of the 
incoming solar radiation that hits that ice cap now bounces 
off. It only hits up there 6 months of the year. But in our 
summer it bounces off. It is one of the ways our planet cools 
itself. If it melts--as it is melting--the open ocean absorbs 
80 percent. So that is a big change. That is not just a gradual 
change. That is a big change. That is already why the 
temperatures in the Arctic are increasing more than twice as 
fast as anywhere else in the world outside the Antarctic 
Peninsula.
    If it goes completely, if it just goes to the seasonal ice 
which is just 1 or 2 feet thick, then it will be gone. And that 
will be become one of the biggest heat sinks on the planet. And 
if that happens, our ability to retrieve this favorable climate 
balance that we have developed then as a species, would be 
potentially lost to us.
    Now, if the Arctic ocean starts heating up radically that 
puts more pressure on Greenland. There is an amount of ice on 
Greenland that you know is 7 to 8,000 feet thick, a huge ice 
dome. It is equal to 6- to 7-meter increase in sea level 
worldwide. In the past, it has broken up in some of these 
ancient eras. And it has raised sea level that much. If 
Greenland goes, then again our ability to retrieve this problem 
might be lost to us.
    West Antarctica, same thing, more stable than Greenland, 
they believe but they, the science magazine article just came 
out 3 days ago shows--and I recommend it to the committee. I 
will provide it along with my testimony--it shows exactly why 
these ice sheets are moving far more rapidly than anybody 
predicted. It has really shocked the scientists. And if that 
goes, that is another 6 to 7 meters.
    Now, then the frozen methane and other forms of carbon in 
the tundra and the shallow seas. There have been tipping points 
in the ancient past where temperatures reached the point where 
that is suddenly--that is released. Methane is 22, 23 times as 
powerful a greenhouse gas, as CO\2\. If we don't stop turning 
the thermostat up before we cross that tipping point, that is 
another reason why these scientists are saying, we have a short 
time frame in which to act.
    And I hear the bells. Mr. Chairman, if I may, briefly 
conclude by expressing my deep thanks, to you, to Chairman 
Gordon, to your ranking members, to the other subcommittee 
chairs and ranking members, and to each member of this 
committee my apologies to the extent that I may have 
contributed to the longevity of this dialog at the expense of 
your time, I am very grateful for the honor of being here and 
participating in this dialog and I wish you well in the crucial 
legislative tasks you have before you.
    Chairman Dingell. Well, Mr. Vice President, we thank you 
for your kindness to us, the Chair recognizes, first, the 
gentleman from Texas, Mr. Barton.
    Mr. Barton. We thank you Mr. Vice President, and we look 
forward to continuing the dialog. We appreciate your sincerity 
on this issue.
    Chairman Dingell. I am delighted that you are back here, we 
remember you with great affection and respect for your time and 
on this committee.
    Mr. Gore.  I learned about another new rule from you just 
this morning, Mr. Chairman. Every time I come here, I am 
freshly educated about the rules of this committee.
    Chairman Dingell. They are the only defense that the Chair 
has. The Chair recognizes now our distinguished friend from 
Tennessee, Mr. Gordon.
    Chairman Gordon. Mr. Vice President, on behalf of your old 
Science and Technology Committee, Energy and Commerce 
Committee, this is really unprecedented as well as on behalf of 
the whole United States Congress, as well as your new grandson 
Oscar, we thank you for your testimony.
    Mr. Gore. Tell Peggy happy birthday.
    Chairman Dingell. Thank you, Mr. Vice President. And it is 
a pleasure to see you, Mrs. Gore, too. Thank you for being with 
us.
    Mr. Barton. Mr. Chairman, will we reconvene immediately for 
votes?
    Chairman Dingell. The Chair is going the ask for order 
because there is an announcement here. The Chair is going to 
announce there is a vote on the floor at this time. It will be 
followed by a number of other votes, the Chair is advised.
    We will therefore return--I am not quite sure exactly when 
that will be, but 15 minutes after the last vote has been 
concluded. At that time we will hear from a distinguished 
witness suggested by the minority, Dr. Bjorn Lomborg, from 
Copenhagen Consensus Center, and we will look forward to 
hearing your testimony sir.
    Th committee stands in recess then, until 15 minutes after 
the last vote.
    [Recess.]
    Mr. Inslee [presiding]. The committee will be in order. We 
have before us Professor Bjorn Lomborg who is the adjunct 
professor at Copenhagen Consensus Center at the Copenhagen 
Business School. Professor Lomborg is author of ``The Skeptical 
Environmentalist'', great title, and Professor Lomborg, we 
would like to hear your comments for as much as time you as you 
like within reason. Thank you.

   STATEMENT OF BJORN LOMBORG, ADJUNCT PROFESSOR, COPENHAGEN 
          CONSENSUS CENTER, COPENHAGEN BUSINESS SCHOOL

    Mr. Lomborg. Thank you very much Mr. Chairman, thank you 
members. I am very happy to be here and I think it is a very 
important issue that we are discussing. Obviously I would like 
to go through--and I have a PowerPoint up here, I hope everyone 
can see it.
    I think it is important to say climate is back on the 
agenda and I think we should recognize that that is still to a 
large degree thanks to my co-presenter, Mr. Al Gore. The 
climate discussion was strong back in 1992 when it was put on 
the agenda by Earth Summit in Rio. It was also strong when we 
talked about the Kyoto Protocol in 1997. And to a large extent, 
Mr. Gore deserves applause for making global warming cool 
again.
    However in this presentation I will move beyond recognizing 
the importance of global warming and ask, how we should deal 
with it, how we should view it, and how we should put it in 
perspective? And so I will make four basic points which will 
come up in the next slide.
    First, global warming is real and manmade. I think that 
point is best made by the U.N. Climate Panel, the so-called 
IPPC, latest in its 2007 edition, as Mr. Al Gore also pointed 
out.
    Second, the consequences of statements about strong, 
ominous, and immediate consequences of global warming are often 
wildly exaggerated, as I will also be showing you later on.
    The third point is we need smarter solutions that 
basically, yes, we need to focus on solutions, but very often 
those proposed are excessive; even if they are well 
intentioned, they are actually going to cost a lot and do 
fairly little good.
    And that leads me to the fourth and final point that 
climate change is really not the only issue. We need to listen, 
as this hearing asks to make a global perspective on global 
warming and say climate change is not the only issue on the 
agenda. There are many other issues and we need to ask, where 
we can do the most good first?
    And so I think it is important to say, if I should sum up 
what I am going to be saying here, we need to be frank. Al Gore 
and the many people he has inspired have goodwill and great 
intentions. However, he has got carried away and has come to 
show only worst-case scenarios and I think we need to recognize 
that. This is unlikely to form the basis of good judgment. The 
problem is compounded in that if we follow Al Gore's 
recommendations, we will likely end up choosing very bad 
policies to solve the many problems that we agree need to be 
addressed. In short, Mr. Gore's logic, with all its good 
intentions and sincerity, would in effect present an obstacle 
to saving millions of lives.
    But I think it is also an opportunity. This very debate is 
a remarkable occasion to recapture our goodwill, as Al Gore 
talked about earlier. It is a chance to recap our policies. It 
is an opportunity, I would argue, for America to reclaim its 
leadership, both enacting sensible global warming policies and 
smartly addressing the many other ills of the world. And so I 
would like to focus, instead of rhetoric, actually try to 
present you with some of the important facts I think are 
important to have this conversation.
    The first point--and I am simply going to go through these 
four issues I pointed out--is that that global warming is real 
and it is manmade. It is on the agenda, thanks to Al Gore, and 
I think we need to make sure to thank him for that.
    The best information comes from the U.N. Climate Panel. The 
likely temperature rise by 2100 is going to be about 5 degrees 
Fahrenheit. The total cost of global warming is about $15 
trillion. That is a remarkable sum of money. We should be 
realizing that, of course, and we ought to make it clear that 
we need to be sure we do the right thing about this.
    On the other hand you also need to put in perspective the 
total net worth of the 21st century is about $3,000 trillion. 
So it is about 0.5 percent of the total cost, and that puts it 
into perspective. We need to take this seriously. We always 
need to have smart policies.
    The second policy--and I would like to dwell a little bit 
on this--is the consequences are often vastly exaggerated. And 
that leads, I would argue, to bad judgments as to what we 
actually focus on.
    If I could first look at the sort of Al Gore standard 
story. There was actually a gentleman here earlier that read 
out this quote, and Gore couldn't quite recognize it. But I can 
assure you it is at least correct--it comes from his Web site 
for the movie where he talks about a planetary emergency. ``We 
have just 10 years to avert a major catastrophe that could send 
our entire planet into a tail spin of epic destruction 
involving extreme weather, floods, droughts, epidemics, killer 
heat waves, beyond anything we have ever experienced.''
    Obviously there are many, many more of these kinds of 
statements. I would like to take you through four of these 
issues: heat deaths, sea level rise, hurricanes and malaria.
    Look at the first one. If you talk about heat deaths, it is 
absolutely true that with global warming we will see more heat 
deaths. We will basically have an increase in heat deaths. If 
you look at the U.K. where we have some of the best estimates, 
for 2080 we will probably see about 2,000 more heat deaths. 
That is definitely something we should know. However, we should 
also realize that global warming will mean fewer cold deaths. 
And we need to be able to say both of these--for Britain it is 
estimated the fewer cold deaths will run into about 20,000 
fewer cold deaths. We need to have both the pieces of 
information. It is unlikely we will make good judgments if we 
don't.
    If we look at the numbers from the U.S., which is the 
newest numbers we have from a global survey in 2006, peer 
reviewed, as for the U.S. there will probably be about 174,000 
net fewer cold deaths and heat deaths in the United States. We 
need to have this information. It doesn't mean that there are 
no problems with climate change. But it does mean if we only 
focus on one part of that argument, we are likely to make bad 
judgments.
    Likewise, if we look sea levels rise, sea levels will rise; 
that is absolutely true. But it is not going to be a 
catastrophe. The U.N. Climate Panel estimates that it is 
probably going to be about 30 centimeters, or 1-foot, over the 
next 100 years in the standard scenario A-1 B. It is not going 
to be Al Gore's 20 feet. And, again, it is important to say 1-
foot is something we can deal with; 20 feet would undoubtedly 
would be very, very hard to deal with.
    Of course we need to realize we also saw 1-foot of sea 
level rise over last 150 years. Now, was that a big problem? It 
was certainly something we dealt with. The thing I like to 
imagine is if we ask an old survivor from the last century, 
probably an old woman, what she remembers of the last 100 
years, she is likely to talk about the two world wars, the 
Great Depression, maybe the invention of the internal 
combustion engine, maybe even the IT revolution, but it is 
unlikely she will say, oh, and the sea levels rose simply 
because we dealt with these issues. So we need to get a sense 
of proportion. This is a problem, but it is not the end of 
civilization.
    If I could just show you, this is the difference between 
what the U.N. Climate Panel is telling us will happen with 
Greenland, which is essentially 1.4 inches, and Gore's 
predicted 20 feet. I think making that kind of 
misrepresentation of the data is just simply not helpful.
    Now, notice again I am not saying that Al Gore has not been 
good on putting global warming on the agenda; but I am saying 
it is unlikely by exaggerating the events of global warming to 
this point is going to help us. It is unlikely that it will.
    If I could take a look at the next slide, hurricanes, it 
has been pointed out by many that we will see ever more damage 
costs from hurricanes. This is actually the statistics for the 
U.S. for the last 105 years, the damage cost. And what you can 
clearly see is basically just 2005 outweighing virtually 
anything else. Of course it is especially Katrina, but also 
several others. You can also see 1992 Hurricane Andrew. Again, 
this seems to indicate the very dramatic rise in the cost and 
seems to enforce there is really something going on; maybe this 
is due to global warming.
    But, of course, you actually have to realize that it is 
predominantly because we have many more people living much 
closer to where harm's way is, and with much more good.
    If you actually recreated--and this is what researchers 
did--you can see the result up here. If you imagine all 
hurricanes from the last 105 years hitting the U.S. as it 
looked in 2007, you see this graph instead. You actually see 
the highest cost of hurricane as the great Miami storm in 1926. 
Of course back then, it just basically hit a lot of sheds--not 
entirely--but it only cost about $700 million. Had it hit 
today, it would probably have cost more than Katrina and 
dramatically more, probably about twice as much as what 
Hurricane Katrina did. And what this really shows is that it is 
something entirely different that is driving the increase in 
cost.
    If I could have the next slide, please. It is basically 
social vulnerability. Just imagine you know the population of 
just Dade and Broward today in Florida is a similar number of 
people as the entire gulf and Atlantic coast of the U.S. in 
1930. So, obviously, we will see much more damage today than we 
would see back then.
    So if you actually ask the researchers, how much can we do 
if we do something about climate change, the answer is over the 
next 50 years if we could stop climate change--which of course 
we cannot--but even if we could, we would probably prevent 10 
percent of the damage increase; whereas if we could end social 
vulnerability, which of course we can't either--but we can 
prevent part of it--we could probably prevent about 480 percent 
of the damage increase.
    So the simple question here is if we really care about 
trying to make people less vulnerable, if we want to have them 
less hit by hurricanes into the future, should we be focusing 
on the 10 percent up there or should we be focusing on the 480 
percent? And, perhaps more importantly, the 480 is going to be 
fairly cheap, whereas the 10 percent is going to be very, very 
expensive.
    So, again, this is a question about taking the rhetoric 
down and letting us have the conversation of where can we do 
the most good.
    The last thing I want to show you is malaria. Al Gore also 
focuses on malaria. A lot of people actually talk about malaria 
and say that with more heat we will see more malaria. That is 
also weakly true because it is weakly related to increasing 
temperatures. On the other hand it is much, much more dependent 
on wealth and treatment. If you look at we had malaria endemic 
both in Europe and the United States during the Little Ice Age. 
We had malaria in the Arctic Circle, and even malaria in Moscow 
in the 1940's. Italy wasn't clear from malaria until the 
1970's.
    Essentially, if you get rich you deal with malaria. If you 
get a well-functioning health system, you deal with malaria.
    And so the question is, again, are we turning the right 
knob if we are worried about climate change?
    And let me show the next slide, if you look at how much 
Kyoto can do and how much a targeted malaria policy can do over 
the next century. The basic point is if we do something about 
malaria for about $3 billion a year, we could probably avoid 
about 28 billion cases of malaria over the next century. If we 
do it through Kyoto, which is probably going to cost 60 times 
as much, we will end up doing 400 times as little.
    And so the question here is not to say, yes, climate change 
is true; yes, in a perfect world we would also want to deal 
with climate change. But we have to ask ourselves do we want to 
be remembered as the generation who did a lot for a little 
money, or do we want to be remembered as the generation who did 
a little for a lot of money? When I present it like that it is 
obviously not such a hard question.
    But let's go through and look at some more of these issues. 
I just wanted to show you one thing. This is the cover of 
Science News from 1975. Back then we were worried about global 
cooling. It is not to say we are not much smarter now. But it 
is to say, look at how we always hear the worst case of 
whatever it is that we are worried about. Back then we worried 
enormously about global cooling. You can actually see New York 
there, being flooded over by a glacier. I am sure that is 
actually going to go very slowly. But still, what you see there 
is basically they told us all the worst things that they could 
from global cooling.
    But it is curious if you think about it, if we worry about 
temperatures rising and saying that is going to mean more 
malaria, how come when we worried about global cooling nobody 
said, but at least it is going to mean less malaria. We never 
seem to see the other other side of the argument. I am not 
saying that overall global warming is not going to be bad. I am 
saying it is unlikely we will make good judgments if we don't 
see both sides of the argument and if we don't get a sense of 
proportion.
    That brings me to the third point; namely, that we need 
smarter solutions. The ones we have proffered right now are 
just simply very costly and not going to do very much good.
    Let me briefly show you if we do Kyoto--this is perfectly 
standard analysis--the cost of Kyoto is about $180 billion a 
year, yet it will do very little about the temperature.
    What you see here is over the next century. If you look at 
the black line--that is if we don't do anything. The red line 
is if we do Kyoto--that is, if the U.S. also did Kyoto and 
everybody stuck to this for the rest of the century, you would 
basically see postponing global warming for about 5 years.
    Next slide.
    You have all heard that the EU has just come out and 
proposed they would do a 20 percent cut of carbon emissions by 
2020, yet the cost that will have will probably be about $90 
billion. And it will do even less than Kyoto. It will only 
postpone global warming for about 2 years.
    If you look at the last side, here which is Gore's 
solution, which is the one I have heard him say--until today 
where he obviously said a much greater number--he was actually 
suggesting cutting emissions by 90 percent, which will be 
horrendously expensive; but if you look at the payroll tax 
proposal that he has come out with in 2006, the cost would be 
about $160 billion. It would mean $1.25 rise per gallon of gas. 
And it would basically postpone warming for about 4.5 years.
    What this essentially tells us is that we can do, if we do 
it right now, we can cut emissions. Yes, it will be fairly 
costly and it will do very little good. That is not a very good 
idea.
    Next slide, please.
    Al Gore also in his discussion, and many others, will say, 
well, but maybe it is not actually going to be costly, maybe it 
will actually be an advantage to us. And then he also referred 
to the Stern report which actually came out and said, yes, it 
is actually going to be an advantage. I would like to remind 
you that all peer-reviewed research shows that doing a lot 
about climate change is essentially a losing position.
    If you look at this, this is an overview of all these 
studies that we have. The peer-reviewed you see over in the 
left-hand side of the corner. You basically see the damages are 
about 1 percent of GDP, on average, and the cost of doing parts 
of this is about 2 percent.
    So it is a bad idea to give 2 percent to obtain less than 1 
percent. And the Stern report turned those figures around. But 
I should also warn you that they were basically basing 
themselves on all the other peer-reviewed studies. So I would 
say, if anything, the Stern report probably was not very 
representative of what they were actually purporting to show. 
If anything, all peer-reviewed research that shows a cost/
benefit tells us we should do fairly little now.
    And I would like to just briefly show you why this is the 
case. And these are the same models that also the Stern review 
and also Al Gore would base himself on. It is basically because 
the cost comes now. The benefits come way into the future.
    And this particular model--but I will submit they all look 
pretty much the same--you see the costs rising dramatically 
from now up until about the middle of next century, and then 
they level off. Whereas the benefits only cross far into the 
next century and, of course, you have to remember by then we 
will have built up a debt. So essentially the first generations 
to start profiting from the things that we do now against 
climate change are going to be born early in the 23d century.
    You have to ask yourself whether there isn't better things 
to spend our money on first. And so my argument would be to 
say--and this is my solution that I think I would like to 
submit to you to consider--is to say we need a much longer-
term, smarter way to deal with these issues. That would be, for 
instance, investing 0.05 percent of GDP in research and 
development in noncarbon-emitting energy technologies.
    Essentially it would be much cheaper, about $25 billion a 
year on a global level. It would let each country do what they 
think is the best way. We are not going to be picking winners. 
We are essentially going to let markets do this. And in the 
long term, the point is we will be able to solve global warming 
much better than some of these proposals we have seen with EU 
and other proposals of cutting emissions, like the Kyoto. This 
is simply a much cheaper way of doing much more good in the 
long run.
    That leads me to the last and fourth point I want to 
briefly mention to you is that there are many other things 
where we need to focus. I also notice that one of the members 
talked about the Copenhagen Consensus. Basically Gore talks 
about our generational mission. And he talks about that we need 
to think about what is the future going to ask us. I think that 
is entirely right. We need to think about what is the future 
going to ask of us. He says they are going to say, what were 
you thinking? What on Earth were you thinking? Why weren't you 
concerned about doing the most good first? And I think that is 
entirely true.
    But of course what they are going to be asking us is why 
were you spending $180 billion a year doing virtually no good 
100 years ago from now, where you could have spent so much more 
money on better things. I would like to compare this very 
briefly, for $75 billion a year we could solve all major basic 
problems in the world. We could give clean drinking water, 
sanitation, basic health care and primary education to every 
single human being on the planet.
    So, again, the question is do we want to be remembered as 
the generation who did a little good or a lot of good for a lot 
of money or a little money? The basic point here is that it is 
not that hard of a question.
    And that of course leads me to the Copenhagen Consensus 
where we asked some of the world's top economists, including 
four Nobel laureates, to look at all the different things we 
can do in the world. And we asked them, where do you get the 
most bang for the buck? This is what they came up with. They 
basically told us we should prevent HIV-AIDS; we should prevent 
micronutrient malnutrition, ensure free trade, and prevent 
malaria. If we do that, for every dollar we spend we would 
probably end up doing about $40 worth of social good. That is a 
very good investment.
    On the other hand they showed, down at the bottom they 
showed the Kyoto Protocol and several other ways to deal with 
global warming, basically telling us it is a bad investment, 
not that you waste the money, but for every dollar you spend 
you probably end up doing 25, 30 cents worth of good.
    And so the question is, do we want to be remembered as the 
generation who spent dollars and did 30 cents' worth of good 
for each dollar, or do we actually want to be remembered as the 
one who did $40 worth of good for the world?
    And so basically my point here is not that there is no 
global warming. There is. And Al Gore should be thanked for 
putting that on the agenda.
    On the other hand, we also need to get a sense of 
proportion. We are not likely to make good judgments if we 
vastly exaggerate the bad consequences of global warming and 
forget the positive incidences of global warming. And that also 
means we need smarter solutions. The solutions that are being 
proffered right now are doing very little good at very high 
cost. There are much better ways to do it; for instance, 
investment in research and development. That will enable our 
kids and grandkids to deal with many of these issues instead of 
having a situation where we virtually spend lots of money doing 
very little good. And we also need to remember if we are really 
talking about our generational mission, global warming is not 
the only issue. There are many other things that our kids and 
grandkids will judge us: Did you actually do the best you could 
with the money you were going to spend? Did you spend it on 
vast, frivolous projects like the Kyoto Protocol? Or did you 
actually spend it on a lot of things that would end up doing a 
lot of good for the world first?
    The point is we need to think about other issues. But as 
this is a discussion on climate change, we need to ensure that 
we do it smartly and efficiently.
    Thank you Mr. Chairman.
    [The prepared statement of Mr. Lomborg follows:]

    [GRAPHIC] [TIFF OMITTED] T7579.004
    
    [GRAPHIC] [TIFF OMITTED] T7579.005
    
    [GRAPHIC] [TIFF OMITTED] T7579.006
    
    [GRAPHIC] [TIFF OMITTED] T7579.007
    
    [GRAPHIC] [TIFF OMITTED] T7579.008
    
    [GRAPHIC] [TIFF OMITTED] T7579.009
    
    [GRAPHIC] [TIFF OMITTED] T7579.010
    
    [GRAPHIC] [TIFF OMITTED] T7579.011
    
    [GRAPHIC] [TIFF OMITTED] T7579.012
    
    [GRAPHIC] [TIFF OMITTED] T7579.013
    
    [GRAPHIC] [TIFF OMITTED] T7579.014
    
    [GRAPHIC] [TIFF OMITTED] T7579.015
    
    [GRAPHIC] [TIFF OMITTED] T7579.016
    
    [GRAPHIC] [TIFF OMITTED] T7579.017
    
    [GRAPHIC] [TIFF OMITTED] T7579.018
    
    [GRAPHIC] [TIFF OMITTED] T7579.019
    
    [GRAPHIC] [TIFF OMITTED] T7579.020
    
    [GRAPHIC] [TIFF OMITTED] T7579.021
    
    [GRAPHIC] [TIFF OMITTED] T7579.022
    
    [GRAPHIC] [TIFF OMITTED] T7579.023
    
    [GRAPHIC] [TIFF OMITTED] T7579.024
    
    [GRAPHIC] [TIFF OMITTED] T7579.025
    
    [GRAPHIC] [TIFF OMITTED] T7579.026
    
    [GRAPHIC] [TIFF OMITTED] T7579.027
    
    [GRAPHIC] [TIFF OMITTED] T7579.028
    
    [GRAPHIC] [TIFF OMITTED] T7579.029
    
    [GRAPHIC] [TIFF OMITTED] T7579.030
    
    [GRAPHIC] [TIFF OMITTED] T7579.031
    
    [GRAPHIC] [TIFF OMITTED] T7579.032
    
    [GRAPHIC] [TIFF OMITTED] T7579.033
    
    [GRAPHIC] [TIFF OMITTED] T7579.034
    
    [GRAPHIC] [TIFF OMITTED] T7579.035
    
    [GRAPHIC] [TIFF OMITTED] T7579.036
    
    [GRAPHIC] [TIFF OMITTED] T7579.037
    
    [GRAPHIC] [TIFF OMITTED] T7579.038
    
    [GRAPHIC] [TIFF OMITTED] T7579.039
    
    [GRAPHIC] [TIFF OMITTED] T7579.040
    
    [GRAPHIC] [TIFF OMITTED] T7579.041
    
    [GRAPHIC] [TIFF OMITTED] T7579.042
    
    [GRAPHIC] [TIFF OMITTED] T7579.043
    
    [GRAPHIC] [TIFF OMITTED] T7579.044
    
    [GRAPHIC] [TIFF OMITTED] T7579.045
    
    [GRAPHIC] [TIFF OMITTED] T7579.046
    
    [GRAPHIC] [TIFF OMITTED] T7579.047
    
    [GRAPHIC] [TIFF OMITTED] T7579.048
    
    [GRAPHIC] [TIFF OMITTED] T7579.049
    
    [GRAPHIC] [TIFF OMITTED] T7579.050
    
    [GRAPHIC] [TIFF OMITTED] T7579.051
    
    [GRAPHIC] [TIFF OMITTED] T7579.052
    
    [GRAPHIC] [TIFF OMITTED] T7579.053
    
    Mr. Inslee. Thank you Dr. Lomborg. We will now have another 
great leader on this issue from Tennessee, Bart Gordon, 5 
minutes.
    Chairman Gordon. Thank you Mr. Inslee.
    And, Mr. Lomborg, welcome to the Energy and Commerce 
Committee and the Science and Technology Committee and welcome 
to America.
    Mr. Lomborg. Thank you.
    Chairman Gordon. We take great pride in our freedom of 
speech here, but I do think it is fair to point out the 
different speech and opinion, and I just want for the record to 
give some of the reviews of your work from your home country.
    The Danish Committee for Scientific Dishonesty was called 
to evaluate your work. Their analysis of your book concluded 
the following and I quote: ``The publication is deemed clearly 
contrary to the standards of good scientific practice. Further, 
there has been such pervasion of the scientific message in the 
form of systematically biased representation that the objective 
criteria for upholding scientific dishonesty has been met.''
    Scientific America has a 12-page article entitled 
``Misleading Math About the Earth'' dedicated solely to your 
book.
    The National Academy of Sciences also here in America, 
member Norman Mayer said that you have not done a fraction of 
the homework that could give him a preliminary understanding of 
the science in question.
    Finally, the prestigious scientific journal Nature 
described your work as, and again I am quoting, I don't really 
like this but I am quoting, ``Employs a strategy of those who 
argue that Jews weren't singled out by the Nazis.''
    I just want to get this on record again. You are welcome 
here and your opinion is welcome. But for the record, I want to 
note that your opinion has been disputed in your country and 
elsewhere.
    Mr. Lomborg. Yes.
    Chairman Gordon. I yield back the balance of my time.
    Mr. Lomborg. Can I comment on that?
    Mr. Inslee. Certainly, yes.
    Mr. Lomborg. Thank you very much for your welcome here. I 
do believe that it is important to say that the--I mean, there 
is clearly a lot of people out there who have been very 
critical of my work. That is absolutely true. I think it is 
curious, given the fact that this is the work not of me but, 
for instance, of the thing I was presenting here of the 
priority list of some of the world's most esteemed economists, 
including four Nobel laureates.
    But you do mention the Scientific Committee of Dishonesty. 
Yes, it is very true that a lot people wanted me to be 
convicted. And the committee actually did just what you said. 
However, it also turned out on appeal that they actually hadn't 
done their homework. They actually had not done any 
justification for that decision.
    And so what it really shows is that there are a lot of 
people out there who really would like me to be wrong, but they 
couldn't uphold it. It was actually canceled, and the quotation 
that you made actually comes from a verdict that has been 
overturned. I just want to make sure that that also gets into 
the record.
    And likewise, Scientific American took four people to go 
through my book, three of whom I criticized strongly in the 
book. It is perhaps not very surprising that they came up with 
the conclusion that I was wrong.
    Now the curious thing--and I am not even going to talk 
about I think a lot of people felt it was very, very bad of 
Nature to do the Holocaust Jew thing now. But I would like to 
take just a moment, because it is not really a question of 
whether there are a lot of people out there criticizing me; it 
is much more a question saying, isn't it at least something we 
should be considering, that maybe our spending a lot of money 
right now, for instance, on Kyoto is not the best way to do 
this?
    And at least I would like to engage here, and that is why I 
think this is such an important discussion to have. It is not a 
question of saying, you should buy all my views. But it is a 
question of at least thinking that just because there is this 
great momentum of oh, yes, let's do a lot of good, if our 
analyses show it is going to be very costly, if our analyses 
show that it is going to do very little good, shouldn't we at 
least consider whether there are smarter ways of moving towards 
this goal? And that, I think, is really my purpose of coming 
here, to make sure that we think this through and at least try 
to be smart about this.
    Chairman Gordon. That is the reason you are here, to give 
another opinion, and we welcome you for that. And, as you say, 
it is healthy to be able to discuss it.
    He was given my time.
    Mr. Inslee. Thank you. We will move on to Mr. Barton now. 
Mr. Gordon has yielded to Mr. Barton of Texas, 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    Dr. Lomborg, thank you for being here. This is your book. I 
understand you have a new book coming out in September. I want 
the record to show that I haven't read all of it but I have 
read a good part of it. It is 350 pages, and then there are 
over 150 pages of bibliography and footnotes. What Dr. Lomborg 
has actually done is compiled, to the best of his ability, the 
most recent statistics and studies on not just climate change, 
but a minimum of other environmental issues and tried to get as 
much expert witnesses or experts' testimonies he can, and then 
use his own mind to evaluate the facts.
    And my good friend from Tennessee put into the record the 
Denmark Committee on Scientific Dishonesty, what they said in 
January 2003 about his book, The Skeptical Environmentalist. I 
want to put on the record that was in January 2003.
    In December 2003, the Danish Ministry of Science and 
Technology and Innovation, of which the DCST is a subdivision, 
completely rejected, completely rejected the DCST's finding 
that Lomborg's bomb was objectively dishonest. In fact, the 
Ministry found that the DCST's decision was not supported by 
documentation, offered no substantiation and was, I quote, 
``completely void of argumentation,'' and had shown--again I 
quote, ``a significant neglect in its analysis.''
    So, I want to compliment you, Doctor, for agreeing to use 
your own mind to evaluate some of these theories and be willing 
to state opinions that are contrary to the politically accepted 
position. You are doing a service to mankind and a service to 
this debate to be here today.
    Now my question for you. You are the originator and I think 
coordinator of something called the Copenhagen Consensus, where 
you invited leading experts in the environmental community and 
the social welfare community from all over the world to come to 
Copenhagen and try to rank various world problems and solutions 
to those world problems. Is that correct?
    Mr. Lomborg. Yes.
    Mr. Barton. Now, in that ranking, what was the No. 1 
problem, and where did global warming/climate change rank?
    Mr. Lomborg. If I could just answer the question slightly 
broader, because I think that also goes to Mr. Gordon's point.
    It is not to say that climate change is not important. 
Obviously people who work in climate change are going to say 
this is important, and that is indeed what the scientific 
community is telling us, and that is what Mr. Gordon is telling 
us. But likewise, of course, when you ask a malaria expert what 
is important, don't be surprised that the malaria experts say 
malaria is important. Everybody will say their turf is the most 
important thing; this is what we should be dealing with.
    What we then try to do at the Copenhagen Consensus is 
essentially try to make a menu, with prices of all the 
different things we can look at. Yes, we can solve all these 
problems. Clearly we don't.
    So at least we should have a conversation of, well, where 
can we do the most good first. And what they came out with is 
essentially telling us if we invest a dollar in HIV-AIDS we 
will probably end up doing $40 worth of social good. Investing 
it in malnutrition for micronutrients will probably do about 
$30 worth of good; free trade, probably $20; malaria, about $10 
to $15 worth of good. Whereas Kyoto, as you also asked, came 
out next to the bottom. Probably for every dollar you spend you 
probably do somewhere between 25 and 30 cents' worth of good.
    So it gives you a sense of what is it you want to shop. At 
the end of the day, of course, it is your job to make those 
decisions. But you at least now have a price list. So we are 
hoping instead, if you went into a restaurant and just got a 
menu and there were all these great options but no prices, that 
would make you a little uncomfortable. Now at least we put 
prices on there. And then, of course, democracies can 
deliberate what they want to pick first.
    Mr. Barton. Finally, in my last 20 seconds, I pointed out 
to the Vice President that in his charts he portrays that 
greenhouse gas emissions, principally CO\2\, go up and then 
temperature goes up, when in point of fact the data that we 
have over the last 650,000 years shows that when temperature 
goes up first by an average of between 200 to 800 years. I 
pointed that fact out to the Vice President and he seemed 
unimpressed by it.
    First of all, do I have my facts correct, or is the Vice 
President correct?
    Mr. Lomborg. You are correct. And you are also correct that 
that is a general point. On the other hand, I also tend to 
think it is an interesting discussion, I see why he would have 
picked out that because it is a very strong graph. It is 
probably he is right for the wrong reasons on that particular 
point.
    Mr. Barton. I was happy with, yes, I am correct.
    I yield back, Mr. Chairman. Thank you, Doctor, for being 
here.
    Mr. Inslee. I yield myself 5 minutes.
    Doctor Lomborg, my name is Jay Inslee. I am from Seattle. I 
want to compliment Denmark on some of your successes as you are 
heading to go 50 percent windpower on your electrical grid. 
That is an accomplishment. We think we could do great things in 
this country as well as if we adopt some policies to deal with 
this issue.
    You have come to us, giving us sort of an analysis, largely 
an economic analysis. But many of us, many of our constituents, 
believe that we have a moral obligation not to damage the 
planet. And they believe, because of their belief in a higher 
power, that we have an obligation to take care of the Creator's 
garden. In Genesis we were given that obligation. Many people 
of different faiths share that moral obligation that we are not 
going to take away the polar bear from the grandkids or the 
salmon from streams or the Orcas or walruses, or you name it. 
This is a moral obligation that our generation has.
    And I want to make sure I understand you. You are not here 
to tell us that under your belief, under your belief in a 
higher power, whether you have one or not, that that should be 
diminished and that we should believe in a God that would allow 
us to destroy the meaningful parts of this planet that we hold 
dear. You are not telling us that, are you?
    Mr. Lomborg. No.
    Mr. Inslee. I want to make sure of that.
    Mr. Lomborg. Yes.
    Mr. Inslee. I want to make very sure that you have come to 
us, telling us up here in Congress that if our constituents 
believe that they have a belief in a God that gives them an 
obligation to turn this planet over to our grandchildren as 
good as we found it, you are not telling us that that is not 
something we shouldn't follow, are you?
    Mr. Lomborg. No. Can I elaborate on that?
    Mr. Inslee. Not now. I only have 5 minutes. Well--go ahead. 
If you think that doesn't answer the question, go ahead.
    Mr. Lomborg. Basically, I think you are absolutely right, 
and I think we want to leave this planet as a better planet. 
However, I would also argue that it is hard to imagine that we 
would have a God that would not want us to save somewhere 
between 10 and 15 million people from HIV-AIDS over the next 10 
years, and so on. There are a lot of things, 28 billion people 
who are getting infected by malaria. So we definitely want to 
do all these good things. My point is simply we want to leave 
the best planet we can.
    Mr. Inslee. I think I understand your point. Your point is 
to think that the United States isn't capable of dealing with 
HIV, malaria, and global warming at the same time.
    Now maybe Denmark, with all due respect, isn't capable of 
dealing with those things. But I will tell you something about 
America. We are capable of dealing with HIV, malaria, and the 
commitment to our grandkids to not despoil the planet, because 
it is a moral obligation to do all three and we are going to do 
all three in the country.
    Now, you have given us an economic analysis and I want to 
test your economic analysis, just how good you are in knowing 
what the future costs or benefits of these actions will be. 
Many of us believe in America, because we are the people that 
put a man on the Moon, we are the people that perfected the 
Internet, we are the people that invented the lightbulb, that 
this is a tremendous economic opportunity for the United States 
of America.
    And we believe that we have as much opportunity to grow our 
economy as opposed to being a cost to our economy. And the 
reason we believe that in the United States of America is 
because we have tremendous innovators in this country who have 
done a real crackerjack job whenever we have had a 
technological challenge.
    So I want to ask what you know about the American economy. 
Are you familiar with the Nanosolar Company in Palo Alto, 
California?
    Mr. Lomborg. No.
    Mr. Inslee. They make a PV thin solar cell that could be 
market-based grid solar power in the next year.
    Are you familiar with the Oscar of solar thermal power? 
They make solar thermal that may be grid competitive in the 
next 18 months. Do you know about the Verdiem Company in 
Seattle, Washington?
    Mr. Lomborg. No.
    Mr. Inslee. They make a product that can basically save 10 
to 30 percent of your electricity because it will shut off your 
PC when you are not using it.
    Do you know about the Range Company of Georgia?
    Mr. Lomborg. No.
    Mr. Inslee. It is a company that makes cellulosic ethanol 
that is up--they are going to start construction shortly--that 
can have a significantly reduced CO\2\ footprint with 
cellulosic ethanol.
    Do you know about the General Motors Volt?
    Mr. Lomborg. I have heard about it, yes.
    Mr. Inslee. General Motors Volt is where you plug in an 
electric car that is going to get 150 miles a gallon with zero 
CO\2\ for the first 40 miles.
    Now, the point I want to make is, with all due respect, 
your projections of the cost of what this is going to do, you 
have the sign wrong, as the Vice President said this morning.
    We believe that this is an opportunity to sell products to 
China and to Denmark. You got the drop on us on Vestus, but we 
intend to do better next time. And we are going to start 
filling up ships, selling them to Beijing, with solar thermal 
technology and efficiency technology, and we are going to ship 
to the rest of the world the best clean energy technology ever 
invented. Now, that is a prospective Seattle.
    If you want to make any comments, go ahead.
    Mr. Lomborg. Thank you very much. I appreciate your points. 
I will just really make two points.
    One is you say America is a great country, and it is 
absolutely a great country, and it is definitely much bigger 
than Denmark. You say also that you will deal with both 
malaria, HIV, and global warming. And we could add on a few 
others like clean drinking water, and education, and all the 
problems in the world. I am very happy to hear that.
    I would, however, ask respectfully why you didn't do so the 
last 10 years? Why haven't you solved all these problems? And I 
would like to at least have you recognize that apparently doing 
all these things is not so easy.
    And let me just reflect on the point that while Gore was 
Vice President, the CO\2\ emissions of the U.S. increased 18 
percent and the development assistance declined from point 14 
to point 10.
    And so it does seem to say, suggest to me, that, no, not 
only can't you do everything, but actually you didn't do either 
of these issues. And that seems at least to be an important 
point.
    The second thing that you talk about that is an 
opportunity----
    Mr. Inslee. Just conclude. I have to get to other speakers, 
if you can conclude fairly shortly.
    Mr. Lomborg. Yes. And the other one on the opportunity in 
cost, and I got the sign wrong. It is very easy for the Vice 
President to say you got the sign wrong. All I can say is just 
as we trust the IPCC, the U.N. Climate Panel, because it is a 
very large group of esteemed scientists looking at the world 
climate, looking at what the world climate looked like, I would 
probably imagine that the Nobel laureates and all the climate 
economists that we have are better able to get the sign right 
than I do--you or me.
    So the point here, again really on the idea of saying the 
things that you mention, if they are indeed marketable and they 
actually work in this market now, great. But then we don't 
actually have to be considering it here. If they don't, then at 
least we have to have the conversation of saying, is that where 
we want to spend our money or would we rather want to spend it 
in a lot of other inventions that America could also greatly 
enhance humanity with?
    Mr. Inslee. I would decline your kind offer to comment on 
what would have happened had the election turned out 
differently.
    Thank you very much. I would like to now recognize Mr. Hall 
of Texas for 5 minutes.
    Mr. Hall. Dr. Lomborg you were here when the Vice President 
was testifying, were you not?
    Mr. Lomborg. Yes, I was.
    Mr. Hall. And you heard me go over the word ``costs'' with 
him, and that I had repeated it, I think, eight times in there. 
And Mr. Bartlett helped me. He put two more words of ``cost'' 
in there and I asked Mr. Gore about the cost and read back to 
him what he said, that there are some who will say that acting 
to solve this crisis will be costly. I don't agree.
    And then he goes on to say the way he would solve it would 
save money. And he pointed out, makes some sense that 
consequences of inaction would be devastating to both 
environment and economy. That is, of course, it would be 
devastating if we could afford even to get to that point.
    Now, you had calculated, I think, that it costs about $25 
billion a year worldwide, as opposed to $180 billion a year in 
the Kyoto-like system, and that it actually resulted in more 
reductions, had you not?
    Give us the benefit of your opinion. You mentioned in your 
testimony that we need to be much smarter about climate change, 
meaning that we need to abandon expensive and inefficient 
strategies like Kyoto and search for other opportunities.
    How about elaborating for us a little bit on that, if you 
would, on how investing in R&D would be a smarter way of 
dealing with this problem? And should we invest exclusively in 
next-generation energy sources or should we also invest in 
technologies to make existing resources more efficient, more 
affordable, and cleaner?
    Mr. Lomborg. Yes.
    Mr. Hall. Give us for the record, your opinion on that and 
enlarge on it a little.
    Mr. Lomborg. Yes, thank you very much. Two things. Again, 
you are absolutely right. I didn't think that Al Gore answered 
the question about costs very well, and certainly if the cost 
really is negligible or even if it is going to be an advantage, 
it is hard really to see why we need to have these 
conversations because clearly everybody would just jump on it.
    Essentially if all you have are lots of $50 bills lying 
around, you would imagine some people would be picking them up, 
and that doesn't seem to be something we would need to 
regulate. So at the end of the day, I think we need to realize 
that all peer-reviewed economic research tells us yes, costs 
are going to be significant. They are not going to be damaging 
our economy. I think one of the Democrats pointed out that some 
people go out and scare us with saying that this is going to 
ruin our economy. We are all going to basically have go to the 
poor house. That is not what we are talking about.
    Kyoto is going to cost $180 billion of a $50 trillion 
economy in the world. It is not going to drive us to the poor 
house. But we could definitely spend that money better.
    The second part of your question of how could investment in 
research and development actually do better, well the idea here 
really is to say right now estimates show that the cost of 
emitting an extra ton of carbon dioxide is about $2 per ton of 
carbon dioxide. It is the maximum reasonable--this is the 
latest of the meta study from Richard Toll, one of the most 
respected climate economists--the largest cost that we could 
reasonably envision is about $15 per ton of carbon dioxide.
    Now, the problem is that most of the cost of cutting carbon 
emissions are much, much higher. The typical Kyoto cost is 
around $30, $40. Many of the proposals that we have seen here 
today, also Al Gore's proposal, is probably in the $100 or 
more. That is certainly also true for the Stern report.
    So essentially we are standing in a situation where we say 
the damage is only $2, but we only have technology to deal with 
it if we are going to spend $100 per ton. That is a bad deal. 
We need to get those costs down.
    Now, there are ways of doing that. One is to say let's cut 
emissions and thereby force industries and others to do those 
cuts. And, of course, they will probably try to find the 
smartest way to do it. But we pretty much know the answer to 
that. Maybe they can get it down to $100, down to I don't know, 
$80. But we would much, much rather say let's actually spend 
the money in research and development so that we can get that 
cost fundamentally much further down. And that is what research 
and development does. No, it shouldn't just be in renewables. 
It should be in all the different areas.
    Mr. Hall. You do have people who don't believe in your 
summations or your conclusions in your home area, do you not?
    Mr. Lomborg. Oh, sure.
    Mr. Hall. And people write good and bad about you?
    Mr. Lomborg. Yes.
    Mr. Hall. Well, you are normal then. We suffer that same 
problem here.
    My time is about out. I really wanted to get to you about 
the global cooling scare in the mid-1970's and how the 
scientists thought they knew what was causing the cooling, and 
then all of a sudden the debate shifted to global warming. So 
like an old lady at home, her husband died at 92, she said that 
old pipe finally got him. Here they ease off from cooling to 
warming.
    And when did the debate shift to global warning, if you 
know?
    Mr. Lomborg. It shifted several times. We were worried 
about global cooling----
    Mr. Hall. In the 1970's cooling scare.
    Mr. Lomborg. We worried about cooling in the early part of 
the 1900's, and 1930 we worried about warming, and we worried 
about cooling in the 1970's. The point is, though, I think it 
is important to say we have much better reason to worry about 
warming now. So I think we need to recognize that warming is a 
serious issue. And it is people that are much smarter than any 
of us in this room, although I am not sure I know everyone in 
here--but the really best people that we have in the planet 
telling us that this is a problem. I think we need to listen to 
them, but we also need to say, yes, but how much is it going to 
cost and how much good can it do?
    Mr. Hall. Thank you. I yield back thank you.
    Chairman Gordon [presiding]. Mr. Hastert is recognized for 
5 minutes.
    Mr. Hastert. Thank you, Mr. Chairman. And, Mr. Lomborg, I 
appreciate you coming and spending some time. I know you had to 
fly all night to get here from Denmark, but I appreciate it.
    You talk about malaria and HIV-AIDS and Asian flu and 
micronutrients, and we talk about the free trade and clean 
drinking water and education. I think that is part of the 
things that--I happened to be Speaker here for a number of 
years, and at every appropriation and every foreign 
appropriation we do, we have probably been the leader in HIV-
AIDS and other issues and making sure that children have the 
nutrients they have, along with NGOs, and a lot of that is 
American money as well that is given outside the government.
    But I guess we could always do more. And I think that is a 
choice that we can always make and what is available.
    But I want to go back to what our view is, some of our 
views are.
    If we could do something to help ourselves to make our 
environment cleaner, make the world environment cleaner, and we 
can do it, I think that is something that we ought to try to 
do.
    Also we find ourselves in this country energy dependent on 
other countries. You haven't had the effect so much in Europe, 
but there are people who can turn the spigot and turn off 
energy, or raise the price and cause the loss of jobs and 
people having huge heating bills and things like that.
    So I think one of our goals is energy independence. And I 
think we get down to the point of what can we do. I think in 
this country we can do several things. We can do alternative 
fuels. We have the ability now to look at ethanol and soy 
diesel and bring other types of fuels into play and, 
eventually, hydrogen if we do the research.
    We also have the ability to look at what we have; 80 
percent of the energy that we have in this country happens to 
be coal. How do you unlock coal? How do you do the research to 
make sure you can use that energy? Because that is what we 
happen to have. And I think we need to do that research. We 
need to find the way. And I am not sure that we have that 
research yet. I am not sure that we found that way.
    But we need to do the engineering, research, and the 
science to do it. And I think the key is doing it in a clean 
way.
    So our ancestors have been doing it the dirty way for a 
long time; just dig it out of the ground and put it in a 
furnace and heat up steel or heat up water in boilers or 
whatever.
    We have to do this in a clean way.
    I remember in 1992 I sat on this dais and one of our goals 
was to find what is the future energy source for this country. 
And we all agreed it was going to be natural gas. So in the 
last 15 years every energy unit that has been built in this 
country--well, small energy unit that has been built in this 
country, happened to be gas peaker plants. Well today, all of a 
sudden, we see the possibility of shortage of natural gas. We 
don't have enough natural gas. So that wasn't a good choice.
    But we invested a lot of money and then we will have to be 
able to make sure that our source of gas, natural gas, keeps 
flowing.
    Unfortunately, we don't want to have to get liquid natural 
gas from someplace offshore, because that spigot could be shut 
off as well.
    So we have a dilemma in front of us. First of all, how much 
good can we do? Then what are our resources and how do we bring 
those together? And I say probably, I am speaking probably out 
of my own knowledge here, but we probably do more good around 
the world economically in dollars than any other Nation. We 
could probably do more. But we do it because of our free market 
enterprise system and the ability to make money and pay taxes 
and have the government be able to do that and the private 
sector doing it too; individuals.
    Do you think that course of trying to develop our own 
resources in a cleaner, better way is reasonable?
    Mr. Lomborg. The very short version is yes. It would be 
very obvious to say if you were going to increase your research 
and development you would probably do a lot on clean coal, you 
would do a lot on carbon capture, and that also seems like one 
of the very promising technologies. It is still in the high 
end, again, if the damage cost is $2 per ton of carbon dioxide; 
the cheapest carbon capture I have heard about is about $20. So 
it is a still a factor 10 off. That doesn't mean it has to be 
that way in 20 years.
    But the point is, don't try to do it now simply because it 
makes you feel good that you somehow have done something about 
the problem, if it means that you are just spending a lot of 
money but not actually using very much for research and 
development.
    A lot of people will argue that if you put up restrictions, 
it will increase research and development as a byproduct. Now, 
theoretical arguments actually indicate that is, at least in 
the sign, true. But it turns out that that is actually not what 
happens.
    If we look at the the international data on research and 
development, both in renewables and on conservation, where we 
can look at them from the international energy agencies, they 
have been going down and down and down despite Kyoto. So the 
whole point--and if you look at all the countries that have 
accepted Kyoto. The point is that when you put up very strict 
limits, people focus more on how can they just duck under these 
limits than thinking about how can they solve these problems in 
10, 20, 30 years down the line.
    And so I would like to just leave you with two things. I 
don't talk about energy independence because that is not an 
economic discussion. I fully agree that that is part of the 
argument that you could go for, saying we want to have less 
dependence on fossil fuels, and that is a valid argument. That 
is not one that I look at.
    The other one----
    Mr. Inslee [presiding]. Could you wrap up your point Dr. 
Lomborg?
    Mr. Hastert. I thank the chairman for reminding him. Go 
ahead, you have another point to make.
    Mr. Lomborg. The last one is simply you mention that you 
are a very rich country, and if you do can do something you 
possibly should do it. And again that is, of course, the moral 
point; yes, in principle, we should solve all problems. The 
great thing about this Nation is that you can virtually do 
anything you want, only you can't do all of it at once, so 
there still is a discussion of saying, well, which of the many 
great things do you want to focus your attention on?
    Mr. Inslee. Thank you, Doctor
    Mr. Hastert. Dr. Lomborg, thank you very much. We 
appreciate you being here and your testimony. I yield back my 
time.
    Mr. Inslee. I yield 5 minutes to Mr. Inglis of South 
Carolina.
    Mr. Inglis. Thank you for being here, Dr. Lomborg. I am 
interested in one of your charts. I don't know if we can 
somehow get it up on the monitor there, but it is the one about 
cost/benefit analysis.
    It is an interesting trajectory.
    Mr. Lomborg. The one with the 1990 stabilizations?
    Mr. Inglis. There it is, up on the board there. I suppose 
what we are seeing on that chart is something typical of a 
capital investment, right? And that is, the early years of any 
capital investment involve more costs than benefit, I think. 
Isn't that right? If I buy a new air-conditioner, for example, 
for my house, with a higher efficiency, and replace the one I 
have got, it is going to take me a number of years to recoup 
the investment.
    So I wonder how standard those lines are in terms of an 
average capital investment? Particularly the trajectory of the 
benefit line going off the chart there intrigues me. In other 
words, is it continuing on headed up in that fashion? If so, 
then it depends on the time frame as to whether or not that was 
actually a very good investment. If I was an investor I might 
buy that product.
    Mr. Lomborg. I would love to sell that to you, then.
    Mr. Inglis. I don't know how specific you can be with that 
chart. But it just seems to me a fairly standard discussion 
that you have about any capital investment, isn't it?
    Mr. Lomborg. Yes. The difference is that your air-
conditioner will probably pay itself back, if you like air 
conditioning, within 2 or 3 or 4 years and not 2, 3 or 400 
years. And that is the big difference.
    The real discussion here is if you couldn't do it better 
later on, then maybe you should do it right now, yes. But the 
point is we expect that all of the costs in complying--for 
instance, we know, for instance, renewables have been coming 
down in price about 50 percent per decade. So if we could 
postpone investing in renewables and make up for it by 
investing more in them, we at least know there is a backstop 
technology that would make it much much cheaper to do it in 10, 
20, 30 years.
    Mr. Inglis. That is an interesting point. The question is, 
at what point can you get the market going such that 
entrepreneurs and inventors drive the market? Because there is 
a market for it. The early technology is always going to look 
antiquated. If it is a fast-moving market or fast-moving 
innovation, it is going to be antiquated very quickly.
    But the question, of course, for a great country is how do 
you start moving so that you actually get out of the laboratory 
and toward the market?
    My goal as a conservative is to have the market drive a lot 
of this. Isn't that the idea? We can't really wait forever for 
the best technology to come along, because then you don't have 
market forces at work, right?
    Mr. Lomborg. Yes, you are absolutely right. It is a little 
bit like waiting for a computer. At some point you actually 
have to buy it and you can't just say it is going to get better 
next year.
    But on the other hand, you can't buy too early. Denmark was 
a leader in wind technology, for instance. And we put up way 
too many windmills way too soon, because we thought it was a 
cool thing to do.
    The problem is now we actually have to take all of them 
down because we have much better technology that actually 
allows us to put up new windmills that are much more efficient.
    And an argument could certainly be made that we should 
probably invest it in those windmills 10 years later and that 
overall, the Danish Economic Council showed that overall, that 
was a bad investment for Denmark. Now it is probably a good 
investment.
    And as the chairman also pointed out, there are many good 
things to be done and we should certainly do those. But we 
should actually ask ourselves if some of these things are great 
investments. Do that. That is fine.
    But some of these we shouldn't do right now.
    Mr. Inglis. Let me ask you this. You think that Mr. Gore is 
basically taking the worst-case scenario in all of these cases. 
I wonder if the line there, the benefit line changes if you 
assume that those aren't the worst-case projections; in other 
words, that you really do have a situation, let's say, that you 
get an exponential increase in the problem is your projection.
    This chart is too general, I am sure, to answer this 
question with a chart, but it seems to me that it is perhaps 
possible that the benefits would change if you assumed that 
actually those weren't the worst-case scenarios, they were more 
likely scenarios.
    Mr. Lomborg. Yes. Actually, this particular model does 
allow for that. It takes into account there is a probability 
that something very bad will happen, and typically you will be 
willing to pay an insurance price for that. But the point is 
that it doesn't, what is the word, it doesn't change it 
dramatically. It changes it a little bit. And so I am not 
advocating you should do nothing. I am, for instance, saying 
you shall put $2 carbon tax. You should also invest in research 
and development. If you have more probability of very bad 
things happening, you should perhaps set the recovery tax at $3 
and invest $30 billion on research and development. Yes. I also 
say that in my papers. Sorry.
    Mr. Inslee. We now have Mr. Bartlett for 5 minutes.
    Mr. Bartlett. Thank you very much. I am sorry I couldn't be 
here for all of your testimony. I would like to refer to your 
ranking chart that you have where you show from 4 down to 16. 
Is this a ranking of problems, or is this a ranking of the bang 
for the buck in solving problems?
    Mr. Lomborg. It is a ranking of solutions, a bang for the 
buck.
    Mr. Bartlett. Is energy anywhere on the list?
    Mr. Lomborg. No.
    Mr. Bartlett. That is just stunning because I think this 
energy, which is why you are putting up all of those wind 
machines, thank you, energy is probably the biggest challenge 
facing--we may bumble through the global warming thing. If I 
was in Siberia, you might have a hard time convincing me a 
little global warming might be bad, but we are not going to 
just bumble through a peapod. I mean, the energy crisis is 
real. If it is not here now, it is going to be here very 
quickly. So I am just stunned that that is not on your list.
    When my wife goes to the grocery store shopping, one of the 
things that will be on her list is thyroid because she needs 
thyroid medicine. Now if she has only a short-term view, 
nothing is going to happen if she doesn't take thyroid today or 
tomorrow or even the day after tomorrow. But if she doesn't 
take it for the long term, it is going to be absolutely 
disastrous.
    How far down the road, where you are looking when you put 
together that chart or the folks who put it together, how far 
down the road were they looking?
    Mr. Lomborg. It depends because we are comparing very many 
different models. But, for instance, with global warming, it 
was 300 years. Some of these models, when you look at HIV/AIDS, 
they don't nearly stretch that far. They should, but they 
don't.
    Mr. Bartlett. If any of this didn't make your list, how 
come you put up all of those wind machines?
    Mr. Lomborg. It is a good question. We actually did spend a 
fair amount of time thinking about which problems should get in 
there. And what we believe is that, for instance, for energy, 
the private markets do actually provide many of the solutions. 
If you look at the whole discussion about peak oil----
    Mr. Bartlett. You read the HSC report? The big HSC report? 
They believe unless you anticipate peak oil by 20 years, you 
cannot avoid economic consequences. If you anticipate it only 
by 10 years, there will be meaningful economic consequences. 
And if you do not anticipate it at all, which is where we are 
very near peak oil, then there will be very meaningful, 
meaningful economic consequences. I am a strong conservative. 
And I know most of my friends worship the market. They believe 
it is both omniscient and omnipotent. But there are even some 
things God can't do. God can't make a square circle, and there 
are some things the market can't do. You can't pump oil that is 
not there and you can't build a wind machine at only a certain 
rate, and you can't exploit the oil shales of our west at only 
a certain rate. There is only a ramp up time that you need for 
those things.
    For those who you looking for market persons to solve the 
energy problem. I think they are going to be bitterly 
disappointed. That is what the Hirsch report said. You don't 
agree?
    Mr. Lomborg. I don't think I want to get into that 
discussion, particularly because I don't know that report. I 
will just leave you, though, with the point that the Stern 
report, the one that Al Gore was also mentioning, points out 
that from the economists' points of view, there is definitely 
enough oil, at least for the next 50 years. Also on increasing 
demand.
    Mr. Bartlett. I would discourage you of illusion. That just 
flat out isn't true. There is almost nobody. No authority in 
the world who believes that comes anywhere close to being true. 
Is there information out about that that that is the case? Yes. 
Will it be in the quantities we want to use or the prices we 
are paying now? Not on your life. It is just not going to be 
here. It is $60 a barrel now. That may come down momentarily. 
It won't come down for long. It keeps going up and the oil 
keeps getting smaller and demand is higher. It isn't true that 
we don't have to worry about it for 50 years.
    If you haven't heard the HSC Report, HSC is a big 
international corporation that paid for our energy department. 
There is also a report by the core of engineers paid for by our 
military. We are now having a third report prepared by the, 
what is it, the National Council of Oil Council, whatever it is 
that is doing this for our Energy Department. Because they were 
concerned that the two reports they got indicated that we had 
an imminent crisis, and they needed to respond.
    Thank you very much. I yield back.
    Mr. Inslee. We will hear from Mr. Shimkus for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Lomborg. It is great to have 
you here. I am curious on the political spectrum, just 
personally, not to go into specifics, I am assuming you would 
define yourself as center left; is that true?
    Mr. Lomborg. Yes.
    Mr. Shimkus. Just so the Democrats understand that just 
because you are our witness, you probably don't ascribe with a 
lot of the conservative Republican ideology, but you are an 
economist and that is what separates you and brings you some 
credibility to this debate. I would much rather trust an 
economist to understand what the sign is on this, whether it is 
a cost or a benefit than a politician or a lawyer. I appreciate 
your testimony.
    You did say something in response to one of the questions, 
and I just want to highlight before Roscoe leaves, there will 
be other research in capital investments, into other 
technologies like coal to liquid, Roscoe, that will help 
fulfill our need for fuel in the future, and that is the 
importance of that debate.
    Having said that, you did talk about research and 
development. You made a very good point, because my friends on 
the other side say put restrictions up and we are going to have 
research and development. You said, in answer to a question, 
history does not prove that. And can you restate it briefly how 
you responded to that?
    Mr. Lomborg. Yes. I would actually like to expand it. Yes, 
for instance, Kyoto, we do not see increases in research and 
development being allocated because people think about how can 
we just slip under instead of worrying about how can we develop 
technologies 30, 50 years down the line. The second part is 
also that doing something about climate change means getting 
very new technologies that have huge public benefits. But it is 
very hard for private companies to capture them typically 
because what you develop will not actually go to market in a 
marketable form but will feed into the next process, into the 
next development, into the next invection, which will 
eventually lead to something marketable.
    So what you can show is typically these research and 
development projects perhaps have a return from 30 to 50 
percent, but companies can typically only perhaps allocate 20 
percent. And so that is why you need public investment. That is 
actually one of very good places to advocate public investment.
    Mr. Shimkus. In the Vice President's book, he talks about 
this, ``What are you going to tell your kids in 2023,'' 17 
years from now based upon when the book was printed, what are 
you going to tell them? That you failed in the moral 
leadership? I have kids. It is a very real question. If the 
sign is a negative cost to the governments of the world and the 
economy and we slide into a recession, there is another 
question. They are going to ask you did you jump for the 
political expediency in the scientific demagoguery that the 
world was coming to an end throwing us into a recession and now 
we have no jobs. Where were you, dad? Did you stand up against 
the demagogs, or did you say slow down, let us see if this is 
real science. What is the cost benefit analysis.
    I want to read a section that kind of proves this. Imagine 
that there is a new scientific theory that warns of an 
impending crisis and points to a way out. This theory quickly 
draws support from leading scientists, politicians and 
celebrities around the world. Research is funded by 
distinguished philanthropists and carried out in prestigious 
universities. This crisis is reported frequently in the media, 
the scientists taught in college and high school classes. I 
don't mean global warming. I am talking about another theory 
which rose the promise a century ago. I don't know if you know 
what this is. Teddy Roosevelt, Woodrow Wilson, Winston 
Churchill, Oliver Wendell Holmes, Alexander Graham Bell, and it 
was the scientists' theory of eugenics, which was proven 
obviously a terrible, terrible process. And if we are not 
careful, global warming will be the next eugenic failure and a 
scourge on mankind if we don't look at the--where is the sign 
going to be and how do we appropriately address that?
    I would recommend also, folks, to go to www.Lomborg.com. I 
did see your 18-minute presentation that you did at Monterey, 
California. You didn't have much time. 18 minutes. You got it 
all in. And I encourage my colleagues to go to that 
presentation. Thank you for spending your time with us.
    Mr. Inslee. Thank you.
    Mr. Lomborg. Can I briefly comment?
    Mr. Inslee. No, because there was no question there. If 
there had been a question, that would have been great.
    Was there a question? Did I miss it? If you would like to 
ask a question.
    Mr. Shimkus. No. That is fine.
    Mr. Inslee. I think we are going to have a lot of time for 
you to get to the meat of this.
    We move to Mr. Akin from Missouri for 5 minutes.
    Mr. Akin. We are delighted to have you here, and I was 
going to get into something that is a little bit more in the 
weeds, but let me first of all say that we appreciate your 
standing up, and I guess apparently some people didn't like to 
hear what you were saying, and yet you are taking legitimate 
data and just saying hey, think about this. So we appreciate 
that.
    My office has been communicating with a Dr. Jeffrey Hull. 
He is an associate director at Lowell Observatory in Flagstaff, 
Arizona. And they are looking into the ongoing research on 
solar influences on Earth climate. Dr. Hull has been gracious 
enough to provide us actually reports from our office, and he 
notes an important component of the discussion about the 
existence, severity, causes, and consequences of global warming 
is the role played by the sun in recent and historical climate 
change.
    One of the interesting things in his summary was that 
astronomers have been observing solar cycles since the mid 
1600's. This gives us about 400 years of solar observation.
    From this record, I am told that we can see an 11-year 
cycle of sunspot activity that affects the sun's luminosity, in 
a sense how powerfully the sun is radiating. And some 
scientists also believe there seems to be a general increase in 
solar activity since 1715, and that, in essence, there is a 
general increase in luminosity of our sun. It appears that this 
increased solar activity is--that is sun spots--is generally 
associated with greater luminosity of our sun, that a minimum 
of sun spots is associated with less radiation coming from the 
sun.
    I was also interested to learn that from 1645 to 1750 there 
was a period when there were virtually no sun spots observed in 
so-called mold or minimum. There is a chart we distributed, and 
I think is now on the overheads through direct space base 
measurements of the sun. We didn't start beginning to do that 
until the 1980's. There is speculation that the severity of the 
years of the mold or minimum was associated with less solar 
energy reaching the Earth in that cold time period.
    Is it tempting to speculate that a general 400-year warming 
trend to be linked to a general increase in solar activity and 
that type of question is being addressed by current 
researchers. And let me be clear that Dr. Hull is not saying 
that all of global warming is caused by solar variance. That it 
is a part of the complex phenomena.
    Now here is my question. I heard some experts are 
speculating that it is possible that the sun could be heading 
into another long-term absence of solar activity. If so, we may 
be heading into a long-term cooling period. Do you have an 
opinion on the potential of a general cooling because of a 
possible downturn in solar activity, and what do you believe is 
the role of solar variance on global climate overall.
    Also I might throw in as well that we have observed, as I 
understand it, the melting of poles on Mars which again would 
not be from CO\2\. So if you could respond to those questions, 
please.
    Mr. Lomborg. Yes. Again it is important to say I am not a 
scientist. I just read basically the same thing I am sure that 
you do and many others, and so I would say yes, it is very 
interesting. It is certainly something we should be aware of. I 
also know there is a tendency as there is in any scientific 
endeavor of some models being more popular than others. And so 
it is harder for some of the solar hypotheses to get through. 
With that said, I would still say if we are going to make good 
public policy, we need to base it on the best available 
research we know today. Now we might be surprised in 20 years 
and know something else. But right now, the best scientific 
knowledge we have, I would say, comes from the year end climate 
panels so it tells us yes, the Earth is warming. A large part 
of that is due to mankind. Of course, realizing we are going to 
be spending enormous amount of money on this issue. But we 
don't have the luxury in any situation in history to act in 
full and certain information. So we just simply have got to say 
well, until 2007, that was as good as we could do it.
    Mr. Akin. Thank you very much. I read about half of your 
book. I appreciate you being very careful in saying this is 
what we do know, and this is speculative. There is a 
difference, isn't there.
    Mr. Lomborg. Yes.
    Mr. Inslee. Thank you. Mr. Akin yields back. Mr. Shadegg 
for 5 minutes.
    Mr. Shadegg. Professor Lomborg, I want to thank you for 
being here. I want to compliment you on the courage to stand up 
and speak your own view when it sometimes runs against the 
common threads of others in the field, and to incur their 
criticism. I must express for the record how sad I am that the 
other side of the dais is completely empty. Not a single member 
from the majority has decided to stay for your testimony.
    I suggest that they fear what you might say or at least 
that they are not open minded to hearing it. This morning, when 
Vice President Gore testified, the room was full on both sides 
of the aisle. The minority showed in full number, the majority 
showed and now for some reason they are afraid to hear your 
testimony or don't want to keep their minds open to it. I don't 
suggest that suggests a very balanced discussion of this issue 
here in the Congress.
    I want to go over some of the points in your charts to try 
to reemphasize your point.
    You say global climate change is real. You agree with that?
    Mr. Lomborg. Yes.
    Mr. Shadegg. And you believe it is, at least, in part, 
human caused?
    Mr. Lomborg. Yes.
    Mr. Shadegg. On the chart, it is about a third of the way 
in, you talk about it, and you say that on the issue of climate 
change being real, you say that by 2100, the likely rise in 
temperature is only 2.6 degrees Celsius. Do you believe that is 
going to be catastrophic for the world or wipe out humanity?
    Mr. Lomborg. No, of course not.
    Mr. Shadegg. You point out on that same page that .5 
percent, the cost would be $15 trillion, and that would amount 
to less than one half of one percent of the 21st century $3,000 
trillion economy GDP; is that correct?
    Mr. Lomborg. Yes.
    Mr. Shadegg. So that is a relatively minor issue in the 
grand scheme of things; is that correct.
    Mr. Lomborg. Yes.
    Mr. Shadegg. I want to make sure that gets across. So the 
point would be the severity of this is overstated, is that 
correct?
    Mr. Lomborg. There is definitely a tendency to one side, 
yes. I would also add, if you look at the U.N. climate panel 
scenarios, this comes from the U.N. climate panels scenarios of 
$3,000 trillion estimate. If you chose another route, which was 
not so economically focused and not so globally focused which 
you could argue is the kind of approach that is suggested by 
Gore and others, the U.N. estimate is that we would end up with 
about $550 trillion less over the century. So you could very 
easily end up by trying to solve a trillion dollar deficit, 
that is a bad idea.
    Mr. Shadegg. I appreciate that point. Further on the sea 
level rise, you point out that it is expected to be, according 
to the IPCC, believe, 1 foot over the next 100 years, and yet 
you are aware that in his movie, Mr. Gore presents it as a rise 
of 20 feet.
    Mr. Lomborg. Yes.
    Mr. Shadegg. And that is one of the exaggerations that you 
are critical.
    Mr. Lomborg. That is absolutely unsupportable. Imagine if I 
went out and made the opposite exaggeration. If I said instead 
of 1-foot, it would only be half an inch over the next hundreds 
of years. That is just as much exaggeration to the other side. 
I would imagine a lot of people would come out and rightly so, 
criticizing me.
    Mr. Shadegg. And they would lynch you. And they would 
criticize you severely. I found it fascinating that you also 
pointed out that over the last 150 years, it has already been 
about 1 foot. I take it that is also based on IPCC or impurity 
of science.
    Mr. Lomborg. The IPCC only talks about 100 years, but this 
is the best knowledge we have over the last 150 years.
    Mr. Shadegg. On the next page of your PowerPoint, and I 
would urge people to go look at it, you point out that with 
regard to Greenland, Mr. Gore is predicting a 20-foot increase 
in sea level and IPCC is predicting a 1.4 inch increase; is 
that correct?
    Mr. Lomborg. Yes.
    Mr. Shadegg. That is another example of the kind of 
exaggeration in this debate?
    Mr. Lomborg. Yes. It is unlikely to make good judgements.
    Mr. Shadegg. Are you familiar with an article which 
appeared in the New York Times, kind of a right-wing journal 
entitled ``From a Rapt Audience, a Call to Cool the Hype'' by 
William Broad that talks about these exaggerations?
    Mr. Lomborg. I saw that, yes.
    Mr. Shadegg. And in it, it points out that many scientists 
are concerned about Mr. Gore's point being exaggerated and 
erroneous.
    Mr. Lomborg. It is true that there is a lot of scientists 
that will back Al Gore, but I think it is also because they are 
saying, well it is possible. Well everything is possible, but 
we need to get a sense of how probable it is and yes, there are 
a number of scientists----
    Mr. Shadegg. I would encourage people to look at that 
article. I want to conclude by asking you, could you give us an 
estimate of how realistic two goals that Mr. Gore cited for us 
today are? One, how realistic is it to immediately freeze all 
CO\2\ emissions, and two, how realistic or economically 
reasonable is it to reach a 90 percent reduction by 2050?
    Mr. Lomborg. You could reasonably freeze CO\2\ emissions. 
It would be costly but not overly so. It would also have 
absolutely no effect on the climate, certainly no measurable 
effect for the next 50 years, probably 100 years. Reduction by 
90 percent by 2050. I just thought I had never heard him say 
that before, and I think it is ludicrous. It is really not 
something that is going to happen. The British have been toying 
about, and have now decided on 60 percent by 2050 and most 
people seem to think that that is on the verge of not being 
possible. It is certainly going to be very, very costly, and we 
know the estimates of trying to do 90 percent cut from the cost 
benefit models and that indicates that the cost is in excess of 
$85 trillion, and you have got to ask yourself whether that is 
the right way to tell your grandchildren yes, we cared so we 
spent that much money.
    Mr. Inslee. The gentleman's time has expired.
    Five minutes from Mr. Sullivan from Oklahoma.
    Mr. Sullivan. Thank you, Mr. Chairman, and thank you for 
being here today. And I was reading some of the information 
that we had here, and you were actually a member of Greenpeace 
at one time?
    Mr. Lomborg. Yes.
    Mr. Sullivan. And you were considered one of those 
environmentalist extremists at one time?
    Mr. Lomborg. I wasn't out on a rubber boat or anything but 
yes.
    Mr. Sullivan. You obviously aren't doing that anymore. What 
made you change your mind? What did you see when you were 
active in Greenpeace that maybe turned you away from being a 
member anymore?
    Mr. Lomborg. Unfortunately, it is a much more mundane 
story. I was a student. I ran out of money. I think it is 
important to say if it wasn't going to be a provocation, I 
would still be a member of Greenpeace. I think Greenpeace does 
an important piece of work. They point out that there are 
problems and issues that we should be concerned about. But of 
course we shouldn't trust them exclusively. And I think the 
problem that I have with many green organizations is that they 
so very one-sidedly come out and just tell us one side of that 
story.
    And that is unlikely to make good judgements, and that is 
why I think it is important that we hear sort of the full story 
both on the disadvantages. Yes, 2,000 people are going to die 
from heat deaths, but also the advantages, 20,000 are not going 
to die from cold deaths and get a sense of the proportion of 
the costs.
    Mr. Sullivan. Some of these groups, like Greenpeace and 
others, do present themselves one-sidedly, like maybe Vice 
President Al Gore. Wouldn't you agree?
    Mr. Lomborg. Yes. Absolutely.
    Mr. Sullivan. Out of Al Gore's testimony, you are here 
today, and you are doing a great job, and it is not as crowded 
as it was with Al Gore, the media is not clicking the cameras 
like they were when he was in here. Do you see that when you go 
around? Why is it? What is so captivating to the American 
people? What do you think it is that is getting this attention?
    Mr. Lomborg. It is important to say that is not something I 
have any expertise in. I would imagine politicians would know 
that much better. But I will offer this slight thought that I 
think there is something very soothing about having just one 
thing that we need to worry about. And climate change does give 
that sort of purpose a little bit like the Cold War was oddly 
comforting because at least we knew there was just one thing we 
were up against and that was the one coordinating view point of 
the world.
    Maybe it is that, I don't know. But it is certainly 
incorrect in the sense of saying yes, climate change is a 
problem. It is not going to be the end of the world as we said 
before. And we need to realize there are many other problems 
that our kids are also going to ask us why didn't we do 
something about those.
    Mr. Sullivan. What would you say was the most erroneous 
thing Al Gore says when he gives his PowerPoint presentation?
    Mr. Lomborg. Well, two things. First of all, the 7 meters 
of sea level rise, 20 feet sea level rise is simply 
unbelievable that he can get away with saying these kinds of 
things. He is saying it correctly in the sense he simply says 
if Greenland melted, or if Antarctica melted, but you come up 
with a lot of ifs that are not very relevant for public policy. 
It is probably the most played clip from his movie, and of 
course, it looks very, very dangerous, when you look at it. Of 
course, had he actually shown a foot and the same levels, you 
wouldn't have been able to see it on his graphs. I can see why 
he chose to do so, but it doesn't make better information.
    The other thing he said here today is that it is actually 
going to be costless. That we are actually going to make money 
off of it. I think we have to be honest and say things that we 
don't already do and things that are worth while having, cost 
money and there is nothing strange about that. The whole 
discussion is to say how much money are we willing to pay for 
it. At least, let us be honest that it will cost money. How 
much money are we going to be willing to pay for it. How much 
good are we going to get out of it and unfortunately, all peer 
reviewed research shows that it is not actually worth going 
down the road that Al Gore is suggesting?
    Mr. Sullivan. It kind of reminds me, Doctor, remember the 
Y2K, everyone thought that was going to be the end of the world 
too, and I remember I got up the next day and everyone thought 
things seemed to be going fine. I think there were some things 
that needed to be fixed with computers and changing dates and 
whatever they need to do, but maybe they did simply overreact 
in the financial industry and other things and spent money.
    On the 20-foot sea level. Now you say sea levels or the 
consensus of scientists is it would rise 23 inches in the next 
100 years is that correct? He says 20 feet. What do you think?
    Mr. Lomborg. Yes. About a foot. It is from 18-centimeters 
to----
    Mr. Sullivan. OK. In the previous 100 years prior to that, 
how much did the seas rise?
    Mr. Lomborg. They rose about 20 centimeters.
    Mr. Sullivan. Did that have a detrimental effect to the 
globe.
    Mr. Lomborg. It probably had some cost, yes. Every change 
has a cost, but it was a very, very slight one. And we also 
know pretty much that it is going to be a future slight one.
    Mr. Sullivan. Do you think in the next 10 years, we won't 
know the planet as we do today? It will be a disaster, as Al 
Gore says.
    Mr. Lomborg. No. Of course not. It won't.
    Mr. Inslee. We have two more upcoming votes. So we would 
like to hear from Mr. Burgess of Texas for 5 minutes.
    Mr. Burgess. Thank you for your patience today. I almost 
feel like I should apologize for some of the questions you were 
asked earlier when you opened your session. Let me ask you 
about the Copenhagen Consensus, the program that you worked on. 
The participants in that process and the reception you received 
from them, when you began that project, do you think they had a 
concept of going into that project that climate change was 
going to be so low on the scale of incidents that you had 
listed there? Do you think they were surprised about the 
results.
    Mr. Lomborg. That is hard to know actually. I don't know. I 
mean, obviously, all of these people who are Noble laureates 
are pretty knowledgeable people. I am sure they have given some 
thought to these issues. On the other hand, I don't think that 
they have ever systematicized them in the way that we ask them 
to do. They were probably somewhat surprised. I would imagine 
you can't be entirely surprised about your own actions, even if 
you get more knowledge.
    Mr. Burgess. But did they suggest from their comments after 
the ranking was ascertained and then made public, were there 
any comments from the participants that gee, I thought Mr. 
Bartlett, I thought energy would have been on there somewhere.
    Mr. Lomborg. They made those choices and they didn't 
suggest anything. I think, moreover, if you ask people to 
prioritize, it is a very strange experience, because you come 
in and think all you oh, I can easily do that, but suddenly you 
realize, which I am sure you have to do every year when you do 
the budget, you basically realize I can't actually do 
everything, and I have to say if I want more of this, I will 
have to have less of that.
    Mr. Burgess. No, it never stops us.
    Mr. Lomborg. I know a slight problem with that. But still, 
but the issue, of course, was that actually does affect you, 
and that was the main thing that a lot of these people came 
away with that it does sharpen your mind in saying what do you 
want to do first.
    Mr. Burgess. It seems like part of your argument is one of 
the smartest ways to address this problem is to have people 
invest in their own health and welfare. Do you think that is a 
fair statement?
    Mr. Lomborg. It is certainly important if we care about 
people who get malaria, we have got to ask isn't there much 
better ways. If we care about people who get hurt by 
hurricanes, isn't there much better ways to deal with that than 
investing in global warming and the answer is yes.
    Mr. Burgess. And Kyoto takes a different approach to that?
    Mr. Lomborg. Kyoto is not a very efficient way of dealing 
with any problem, not even malaria or hurricanes, and not even 
global warming.
    Mr. Burgess. What about the European Union approach?
    Mr. Lomborg. Not very economic either.
    Mr. Burgess. Vice President Gore ran through about seven 
things. He went through them fairly quickly. We didn't have 
that in his prepared testimony, but I would just like to go 
through those quickly with you and get an idea of those which 
you think are reasonable suggestions and those which you think 
are less reasonable.
    The first one, I guess, we have already answered with the 
European Union approach accelerating Kyoto from 2012 to 2010. I 
am going to assume you would not put that high on a list if you 
were prioritizing.
    Mr. Lomborg. I think it is unrealistic.
    Mr. Burgess. What about the concerns of methane from the 
tundra and landfills?
    Mr. Lomborg. It is important to say that dealing with land 
cover methane is probably a good suggestion. It is probably one 
of the cost efficient ways of dealing with it. So I think the 
Vice President is absolutely right there.
    Mr. Burgess. What about, he talks about a moratorium on 
coal plants an absolute moratorium on coal plants, unless we 
deal with carbon dioxide or carbon capture from those coal 
plants.
    Mr. Lomborg. I think there is a general problem in trying 
to say we want to regulate individual areas. You want to put a 
general carbon tax. That was actually Mr. Gore's second 
proposal, and I fully agree with that. Of course, that should 
be a scientifically-based carbon tax and that should be a $2 
carbon tax, but then you should leave it up to the market to 
decide where should you basically take it into account that 
extra malady. You shouldn't ban building of coal-fired power 
plants. You should make sure they pay the right price.
    Mr. Burgess. We heard testimony in this committee, I think, 
it was yesterday that in order to capture 60 percent of the 
carbon from coal-fired power plants, it would retire 
duplicating the existing natural gas pipeline in just this 
country in order to sequester carbon. The electronet which we 
talked about, we actually have that in Texas. I am going to 
assume that is a reasonable suggestion.
    Mr. Lomborg. Probably yes.
    Mr. Burgess. One of the things he talked about that 
actually sounded intriguing, in the very little bit of time I 
have left, was the concept that you build environmentally in a 
more sensible fashion, more energy-efficient fashion, since a 
lot of these things are going to cost more at the outset of 
building a house or business that you be able to amortize those 
over the life of the loan or the life of the business. Does 
that seem like a reasonable suggestion.
    Mr. Lomborg. It is possible that it could be a good 
suggestion. You should also be very aware that many of these 
estimates have turned out to be wildly exaggerated in the 
sense--there is an enormous technology optimism in many of 
these kinds of projects. I don't know if you remember the 
similar technology optimism against nuclear power in the 
1950's. We have a tendency to expect that this is going to be 
very cheap. It is going to pay itself back very quickly, and 
the reason why people don't do it is typically because they 
know there are more problems than what is being taken into 
account.
    Mr. Inslee. Thank you, Doctor. We will now allow 5 minutes 
from Mrs. Bono of California.
    Mrs. Bono. Thank you, Professor, for your testimony and for 
staying with us this long and sitting through Al Gore's 
testimony as well.
    I have probably a bigger fear than most people do here in 
this room. Certainly, I also, like my colleague Congressman 
Shadegg, wish Democrats were here to hear what you have to say, 
because I am actually undecided on this issue, and am trying to 
find a way to move forward into the future. I am completely 
open-minded. I appreciated Vice President Gore's testimony as 
well as yours. But in California, we have experienced energy 
crises. I live in the Palm Springs area. It is beautiful 9 
months out of the year, but 3 months are quite hot. We have 
worked in Congress to enact public policies that expand the 
LAHI Program, which is public assistance, generally speaking, 
for the cold areas to pay for heating costs. We have moved that 
into the desert Southwest region for people to pay for high 
cost cooling costs.
    But I am concerned that we in this town will enact policies 
too quickly that may cause deaths. And I know you said that by 
2008, that we might have 2,000 more heat-related deaths because 
of global warming, but I am concerned that immediately, because 
if it is flawed public policy, it will create more deaths in 
hot climates, because of people not being able to afford their 
cooling.
    There is some thinking, and actually, Senator Boxer is a 
constituent of mine. We share a region. She moved to my area. I 
love working with her on most issues but on this one, I am 
concerned. Today, I read in a local paper, Roll Call, where she 
says, and I quote, ``If the President chooses to veto a bill, 
that sets it up as a huge issue in the presidential election, 
Boxer said.'' She goes on to say. ``So we will do our best to 
get as many bills on his desk as we can that deals with 
greenhouse gas reduction. I think it is key that we do that, 
because I do want to set it up for the presidential campaign, 
which is another one of my goals.''
    So as a resident of southern California when I see people 
die every year because they can't afford their cooling costs, 
this sort of thinking scares me and I would appreciate your 
bringing some common sense and trying to slow the pendulum down 
from going the other way.
    My question is simple, and perhaps I am setting myself up 
for a loss. But is it possible that we can enact and pass some 
of these policies that will actually increase costs in the 
immediate sense that right away, these cooling costs will get 
to be too high for my constituents, and I will see more people 
die. It is a very simple question, but I am afraid of that.
    Mr. Lomborg. I am absolutely sure you can make bad deals, 
make bad policies. I am sure everyone here recognizes the 
possibility of making bad political deals. So you have to be 
careful. That doesn't mean we shouldn't enact any policies, but 
it means we need to carefully weigh cost and benefits on both 
sides. I don't know anything about this particular area of Palm 
Springs.
    Mrs. Bono. It was 1:30 Saturday. So it was a record for us.
    Mr. Lomborg. Yes. And absolutely we will see more of these 
records, because global warming is right as we believe it is. 
We will see increasing temperatures. But we have got to 
remember that there will also be fewer cold deaths. And the 
whole point here is to say there is something curious--in 
Britain, we have these numbers how people talk incessantly 
about the 2,000 Brits who died in the 2003 European heat wave, 
but don't talk about the 25 to 50,000 Britons who die every 
year from cold. And we need to have that conversation. It is 
not the same thing as saying that the outcome is obvious but it 
is to say we shouldn't just go down one road. We shouldn't just 
be concerned about one issue.
    Mrs. Bono. The question I have, the public policy, 
California passed a very flawed bill that created the energy 
crisis that we lived through, and we are continuing to see the 
effects from. So really, for me as a policymaker, to be 
completely open minded, and I appreciate your being here, as my 
colleagues have pointed out, you are not a traditional witness 
for us, but I appreciate you brought to the dialog a different 
point of view.
    And that is my concern, that this shouldn't be set up by 
election timetables. It really ought to be set on public policy 
that really affects people's lives.
    Mr. Lomborg. Absolutely. As one of the economists point 
out, which I think is very, very true, that global warming is a 
100-year problem. And there is something wrong in believing 
that it is something that we can fix within 10 or 15 years. It 
is going to require long-term work between--what they say it is 
a problem that will need work between continents, between 
generations and between political parties. And you can only do 
that by not trying to force the issue and try to say we need to 
now. That is going to turn out actually to be 
counterproductive, because people are going to fall apart. That 
was essentially what we saw with the Kyoto protocol. We need to 
make sure that we do smart moves that are going to lead us down 
the right path but recognizing there are many other problems.
    Mrs. Bono. Thank you.
    Mr. Inslee. Thank you. We will have a vote fairly shortly. 
It would be the Chair's intention to continue until we run up 
against the vote when we gavel that. So I will yield myself 5 
minutes.
    Dr. Lomborg, this is really interesting to me for a lot of 
different reasons. One of them is you are the sort of 
designated hitters for the Republicans. We have a baseball game 
every year, and you are the designated hitter for the 
Republican Party. And you have come across the pond and one of 
the things you said, I think if I understand this correctly, 
that you believe it is an appropriate policy to adopt a carbon 
tax on energy sources that use carbon. And I think I heard you, 
something in the neighborhood of $2 a liter, or gallon.
    Mr. Lomborg. Oh, no. $2 per ton of carbon dioxide.
    Mr. Inslee. I am glad you clarified that. But the point is, 
it is stunning to me if the Republicans essentially brought you 
here to diminish this problem and to diminish the necessity of 
having a policy to deal with it, the only person they could get 
in the world came here to tell us that we ought to have a 
carbon tax.
    Now, I tell you why that is stunning. It does not exactly 
fit in the Republican sort of approach to these issues. And 
what it tells me, what it tells me is that at least one 
economist in the world, and that is you, believes this problem 
is bad enough, that it deserves a tax on carbon which is a 
fairly significant event. That is what it tells me. And I want 
to ask you why, and with this question: I know President Note 
of the Marshall Islands. He is the president of the Marshall 
Islands. It a very low atoll in the South Pacific. He is 
contemplating a day when he will have to move his entire nation 
and abandon his entire nation because of this 1 foot rise, 
which is anticipated on a more likely-than-not basis in the 
next century.
    Now, maybe to some of us, that is not a big deal. But to 
him, it is a really, really big deal that he has to move his 
entire nation. And is now already trying to barricade the 
Pacific, and we haven't talked about the acidification of the 
ocean today, which is killing the corals, which according to 
the science, we won't have any coral reefs that are healthy 
which protects his island nation.
    I also know a guy named, a Mayor Tocktoo, who is the mayor 
of Shishmaref. It is an American city. It is on the Arctic 
Ocean on the northern coast of Alaska. Shishmaref, Alaska is 
going to be the first city in Alaska that has to be abandoned 
because of global warming. Now, maybe that 1-foot rise doesn't 
mean much to many of us here, but I can tell you to Mayor 
Tocktoo, who has lived there with his people for 4,000 years, 
and because of this issue, we are going to have abandon the 
first American city, not hypothetically. But they got plans to 
do it and they know where they are going, 13 miles to Tin 
Creek, Alaska. They are going to have to pick up and move.
    Now what I sense you are telling us, in sum, after 
listening to you here for quite a while, is that this problem 
is big enough, bad enough, and serious enough that we ought to 
have a tax on carbon. And I am not saying I agree with that, 
but I want to know what your position is on that regard?
    Mr. Lomborg. Thank you very much. There were a couple of 
questions in there. I am not here because I am going to support 
one side or the other. I think I was also asked earlier on. I 
probably consider myself slightly left-wing in a Danish 
perspective, which probably makes me a socialist, or worse, 
here.
    But the whole point is, as the Vice President also pointed 
out, if there is a negative impact from carbon dioxide, any 
economist will tell you you should tax that. You should 
essentially make sure that you tax the externality.
    What I am saying though, and I hope I am also getting that 
message through, is that the only scientifically justifiable 
amount is somewhere between $2 and $15. So that is much lower 
tax than what most people are suggesting.
    Mr. Inslee. Could you give a brief answer?
    Mr. Lomborg. Alaska, Marshall Islands, I think it is 
important to say as we also realize in the last 150 years, it 
is very rare that we actually give up lands. We actually do 
defend it and it turns out to be very, very cost efficient.
    Mr. Inslee. With all due respect, the president of the 
Marshall Islands doesn't have anywhere to defend. It is all 
going to be underwater.
    You have continually questioned the former Vice President 
of the United States, suggesting that he essentially was saying 
something inaccurate about Greenland melting, and I believe you 
have continually misstated what he has told the public. And I 
want to read to you what it says on page 196 of his book of 
``An Inconvenient Truth''. It says ``If Greenland melted or 
broke up and flipped into the sea, or if half of Greenland and 
half of Antarctica melted or broke up or slipped into the sea, 
sea levels worldwide would increase by between 18 and 20 
feet.''
    Do you agree with that statement?
    Mr. Lomborg. Yes.
    Mr. Inslee. And the reason you agreed to it is because it 
is true, and that is what former Vice President Gore has told 
people. And I frankly, am a little bit taken aback that you 
would try to misstate his statement because he has told 
repeatedly that we are looking at 1 foot rises during the next 
century in a more probable-than-not basis. There are phenomena 
that could rapidly, rapidly cause melts that we don't 
understand.
    And in the last 4 weeks, scientists in my home town have 
found melting of the Arctic way, way, way beyond anything 
anybody predicted. And in the last 2 months, and my time has 
expired. I will allow you to comment, if you would like, to 
comment on that.
    Mr. Lomborg. Three things. You do say that the Marshall 
Islands have no way of solving this. I do know of the only peer 
reviewed study we have of all of the land area and actually 
shows that we will lose very, very little land area. Because 
people can actually take action. I don't know about the 
Marshall Islands. I am sorry. I didn't bring that study, but I 
do know for instance, about the Shasalsa, the Maldives, the 
Tulavu, all of the other islands that we worry about, and they 
are not going to lose significant amounts of land areas simply 
because we are rich enough and they will be rich enough to deal 
with that and that is very likely the case with Alaska.
    When you talk about my misrepresenting the Vice President, 
I would like to refer you back to the statements earlier. I did 
actually say that was exactly what the Vice President said. 
However, it doesn't take a Ph.D. to point out that when you put 
that image into the public area, which the Vice President has 
done very clearly with the movie, it is being projected as 
something that could happen. He also talks about, and I quote 
from the book, how it could lead to an evacuation of the 
Beijing area. That is not something that happens over 100, 200 
years. That is something that would happen very rapidly.
    Mr. Inslee. Excuse me. I am sorry to put further comments 
into the record, but I have gone way over my time, and I am 
going to now yield to Mr. Barton for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. Did you ask a full 5-
minute second round or just one question? I just want to know.
    Mr. Inslee. Our intention is go as far as we can until the 
next vote.
    Mr. Barton. I wanted to know what the constraint was.
    Dr. Lomborg, I want to read the same quote that Chairman 
Inslee just read. If Greenland melted or broke up and slipped 
into the sea, or if half of Greenland and half of Antarctica 
melted and slipped into the sea, sea levels worldwide would 
increase by 18 to 20 feet. You said that would agree with that.
    My question to you is what is the probability, in your 
mind, or in the consensus in the scientific community today, of 
Greenland melting and breaking up, or half of Greenland and 
half of Antarctica melting and breaking up? What is the 
probability of that?
    Mr. Lomborg. I don't think we can answer that very well, 
but it is clearly not very big and it was not one that was 
considered reasonably----
    Mr. Barton. Is it 1 in 100, 1 in a 1,000?
    Mr. Lomborg. Probably lower than 1 in 100 and of course, 
that is why I would like to take issue with the statement of 
saying I am misrepresenting the Vice President. It is clearly 
the most viewed clip from his whole movie. It scares people and 
it scares people because it makes them think this might 
actually happen. Now it is true that everything might actually 
happen. Everything has a non-zero probability.
    Mr. Barton. Well, if Texas fell into the sea, the sea level 
would probably lower by 2 or 3 feet, because Texas is very big. 
So I mean I could point out that, too.
    Mr. Lomborg. If we are going to have serious and reasonable 
conversation on this issue, you have to present the facts in 
the best possible way that we can. And Mr. Vice President Al 
Gore certainly didn't do that when he chose to only focus on 
the 18 to 20 and not----
    Mr. Barton. Isn't it true that the IPCC, not Vice President 
Gore, but the IPCC says based on the best scientific evidence 
that they have today, sea levels are going to go up about 23 
inches in the next 100 years?
    Mr. Lomborg. Twenty-three inches must be the top level, 
yes, of 59 centimeters yes.
    Mr. Barton. If you have answered this question, you don't 
have to answer it again. The Vice President seemed to indicate 
in his testimony, that if we just do some of these mandatory 
things on carbon in the U.S., the Chinese would be morally 
obligated to follow us. In your interaction with the 
international community, do you see any evidence that the 
Chinese will follow us out of some sense of moral obligation 
given the fact they are building one coal-fired plant a week 
and as far as I know, they don't seem to be using the best 
control technology and they are not building many nuclear 
plants?
    Do you share the Vice President's view that the Chinese are 
on the verge of becoming born again true believers in doing the 
right thing environmentally, even if it costs them four or five 
times when it would cost them to build the kind of plants they 
are building right now?
    Mr. Lomborg. No. But I actually thought Al Gore was pretty 
moderate in that particular estimate. He told us what they say 
is something very different from what they do. And he said it 
has been more likely that the U.S. enacted greenhouse gas curbs 
that it probably still is fairly----
    Mr. Barton. It is my view of the Chinese and given what 
they have done on intellectual property, what they have done 
with their military technology, in fact what they have done in 
every area is that they do the least absolute possible and 
still be involved in international commerce. That they have 
almost no sense. I won't say they have none. But they have 
minimal sense of any kind of a western civilization type moral 
obligation.
    And when Chairman Dingell and I were at Kyoto back in the 
early 1990's, he asked the Chinese when they would see fit to 
engage in some sort of Kyoto type protocol. They said they 
wouldn't do it in 10 years. They wouldn't do it in 100 years, 
and they finally admitted to Chairman Dingell, they probably 
wouldn't do it in 1,000 years.
    Now that was their position in the early 1990's. It is 
possible that they have changed, but I think it is unlikely. 
And with that, we thank you for your testimony and I yield 
back.
    Mr. Inslee. Thank you, Dr. Lomborg. We are going to have 
one more question area, and we are going to have a vote. So we 
are going to have to excuse ourselves. So if you can keep your 
answers relatively succinct, so we can make sure Mr. Shimkus 
gets through.
    Mr. Shimkus. Thank you. Dr. Lomborg, what is the cost of 
fear and how does it affect the economic analysis that you try 
to do?
    Mr. Lomborg. We certainly know from the biggest study of 
the cost of saving human lives in the U.S. through different 
policy areas and they only looked at policies that were 
designed to save human lives, both in traffic, health, safety.
    Mr. Shimkus. But what about----
    Mr. Lomborg. No. I am sorry. I have a very specific answer 
to that question. The cost there turned out to be that you 
avoid, or you forego saving about 60,000 Americans each year 
because you overworry about some very highly publicized but 
fairly low incident fears and forget some of the very many and 
much more amenable fears.
    Mr. Shimkus. So there is a great cost of fear?
    I bring this up because I want to read a quote from a Dr. 
Stephen Schneider, who is quoted in Discover Magazine in 
October of 1989. He says this, and I will just read the small 
part,

    To do that we need to get some broad-based support to 
capture the public's imagination. That, of course, entails 
getting loads of media coverage. So we have to offer you up 
scary scenarios to make simplified dramatic statements and make 
little mention of any doubts that we might have. This double 
ethical bind we frequently find ourselves and cannot be solved 
by any formula. Each of us has to decide what the right balance 
is between being effective and being honest.

    I hope that means being both. And this is in response to 
scientists who have data--facts are tough things. They have 
data. They know the questions but for the sake of pushing a 
cause, like the whole Greenland quotes, what the Vice President 
has done and I think in conjunction with your testimony, is he 
is doing this double bind ethical--this is not a cost benefit 
analysis approach. This is the ends justify the means. Let us 
scare the world, let us say there is going to be 20 feet sea 
rises and let us bend the economic assumptions, which you have 
tried to analyze, really get distorted. Is that so?
    Mr. Lomborg. Yes. Very much so.
    Mr. Shimkus. So you have been attacked by the scientific 
community because my analysis is you are trying to expose and 
just say come on scientists, let us just use the facts. And 
that helps the decisionmakers apportion our public policy on a 
cost benefit analysis approach.
    Mr. Lomborg. Yes. I might also just add that Dr. Schneider 
who made that quote, I am sure he has regretted that quote many 
times. He was actually one of the esteemed people that wrote 
criticism of me in Scientific American which I find a little 
amusing and slightly ironic.
    Mr. Shimkus. So the guy who attacked you for being 
disingenuous is a guy who admitted to falsifying or distorting 
for political purposes----
    Mr. Lomborg. Or at least not being alien to that concept.
    Mr. Shimkus. I appreciate your time here and your patience 
with us. And I can yield back. I yield my time to the Speaker.
    Mr. Inslee. The Speaker for the remaining time.
    Mr. Hastert. I have a letter here from President Klaus that 
I would like to submit. I think you have seen it.
    Mr. Inslee. Without objection. So ordered.
    Mr. Hastert. I also want to thank our witness today who 
came a long way. You have taken a few bumps. You have performed 
very well. I am sure that we don't really see eye to eye on 
everything that you have to talk about, but I think you have 
brought a new perspective and made us look at this issue much 
deeper, and I appreciate, Dr. Lomborg, your being here and your 
participation.
    Mr. Inslee. Dr. Lomborg, if you run into Svin Aukin in 
Copenhagen, say hello for me and tell him we are going to do 
some wind turbine construction and cogeneration and green 
building here in this country, and we are going to do some 
great things with those.
    Mr. Lomborg. He is going to be absolutely thrilled.
    Mr. Inslee. We are adjourned.
    [Whereupon, at 5:00 p.m., the hearing was adjourned.]
    [Material submitted for inclusion in the record follows:]
    June 5, 2007

    The Honorable Al Gore, Jr.
    Nashville, TN 37203

    Dear Mr. Vice President:

     Thank you for appearing before the Subcommittee on Energy 
and Air Quality on Wednesday, March 21, 2007, at the joint 
hearing with the Committee on Science and Technology entitled 
``Perspectives on Climate Change.'' We appreciate the time and 
effort you gave as a witness before the subcommittee.
     Under the Rules of the Committee on Energy and Commerce, 
the hearing record remains open to permit Members to submit 
additional questions to the witnesses. Attached are questions 
directed to you from certain members of the committee. In 
preparing your answers to these questions, please address your 
response to the Member who has submitted the questions and 
include the text of the Member's question along with your 
response.
     To facilitate the printing of the hearing record, your 
responses to these questions should be received no later than 
the close of business on June 19, 2007. Your written responses 
should be delivered to 2125 Rayburn House Office Building, 
Washington, DC, 20515, and faxed to (202) 225-2899 to the 
attention of Rachel Bleshman. An electronic version of your 
response should also be sent by e-mail to Ms. Bleshman at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="483a292b202d24662a242d3b2025292608252921246620273d3b2d662f273e66">[email&#160;protected]</a> Please send your response in a 
single Word or WordPerfect formatted document.
     Thank you for your prompt attention to this request. If 
you need additional information or have other questions, please 
contact me or have your staff contact Ms. Bleshman at (202) 
225-2927.

    Sincerely,

    John D. Dingell
    Chairman

    Cc: The Honorable Joe Barton, Ranking Member
    Committee on Energy and Commerce

     The Honorable Rick Boucher, Chairman
     Subcommittee on Energy and Air Quality

     The Honorable J. Dennis Hastert, Ranking Member
     Subcommittee on Energy and Air Quality

     The Honorable Bart Gordon, Chairman
     Committee on Science and Technology

    The Honorable Ralph M. Hall
     Subcommittee on Energy and Air Quality

     The Honorable Tammy Baldwin
     Subcommittee on Energy and Air Quality

                Questions from the Honorable Ralph Hall

    1. Mr. Gore, in your testimony you stressed that climate 
change should be an issue where partisan politics are put 
aside. Unfortunately, the complexity of the issue lends itself 
to confusion and criticism of those that ask questions in the 
quest of understanding. For example, Congressman Reichert and I 
want to learn more and investigate the facts of what has caused 
global warming and to what level man has contributed prior to 
determining the best course of action to address the problem. 
So please assist in resolving areas of conflicting information 
for me.
    Your movie makes a compelling argument for how mankind has 
contributed to C0\2\ in the atmosphere. However, some 
scientists, including those on the Intergovernmental Panel on 
Climate Change say they have a ``low'' level of understanding 
surrounding water vapor in the atmosphere. Scientists say that 
water vapor makes up 95 percent of the atmosphere and is a 
major greenhouse gas. The remaining 5 percent of the atmosphere 
is where scientists have a greater level of understanding.
       a. What are your thoughts on this and in your view how 
much more do we have to learn about the content of the 
atmosphere and the effect on global warming?
       b. Certain scientists argue that throughout history, 
while there is a correlation between C0\2\ and warming, it is 
reversed. C0\2\ increases after warming, not before. In fact, 
the strongest causal correlation found has to do with sun spot 
activity. Can you help me reconcile competing views on this 
topic?
       c. Are you open to having a dialog with those whose 
scientific conclusions seem to conflict with what you are 
saying so there is a better understanding of the differences 
amongst various scientific conclusions?

     2. Is it your opinion that in order to stabilize 
atmospheric C0\2\ concentrations, other countries will have to 
reduce their emissions as much as the United States? Do you 
expect countries like China to reduce their emissions at 
roughly the same time as the United States? What will happen to 
the United States companies/industries in the near term that 
face competition from countries that do not reduce their 
emissions until much later?

     3. In developing a long term, comprehensive climate change 
strategy for the United States, do you believe adaptation 
should play a role? If so, what role do you think adaptation 
should play? How would you measure and compare the costs and 
benefits of adaptation to the costs and benefits of carbon 
controls?

               Questions from the Honorable Tammy Baldwin

    1. As an esteemed lawmaker and a leader on environmental 
matters, it was a pleasure to have your unique perspective as 
we continue our series of hearings on climate change and move 
forward with legislation to address the issue.
    You have made it your life's mission to raise the profile 
of global warming--and through your work on the Energy & 
Commerce Committee, your participation in the Kyoto Protocol, 
the publication of two books, and the documentary production of 
``An Inconvenient Truth,'' you have alerted the world to the 
dangers of climate change and the opportunities that lie ahead 
in addressing this global challenge.
    I agree that the science is clear--and now it is time for 
action. This means the creation of sound policy that will 
result in reduced greenhouse gas emissions, improved energy 
efficiency, and increased fuel economy standards. These issues 
must be confronted head on, by taking aggressive steps that put 
our Nation at the forefront of the world and allow us to be 
global leaders in the movement for change.
    Unfortunately, over recent years, there has been a 
disconnect. Despite the growing body of knowledge about the 
rising global climate, it has not been met with the kind of 
bold action that is needed to meaningfully bring about change.
    What do you consider the greatest impediments individuals, 
businesses, and government face in taking bold action to 
respond to the challenge of climate change?

     2. We all agree that it will be a challenge to enact 
meaningful legislation that will push the envelope in terms of 
creating efficient, effective, and environmentally friendly 
climate change programs. But it can be done. In fact, it must 
be done.
    And our role in addressing this issue matters. People 
around the world are watching us--looking to us to set an 
example. As Americans, we have an obligation to ourselves and 
to the world to take on this task and become teachers and 
leaders to show the world that we are willing to take bold 
action to protect humankind and the planet itself.
    Last year, I joined many of my colleagues on the Energy & 
Commerce Committee on a fact-finding tour of some countries 
that are innovators in clean, efficient, renewable, energy 
production. We visited countries that have significantly 
smaller footprints on the world than we have, both in terms of 
geography and population, yet they are making significant 
advances that improve the quality of the air they breathe, the 
food and water they consume, and the lifestyles they pursue.
    I was particularly impressed by what I saw in Denmark--the 
world's leading producer of wind energy, and in Sweden, a 
country in the process of phasing out its nuclear energy 
because they have reached a political decision that it is not a 
sustainable resource.
    You, too, have traveled the world and seen the impact of 
sound energy and environmental policies. How can we match the 
progress made by these innovative nations and emerge as an 
international leader?

     3. For decades, America's economy has been the world's 
strongest--and for decades we have maintained that distinction, 
due to the bold commitment of previous generations of American 
leaders who made investments in our people and their 
potential.In my district in south central Wisconsin, the 
potential for innovation is great. In fact, Wisconsin is 
emerging as a leader in advancing innovative solutions to 
address climate change. For instance, the University of 
Wisconsin-Madison is contributing to an international fusion 
energy program that will provide a viable energy source with no 
greenhouse gas emissions. Also, a company in my district, 
Virent Energy Systems, has been able to turn biomass into 
gasoline--not ethanol, but gasoline. And, yet another company, 
Spectrum Brands, is developing a unique, safe, and on-demand 
hydrogen fuel generator.
    Despite the amazing ingenuity, challenges exist in terms of 
funding and making products commercially viable. What 
recommendations can you offer to increase America's 
opportunities for innovation?

     4. My home State of Wisconsin has a proud and historic 
tradition, known as the Wisconsin Idea--the notion that our 
great research institution, The University of Wisconsin-
Madison, serves not just those on campus, but all the people of 
the state and, in fact, the Nation. (You'll recall that our 
Nation's Social Security Plan was formulated by some UW 
Professors).
    Today, the University of Wisconsin is fostering innovative 
research and has, as an institution, taken many steps to reduce 
its emissions by becoming more energy efficient and investing 
in clean energy sources.
    Our capital city, Madison (and 12 others in our State) have 
become ``Cool Cities'' by signing the U.S. Mayors Climate 
Protection Agreement. These Wisconsin cities are aiming to 
reduce their global warming emissions by an amount equal to 
what would be required under the Kyoto Protocol.
    What can Congress do to help local governments, 
universities and other private entities (institutions), in 
Wisconsin and across the country contribute more to finding 
solutions that will slow, stop and reverse global climate 
change?
                              ----------                              

    [Editor's note: Responses from Mr. Gore to these additional 
questions had not been received when this hearing was printed.]

[GRAPHIC] [TIFF OMITTED] T7579.055

[GRAPHIC] [TIFF OMITTED] T7579.056

[GRAPHIC] [TIFF OMITTED] T7579.057

[GRAPHIC] [TIFF OMITTED] T7579.058

[GRAPHIC] [TIFF OMITTED] T7579.059

[GRAPHIC] [TIFF OMITTED] T7579.060

[GRAPHIC] [TIFF OMITTED] T7579.061

[GRAPHIC] [TIFF OMITTED] T7579.062

[GRAPHIC] [TIFF OMITTED] T7579.063

[GRAPHIC] [TIFF OMITTED] T7579.064


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
